No. _______
IN THE

Supreme Court of the United States
AMERICAN HOSPITAL ASSOCIATION, et al.,
Petitioners,
v.
NORRIS COCHRAN, in his official capacity as the Acting Secretary of Health and Human Services, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit
PETITION FOR A WRIT OF CERTIORARI

DONALD B. VERRILLI, JR.
Counsel of Record
JEREMY S. KREISBERG
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave. NW
Suite 500E
Washington, DC 20001
(202) 220-1100
Donald.Verrilli@mto.com
Counsel for Petitioners

i
QUESTION PRESENTED
Under federal law, the reimbursement rate paid by
Medicare for specified covered outpatient drugs is set
based on one of two alternative payment methodologies. If the Department of Health and Human Services
(HHS) has collected adequate “hospital acquisition
cost survey data,” it sets the reimbursement rate equal
to the “average acquisition cost for the drug,” and “may
vary” that rate “by hospital group.”
42 U.S.C.
1395l(t)(14)(A)(iii)(I). If HHS has not collected adequate “hospital acquisition cost data,” it must set a reimbursement rate equal to the “average price for the
drug,” which is “calculated and adjusted by [HHS] as
necessary for purposes of” the statute. 42 U.S.C.
1395l(t)(14)(A)(iii)(II).
The question presented is whether Chevron deference permits HHS to set reimbursement rates based
on acquisition cost and vary such rates by hospital
group if it has not collected adequate hospital acquisition cost survey data.

ii
PARTIES TO THE PROCEEDING
Petitioners are the American Hospital Association,
the Association of American Medical Colleges, America’s Essential Hospitals, Northern Light Health,
Henry Ford Health System, and Fletcher Hospital,
Inc., d/b/a AdventHealth Hendersonville. Petitioners
were appellees in the court of appeals.
Respondents are Norris Cochran, in his official capacity as Acting Secretary of Health and Human Services, and the Department of Health and Human Services. Appellants in the court of appeals were Alex M.
Azar II, in his official capacity as then-Secretary of
Health and Human Services, and the Department of
Health and Human Services.

iii
RULE 29.6 DISCLOSURE STATEMENT
Petitioners the American Hospital Association, the
Association of American Medical Colleges, and America’s Essential Hospitals are not-for-profit associations. Petitioners Northern Light Health, Henry Ford
Health System, and Fletcher Hospital, Inc., d/b/a AdventHealth Hendersonville (a member of AdventHealth) are not-for-profit health care systems.
There is no parent or publicly held company owning
10% of their stock.

iv
RELATED PROCEEDINGS
The proceedings directly related to this case are:
•

American Hospital Association, et al. v. Azar, et al.,
Nos. 19-5048 & 19-5198, U.S. Court of Appeals for
the D.C. Circuit. Judgment entered July 31, 2020.
Rehearing denied October 16, 2020.

•

American Hospital Association, et al. v. Azar, et al.,
No. 1:18-cv-02084. U.S. District Court for the District of Columbia. Judgment entered July 10, 2019.

v
TABLE OF CONTENTS
Page
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTORY PROVISIONS INVOLVED ................. 1
STATEMENT OF THE CASE.................................... 2
REASONS FOR GRANTING THE PETITION ....... 14
A.

The decision of the court of appeals
conflicts with the limits on Chevron
deference that this Court has
established. ............................................... 16

B.

The question presented is exceptionally
important. ................................................. 28

CONCLUSION ......................................................... 34
APPENDICES:
Appendix A: Opinion of the United States
Court of Appeals for the District of Columbia
Circuit (July 31, 2020) .............................................. 1a
Appendix B: Memorandum Opinion of the
District Court Granting Petitioners’ Motion for
a Permanent Injunction (December 27, 2018) ....... 44a
Appendix C: Memorandum Opinion of the
District Court Granting In Part Petitioners’
Motion for a Permanent Injunction and
Remanding to the Department of Health and
Human Services (May 6, 2019) .............................. 87a

vi
Appendix D: Memorandum Opinion of the
District Court Granting Respondents’ Motion
for Entry of Final Judgment (July 10, 2019) ....... 113a
Appendix E: Order of the United States Court
of Appeals for the District of Columbia Circuit
Denying Rehearing (October 16, 2020) ................ 118a
Appendix F: Relevant Statutory Provisions ........ 119a

vii
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Am. Hosp. Ass’n v. Azar,
895 F.3d 822 (D.C. Cir. 2018) ................................ 9
Amgen, Inc. v. Smith,
357 F.3d 103 (D.C. Cir. 2004) .............................. 26
Arangure v. Whitaker,
911 F.3d 333 (6th Cir. 2018) ................................ 26
Astra USA, Inc. v. Santa Clara Cnty.,
Cal.,
563 U.S. 110 (2011) .............................................. 30
Chevron U.S.A., Inc. v. Natural
Resources Defense Council, Inc.,
467 U.S. 837 (1984) .......................................passim
City of Arlington v. FCC,
569 U.S. 290 (2013) ........................................ 15, 27
Cyan, Inc. v. Beaver Cnty. Emps. Ret.
Fund,
138 S. Ct. 1061 (2018) .......................................... 20
Czyzewski v. Jevic Holding Corp.,
137 S. Ct. 973 (2017) ............................................ 20
Davis v. Echo Valley Condo. Ass’n,
945 F.3d 483 (6th Cir. 2019) ................................ 26
Epic Systems Corp. v. Lewis,
138 S. Ct. 1612 (2018) .................................... 17, 20

viii
TABLE OF AUTHORITIES
(continued)
Page(s)
FDA v. Brown & Williamson Tobacco
Corp.,
529 U.S. 120 (2000) .................................. 16, 19, 24
FERC v. Electric Power Supply Ass’n,
136 S. Ct. 760 (2016) ............................................ 16
Fidelity Fed. Bank & Trust v. Kehoe,
547 U.S. 1051 (2006) ............................................ 28
Free Enterprise Fund v. Public Co.
Accounting Oversight Bd.
(U.S. No. 08-861) .................................................. 33
Freeman v. Quicken Loans, Inc.,
566 U.S. 624 (2012) .............................................. 24
Gonzales v. Oregon,
546 U.S. 243 (2006) ........................................ 20, 24
Gutierrez-Brizuela v. Lynch,
834 F.3d 1142 (10th Cir. 2016) ............................ 27
Kisor v. Wilkie,
139 S. Ct. 2400 (2019) ........................ 17, 20, 22, 27
MCI Telecommunications Corp. v.
American Telephone & Telegraph
Co.,
512 U.S. 218 (1994) .......................................passim

ix
TABLE OF AUTHORITIES
(continued)
Page(s)
Metropolitan Washington Airports Auth.
v. Citizens for Abatement of Aircraft
Noise, Inc.
(U.S. No. 90-906) .................................................. 33
Michigan v. EPA,
576 U.S. 743 (2015) ........................................ 16, 27
SAS Inst., Inc. v. Iancu,
138 S. Ct. 1348 (2018) .......................................... 17
Seila Law LLC v. Consumer Fin.
Protection Bureau
(U.S. No. 19-7) ...................................................... 33
TRW Inc. v. Andrews,
534 U.S. 19 (2001) ................................................ 22
Utility Air Regulatory Grp. v. EPA,
573 U.S. 302 (2014) ........................................ 16, 23
Valent v. Comm’r of Soc. Sec.,
918 F.3d 516 (6th Cir. 2019) ................................ 26
Virginia Uranium, Inc. v. Warren,
139 S. Ct. 1894 (2019) .......................................... 20
Whitman v. American Trucking Ass’ns,
531 U.S. 457 (2001) .......................................passim
FEDERAL STATUTES
12 U.S.C. 5627(b) ....................................................... 27

x
TABLE OF AUTHORITIES
(continued)
Page(s)
13 U.S.C. 302 ............................................................. 27
26 U.S.C. 162(l)(5)(B)................................................. 27
26 U.S.C. 7874(g) ....................................................... 27
28 U.S.C. 1254(1) ......................................................... 1
42 U.S.C. 256b(a) ......................................................... 6
42 U.S.C. 1395l ...................................................passim
1395l(t) .................................................................... 3
1395l(t)(14)(A)(iii) ............................................. 4, 11
1395l(t)(14)(A)(iii)(I) ................................... 4, 21, 23
1395l(t)(14)(A)(iii)(II) ....................................passim
1395l(t)(14)(D)(i)(I) ................................................. 5
1395l(t)(14)(D)(ii).................................................... 5
1395l(t)(14)(D)(iii) ............................................ 5, 29
1395l(t)(14)(D)(iv) ................................................... 5
1395l(t)(14)(E) ........................................................ 4
1395l(t)(14)(H) ...................................................... 14
42 U.S.C. 1395u(o) ....................................................... 4
42 U.S.C. 1395w-3a ..................................................... 4
42 U.S.C. 1395w-3b ..................................................... 4
42 U.S.C. 7409(b)(1) ................................................... 19

xi
TABLE OF AUTHORITIES
(continued)
Page(s)
47 U.S.C. 203(b) ......................................................... 18
Veterans Health Care Act of 2002,
Pub. L. No. 102-585, 106 Stat. 4943 ...................... 6
Medicare Prescription Drug,
Improvement, and Modernization Act
of 2003,
Pub. L. No. 108-173, 117 Stat. 2066 .............passim
FEDERAL REGULATIONS
77 Fed. Reg. 68,210 (Nov. 15, 2012) ........................ 3, 6
80 Fed. Reg. 70,298 (Nov. 13, 2015) ............................ 6
82 Fed. Reg. 52,362 (Nov. 13, 2017) ...................passim
83 Fed. Reg. 58,818 (Nov. 21, 2018) .......................... 10
85 Fed. Reg. 85,866 (Dec. 29, 2020) ................ 5, 29, 30
LEGISLATIVE MATERIALS
H.R. Rep. No. 102-384, pt. 2 (1992)............................. 7
OTHER AUTHORITIES
Adjust, American Heritage Dictionary,
https://ahdictionary.com/word/search.
html?q=adjust ....................................................... 25

xii
TABLE OF AUTHORITIES
(continued)
Page(s)
Adjust, Cambridge Dictionary,
https://dictionary.cambridge.org/
dictionary/english/adjust ...................................... 25
Adjust, Oxford University Press,
Lexico.com, https://www.lexico.com/
en/definition/adjust .............................................. 25
Am. Hosp. Ass’n, 340B Hospital
Community Benefit Analysis (2020),
https://www.aha.org/system/files/
media/file/2020/09/340b-communitybenefits-analysis-report.pdf ................................. 31
Kent Barnett & Christopher J. Walker,
Chevron in the Circuit Courts,
116 Mich. L. Rev. 1 (2017).................................... 26
Allen Dobson et al., The Role of 340B
Hospitals in Serving Medicaid and
Low-income Medicare Patients (July
10, 2020),
https://www.340bhealth.org/files/
340B_and_Medicaid_and_Low_
Income_Medicare_Patients_Report_
7.10.2020_FINAL_.pdf ......................................... 31

xiii
TABLE OF AUTHORITIES
(continued)
Page(s)
HHS Health Resources & Services
Administration, Hemophilia
Treatment Center Manual for
Participating in the Drug Pricing
Program Established by Section 340B
of the Public Health Service Act (July
2005),
https://www.hrsa.gov/sites/default/
files/opa/programrequirements/
forms/hemophiliatreatmentcenter
340bmanual.pdf ...................................................... 7
HHS Off. of Inspector Gen., Part B
Payments for 340B-Purchased Drugs
(Nov. 2015), https://oig.hhs.gov/oei/
reports/oei-12-14-00030.pdf; ............................ 7, 30
KaufmanHall, The Effect of COVID-19
on Hospital Financial Health (July
2020), https://www.aha.org/system/
files/media/file/2020/07/KH-COVIDHospital-FinancialHealth_FINAL.pdf ............................................... 31
Medicare Beneficiaries at a Glance,
Centers for Medicare & Medicaid
Services, https://www.cms.gov/
Research-Statistics-Data-andSystems/Statistics-Trends-andReports/Beneficiary-Snapshot/
Bene_Snapshot ....................................................... 2

xiv
TABLE OF AUTHORITIES
(continued)
Page(s)
Medicare Part B Drugs: Trends in
Spending and Utilization, 2006-2017,
HHS Asst. Sec. for Planning and
Evaluation (Nov. 20, 2020), https://
aspe.hhs.gov/system/files/pdf/264416/
Part-B-Drugs-Trends-Issue-Brief.pdf .............. 2, 28
NHE Fact Sheet, Centers for Medicare &
Medicaid Services,
https://www.cms.gov/ResearchStatistics-Data-and-Systems/
Statistics-Trends-and-Reports/
NationalHealthExpendData/NHEFact-Sheet ............................................................... 2
Tom Nickels, Report Misrepresents 340B
Program to Deflect from Sky High
Drug Prices, AHA Stat: An American
Hospital Association Blog (Nov. 22,
2019), https://www.aha.org/news/
blog/2019-11-22-report-misrepre
sents-340b-program-deflect-sky-highdrug-prices#:~:text=For%
20outpatient%20services%2C%
20340B%20hospitals,between%2015
%25%20and%2020%25 ......................................... 31
Reply Br. for Petitioners, U.S. Dep’t of
Interior v. Kerr-McGee Oil & Gas
Corp., No. 09-54, 2009 WL 2943389
(Sept. 11, 2009) ..................................................... 28

xv
TABLE OF AUTHORITIES
(continued)
Page(s)
U.S. Gov’t Accountability Off., GAO-11836, Drug Pricing: Manufacturer
Discounts in the 340B Program Offer
Benefits, but Federal Oversight Needs
Improvement (Sept. 2011), https://
www.gao.gov/assets/330/323702.pdf .................... 32
U.S. Gov’t Accountability Off., GAO-21107, Drug Pricing Program: HHS
Uses Multiple Mechanisms to Help
Ensure Compliance with 340B
Requirements (Dec. 2020),
https://www.gao.gov/assets/720/71120
9.pdf ...................................................................... 30
U.S. Gov’t Accountability Off., GAO-06372, Medicare Hospital
Pharmaceuticals: Survey Shows Price
Variation and Highlights Data
Collection Lessons and Outpatient
Rate-Setting Challenges for CMS
(Apr. 2006), https://www.gao.gov/
assets/250/249967.pdf ............................................ 3

1
Petitioners the American Hospital Association, the
Association of American Medical Colleges, America’s
Essential Hospitals, Northern Light Health, Henry
Ford Health System, and Fletcher Hospital, Inc., d/b/a
AdventHealth Hendersonville respectfully petition for
a writ of certiorari to review the judgment of the U.S.
Court of Appeals for the D.C. Circuit.
OPINIONS BELOW
The opinion of the court of appeals (Pet. App. 1a) is
published at 967 F.3d 818. The order denying rehearing en banc (Pet. App. 118a) is unpublished. The district court’s memorandum opinion granting Petitioners’ motion for a permanent injunction (Pet. App. 44a)
is published at 348 F. Supp. 3d 62. The district court’s
memorandum opinion granting in part Petitioners’
motion for a permanent injunction and remanding the
rules at issue to the Department of Health and Human
Services (Pet. App. 87a) is published at 385 F. Supp.
3d 1. The district court’s memorandum opinion granting Respondents’ motion for entry of final judgment
(Pet. App. 113a) is available at 2019 WL 3037306.
JURISDICTION
The judgment of the court of appeals was entered on
July 31, 2020. Pet. App. 1a. A timely petition for rehearing was denied on October 16, 2020. Pet. App.
118a. By order dated March 19, 2020, this Court extended the deadline to file any petition for a writ of
certiorari to 150 days from (as relevant here) an order
denying a timely rehearing petition. This Court’s jurisdiction is invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED
The relevant statutory provisions are reproduced in
the appendix to the petition. Pet. App. 119a.

2
STATEMENT OF THE CASE
1. Medicare is a federally administered health insurance program for people age 65 or older, people
with certain disabilities, and people with End-Stage
Renal Disease. About 60 million Americans are enrolled in Medicare, 1 which spends about $800 billion
per year. 2 For those who enroll in Medicare’s fee-forservice coverage option, the program pays for a wide
range of care. Part A of the program primarily covers
inpatient hospital services, hospice care, nursing facility care, and home health care, while Part B primarily
covers outpatient hospital care and doctors’ services.
Critical to the Medicare program, and a rapidly growing source of its spending, 3 is Medicare Part B’s coverage of separately payable prescription drugs. 4 The
payment rules for such drugs are at issue here.
Medicare Part B pays hospitals for covered outpatient services through the Outpatient Prospective Payment System (OPPS). Most care is reimbursed according to a formula that takes into account regional cost
1 See Medicare Beneficiaries at a Glance, Centers for Medicare
& Medicaid Services, https://www.cms.gov/Research-StatisticsData-and-Systems/Statistics-Trends-and-Reports/BeneficiarySnapshot/Bene_Snapshot.

See NHE Fact Sheet, Centers for Medicare & Medicaid Services,
https://www.cms.gov/Research-Statistics-Data-and-Systems/Statistics-Trends-and-Reports/NationalHealthExpend
Data/NHE-Fact-Sheet.
2

3 See Medicare Part B Drugs: Trends in Spending and Utilization, 2006-2017, HHS Asst. Sec. for Planning and Evaluation 13
(Nov. 20, 2020), https://aspe.hhs.gov/system/files/pdf/264416/
Part-B-Drugs-Trends-Issue-Brief.pdf (ASPE Brief).

Separately payable prescription drugs are drugs that are reimbursed on a drug-by-drug basis, rather than packaged with
other services and reimbursed as part of a bundled payment.
4

3
variation, changes in medical practice, changes in
technology, and other relevant information. See 42
U.S.C. 1395l(t). In the years following the establishment of the OPPS, “concerns were expressed about the
adequacy of payments for innovative pharmaceutical
products.” 5 In response, Congress set forth a separate
payment methodology for such products in the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA). See Pub. L. No. 108-173, 117
Stat. 2066, 2307-08. Today, the MMA’s payment
methodology determines how much Medicare will pay
hospitals for all separately payable prescription
drugs. 6
The payment methodology set forth in the MMA
specifies a reimbursement rate equal—
(I) to the average acquisition cost for the drug for
that year (which, at the option of the Secretary,
may vary by hospital group (as defined by the
Secretary based on volume of covered [outpatient
department] services or other relevant characteristics)), as determined by the Secretary taking
into account the hospital acquisition cost survey
data under subparagraph (D); or

5 U.S. Gov’t Accountability Off., GAO-06-372, Medicare Hospital Pharmaceuticals: Survey Shows Price Variation and Highlights Data Collection Lessons and Outpatient Rate-Setting Challenges for CMS 6 (Apr. 2006), https://www.gao.gov/assets/
250/249967.pdf.

The methodology set forth in the MMA applies to “specified
covered outpatient drugs,” a subset of separately payable drugs
generally consisting of newly introduced drugs, biologicals, and
radiopharmaceuticals used to treat serious conditions, such as
cancer. GAO, note 5, supra, at 2. But it is HHS’s “longstanding
policy” to use the MMA’s payment methodology for all separately
payable drugs. 77 Fed. Reg. 68,210, 68,383 (Nov. 15, 2012).
6

4
(II) if hospital acquisition cost data are not available, the average price for the drug in the year
established under section 1395u(o) of this title,
section 1395w-3a of this title, or section 1395w3b of this title, as the case may be, as calculated
and adjusted by the Secretary as necessary for
purposes of this paragraph.
42 U.S.C. 1395l(t)(14)(A)(iii). 7
The MMA thus provides alternative reimbursement
rates for covered prescription drugs—Subclause (I)
and Subclause (II). Under Subclause (I), reimbursement rates are determined based on each drug’s “average acquisition cost” and “may vary by hospital group.”
42 U.S.C. 1395l(t)(14)(A)(iii)(I). Under Subclause (II),
reimbursement rates are determined according to a
statutorily defined default rate based on each drug’s
average sales price (ASP)—specifically, ASP+6%. 42
U.S.C. 1395l(t)(14)(A)(iii)(II); see 42 U.S.C. 1395w-3a.
That rate is “calculated” and may be “adjusted” by
HHS. 42 U.S.C. 1395l(t)(14)(A)(iii)(II).
The statute further specifies which of the alternative reimbursement rates HHS must apply. The determinative factor is whether HHS has collected sufficient “hospital acquisition cost survey data.” 42 U.S.C.
1395l(t)(14)(A)(iii)(I). If it has, HHS must proceed under Subclause (I), which directs HHS to take account
of that data in determining each drug’s average acquisition cost and any variances by hospital group. Ibid.
If it has not, HHS must proceed under Subclause (II),
which (in the absence of sufficient acquisition cost
Those provisions are “subject to subparagraph (E),” 42 U.S.C.
1395l(t)(14)(A)(iii), which authorizes HHS to make “[a]djustment[s] in payment rates for overhead costs” based on a 2005 report issued by the Medicare Payment Advisory Commission. 42
U.S.C. 1395l(t)(14)(E).
7

5
data) directs HHS to base its reimbursement rates on
sales price rather than acquisition cost. 42 U.S.C.
1395l(t)(14)(A)(iii)(II).
Congress likewise prescribed strict, detailed requirements governing the collection of hospital acquisition cost data. The statute initially instructed the
Comptroller General to conduct acquisition cost surveys in 2004 and 2005.
See 42 U.S.C.
1395l(t)(14)(D)(i)(I). It directed the Comptroller General to furnish its data to HHS for use in setting payment rates in 2006, and to “determine and report to
Congress if there is (and the extent of any) variation
in hospital acquisition costs for drugs among hospitals.” 42 U.S.C. 1395l(t)(14)(D)(i)(I), (iv). For the ensuing years, Congress shifted the responsibility to
HHS, which must “conduct periodic subsequent surveys,” taking into account recommendations from the
Comptroller General as to their “frequency and methodology.” 42 U.S.C. 1395l(t)(14)(D)(i), (ii). Critically,
a survey is adequate only if it includes “a large sample
of hospitals that is sufficient to generate a statistically
significant estimate of the average hospital acquisition
cost for each specified covered outpatient drug.” 42
U.S.C. 1395l(t)(14)(D)(iii). HHS may proceed under
Subclause (I) only if it conducts such a statistically significant survey.
2. HHS has never collected hospital acquisition cost
survey data that meets Congress’s criteria. Pet. App.
3a. 8 Accordingly, for the first twelve years following
In HHS’s OPPS rule for 2021, the agency for the first time
asserted that it had collected hospital acquisition cost survey
data. See 85 Fed. Reg. 85,866, 86,043-86,044 (Dec. 29, 2020). But
the agency’s survey plainly failed to satisfy the standards set
forth in the statute, and the agency did not set rates under Subclause (I) based on that data. See pp. 29-30, infra.
8

6
the effective date of the MMA’s new payment methodology, HHS did not set reimbursement rates based on
average acquisition cost, nor did it vary reimbursement rates by hospital group. Instead, HHS set reimbursement rates for separately payable drugs based on
the average sales price of each drug, and it applied
those rates uniformly across all hospital groups. See
82 Fed. Reg. 52,362, 52,490 (Nov. 13, 2017); 80 Fed.
Reg. 70,298, 70,439 (Nov. 13, 2015); 77 Fed. Reg.
68,210, 68,383-68,386 (Nov. 15, 2012). 9
HHS broke from that practice in its OPPS rule for
2018. In that rule, HHS for the first time set a prescription-drug reimbursement rate for one hospital
group different from the rate it set for all others. Specifically, HHS singled out participants in the 340B
Program.
The 340B Program serves as a lifeline to hospitals
that care for low-income, underserved communities.
Established by Congress in 1992, the 340B Program
requires that drug manufacturers, as a condition of
having their drugs covered by Medicaid, offer participating hospitals and clinics (hereinafter 340B Hospitals) a substantial discount on thousands of prescription drugs. See Pub. L. No. 102-585, 106 Stat. 4943,
4967-4971; 42 U.S.C. 256b(a). That discount is essential to 340B Hospitals, which are public and private

From 2006 to 2012, HHS purported to rely on Subclause (I)
in setting reimbursement rates for separately payable drugs,
even without relying on adequate hospital acquisition cost survey
data. See 77 Fed. Reg. at 68,383-68,386. But HHS still applied a
uniform reimbursement rate based on average sales price in those
years. See id. at 68,386 (explaining that reimbursement rates
from 2006 to 2012 varied from ASP+4% to ASP+6%). From 2013
to 2017, HHS expressly relied on Subclause (II), setting a uniform
reimbursement rate of ASP+6%. See 82 Fed. Reg. at 52,490.
9

7
nonprofit entities that serve underinsured populations. By pushing drug costs for these providers below
the amount that insurers reimburse, the 340B Program allows participating hospitals to “stretch scarce
Federal resources as far as possible, reaching more eligible patients and providing more comprehensive services.” H.R. Rep. No. 102-384, pt. 2, at 12 (1992). Put
another way, Congress designed the 340B Program so
that insurers like Medicare would subsidize critical
services offered by safety-net hospitals. See HHS Off.
of Inspector Gen., Part B Payments for 340B-Purchased Drugs i (Nov. 2015) (OIG Report). 10
In its 2018 OPPS rule, HHS adopted a different policy view. As HHS saw it, “it is inappropriate for Medicare to subsidize” 340B Hospitals “through Medicare
payments for separately payable drugs.” 82 Fed. Reg.
at 52,495. Instead, HHS asserted, Medicare payments
should be “more aligned with the resources expended
by hospitals to acquire” covered prescription drugs.
Ibid. To be sure, HHS “recogniz[ed] the intent of the
340B Program”—that is, “to allow covered entities, including eligible hospitals, to stretch scarce resources
in ways that enable hospitals to continue providing access to care for Medicare beneficiaries and other patients.” Ibid. But HHS nonetheless chose to eliminate
the gap between Medicare reimbursement rates and
340B Hospitals’ drug costs, thereby prioritizing this
objective over the congressional judgment reflected in

https://oig.hhs.gov/oei/reports/oei-12-14-00030.pdf; see also
HHS Health Resources & Services Administration, Hemophilia
Treatment Center Manual for Participating in the Drug Pricing
Program Established by Section 340B of the Public Health Service
Act 14 (July 2005), https://www.hrsa.gov/sites/default/files/opa/
programrequirements/forms/hemophiliatreatmentcenter
340bmanual.pdf.
10

8
the 340B Program. See id. at 52,493-52,510. Accordingly, while all other hospital groups retained a reimbursement rate of ASP+6% for their separately payable drugs, HHS slashed rates to 340B Hospitals by
nearly 30%—to ASP minus 22.5%. See id. at 52,496. 11
The result was a $1.6 billion cut in annual funding to
340B Hospitals. See id. at 52,623.
In its final rule, HHS addressed its purported statutory authority to enact this novel, non-uniform rate
cut. HHS acknowledged that it still does “not have
hospital acquisition cost data” meeting Congress’s requirements, and therefore could not proceed under
Subclause (I) of the MMA—the payment methodology
that bases reimbursement rates on average acquisition cost and permits HHS to vary rates by hospital
group. See id. at 52,496; p. 4, supra. HHS was instead
required to proceed under Subclause (II)—the payment methodology that bases rates on average sales
price and provides no authority to vary rates by hospital group. See p. 4, supra.
But in HHS’s view, its statutory obligation to follow
the rate-setting methodology in Subclause (II) did not
preclude the agency from varying reimbursement
rates by hospital group, nor did it preclude basing reimbursement rates on average acquisition cost. 82
Fed. Reg. at 52,499-52,500. HHS believed it could take
those steps under Subclause (II) because that provision grants HHS the authority to “adjust[]” the reimbursement rates set under it.
42 U.S.C.
1395l(t)(14)(A)(iii)(II). According to HHS, that “adjustment” authority gives the agency “broad discretion
to adjust payments for drugs” as it sees fit—discretion
that is not “limited to what some might consider minor
HHS exempted a small number of 340B Hospitals from the
rate cut. See 82 Fed. Reg. at 52,493-52,511.
11

9
changes.” 82 Fed. Reg. at 52,500. That discretion is
so broad, HHS asserted, that it permits the agency to
set reimbursement rates based on average acquisition
cost, and to vary such rates by hospital group, without
using the statistically sound acquisition cost survey
data that Congress required as a predicate for using
those criteria to set rates. See id. at 52,501.
And that is precisely what HHS did in cutting reimbursement rates to 340B Hospitals. HHS acknowledged that it enacted its rate cut not in an effort to approximate average sales price, but instead to “better
represent[] the acquisition cost for drugs and biologicals that have been acquired with a 340B discount.” 82
Fed. Reg. at 52,505 (emphasis added). It likewise
made clear that 340B Hospitals alone would receive
disfavored treatment, while all other hospital groups
would continue to receive a reimbursement rate of
ASP+6%. See id. at 52,501. And HHS explicitly relied
not on the robust set of acquisition cost survey data
that Congress specified in Subclause (I), but on a substitute data source that HHS found sufficient—a report of the Medicare Payment Advisory Commission
estimating the average minimum discount received by
340B Hospitals. See id. at 52,496.
3. Petitioners filed suit in the U.S. District Court
for the District of Columbia challenging HHS’s authority to cut reimbursement rates for 340B Hospitals. 12
12 Petitioners initially filed suit in November 2017, but that
suit was dismissed because HHS had not yet denied a specific
claim for reimbursement under its new rule. See Am. Hosp. Ass’n
v. Azar, 895 F.3d 822 (D.C. Cir. 2018). Petitioners thereafter submitted claims for reimbursement under the new rule. HHS reimbursed those claims at ASP-22.5%, rather than ASP+6%. Pet.
App. 54a. Petitioners then filed suit again, seeking full reimbursements of their claims along with an injunction against the
2018 OPPS rule. See ibid. Moreover, once the 2019 OPPS rule

10
They argued that HHS had violated a clear statutory
directive when it set rates based on average acquisition cost, and did so for one hospital group but not others, without collecting and considering the acquisition
cost survey data that Congress required in Subclause
(I) of the MMA as a prerequisite to taking such actions.
The modest “adjustment” authority in Subclause (II),
Petitioners contended, does not permit such an endrun around the unambiguous requirements Congress
set forth in Subclause (I).
The district court agreed. In its view, “the statutory
scheme is clear”: if, as here, HHS does not have “the
required acquisition cost data,” it “must calculate reimbursement rates by reference to the drugs’ average
sales prices” under Subclause (II). Pet. App. 76a. Although that provision authorizes HHS to make “adjustments” to those rates, “adjustments are all [it] can
make.” Ibid. HHS “cannot fundamentally rework the
statutory scheme—by applying a different methodology than the provision requires—to achieve under
[Subclause] (II) what [it] could not do under [Subclause] (I) for lack of adequate data.” Ibid. Yet here,
the court explained, HHS “sought to mimic the result
of [Subclause] (I)—by setting rates designed to approximate acquisition costs—under the authority of [Subclause] (II).” Pet. App. 77a. That effort was, according
to the district court, a “patent violation of agency authority.” Pet. App. 70a.

became effective—and continued the same policy as the year
prior, see 83 Fed. Reg. 58,818, 58,979 (Nov. 21, 2018)—Petitioners presented additional claims for reimbursement and supplemented their complaint to include the 2019 OPPS rule. See Pet.
App. 93a-94a.

11
4. a. A divided panel of the D.C. Circuit reversed.
The panel majority did not conclude that HHS’s interpretation was the best reading of the statute. In fact,
the majority acknowledged the “force” of Petitioners’
argument that if HHS could set reimbursement rates
based on average acquisition cost and vary rates by
hospital group without the “robust study data” that
Congress required, then “[S]ubclause (I)’s requirement
to take into account th[at] data * * * would be meaningless.” Pet. App. 23a-24a. The majority nevertheless upheld HHS’s rate cut under Chevron U.S.A., Inc.
v. Natural Resources Defense Council, Inc., 467 U.S.
837, 842 (1984).
As the majority saw it, “under Chevron, we would
need to conclude that Congress unambiguously barred
HHS from seeking to align reimbursements with acquisition costs under [S]ubclause (II), or that HHS’s
belief that it could do [so] was unreasonable.” Pet.
App. 24a. The majority did not find those criteria met
here. It believed HHS had adopted a permissible interpretation of the statute because Subclause (II) authorizes the agency to “adjust[]” reimbursement rates
“as necessary for purposes of [the] paragraph,” 42
U.S.C. 1395l(t)(14)(A)(iii), and (according to the majority) the “primary goal” of the paragraph is to “reimburse providers for their acquisition costs,” Pet. App.
21a. The majority likewise saw no clear statutory prohibition on HHS’s use of data sources that failed to
meet congressional specifications. See Pet. App. 24a.
And the majority concluded that HHS acted reasonably because the data source it relied on was, in the majority’s view, a “reliable cost measure[].” Ibid.
The majority also found no conflict between its decision and this Court’s decision in MCI Telecommunications Corp. v. American Telephone & Telegraph Co.,
512 U.S. 218 (1994). In MCI, this Court rejected the

12
FCC’s attempt to read the word “modify” as an authorization to make “basic and fundamental changes in the
scheme” Congress created. See id. at 225. This Court
held instead that a “modification” must be limited to
“moderate[]” or “minor” changes. Ibid. The majority
below, by contrast, did not read the word “adjust” to
refer “only to minor changes,” reasoning (based on purported variations in dictionary definitions) that the
term is “ambiguous as to size.” Pet. App. 29a. The
majority thus suggested, in light of Chevron, that
there may be no “limits to what HHS could permissibly
consider an ‘adjustment.’” Ibid.
b. Judge Pillard dissented. In her view, the statutory scheme is unambiguous: “Only [S]ubclause (I),
not [S]ubclause (II), authorizes HHS to set different
reimbursement rates for distinct hospital groups”
based on acquisition cost, and it provides that authorization only if HHS “tak[es] into account the different
acquisition costs identified in the robust, hospital-specific data that Congress required the agency to collect.”
Pet. App. 35a. HHS’s contrary interpretation “essentially reads [S]ubclause (I) out of the statute by permitting the agency to do under [S]ubclause (II) without
the requisite data what [S]ubclause (I) authorizes only
with that data.” Pet. App. 39a. Such an interpretation
could not be upheld, whether under Chevron or otherwise.
Judge Pillard took direct issue with the majority’s
reasoning. While the majority had made much of Congress’s purported desire to equate reimbursement
rates with acquisition costs, Judge Pillard explained
that a “statute’s overarching goal is not its only goal,
to be achieved however the agency sees fit.” Pet. App.
34a. That is especially so here, where the statutory
language shows that Congress did not want HHS “just
to do its best to approximate [average acquisition]

13
costs and then vary them by hospital groups according
to its unchecked policy judgment.” Pet. App. 35a.
Judge Pillard also disagreed with the majority’s assertion that her interpretation of the statute would render HHS’s Subclause (II) “adjustment” authority superfluous, noting that her interpretation would continue to permit “adjustments” for overhead costs. See
Pet. App. 36a-37a. It also ignored the far greater superfluity problem with the majority’s interpretation,
which would render meaningless “nearly a full column
in the U.S. Code” that “specifies in detail” how HHS
must conduct acquisition cost surveys. Pet. App. 39a.
Judge Pillard also took issue with the majority’s effort
to distinguish MCI. As she saw it, HHS had improperly used its “adjustment” authority to make a basic
and fundamental change in the statutory scheme, see
Pet. App. 38a; indeed, it had adopted an interpretation
that allows “billion-dollar decisions differentiating
among particular hospital groups” to “rest on significantly less exact information” than Congress required,
Pet. App. 37a.
Judge Pillard also responded to the majority’s “repeated[]” attempts to “justif[y] its reading by reference
to the policy benefits of the agency’s rate reductions
and the reasonableness of the agency’s alternative
data and resulting estimates.” Pet. App. 40a. As an
initial matter, “concerns about the program’s effects,
and confidence in the agency’s care in using data other
than those the statute requires, cannot somehow authorize the agency to do what the statute does not.”
Pet. App. 41a. Nor would the majority’s confidence in
the data source HHS used here provide any “assurance
for its next rulemaking,” now that HHS could set rates
based on acquisition cost “unmoored from the statute’s
express data-quality requirements.” Pet. App. 42a.

14
In all events, Judge Pillard found the majority’s policy arguments unpersuasive. 340B Hospitals, she explained, “[o]ften operat[e] at substantial losses” and
thus “rely on the revenue that Medicare Part B provides in the form of standard drug-reimbursement
payments that exceed those hospitals’ acquisition
costs.” Pet. App. 42a-43a. They use these “additional
resources to provide critical healthcare services to
communities with underserved populations that could
not otherwise afford these services.” Pet. App. 43a (citation omitted). HHS’s rate cut, however, “redistribute[s] funds” from these “financially strapped, public
and nonprofit safety-net hospitals serving vulnerable
populations—including patients without any insurance at all—to facilities and individuals who are relatively better off.” Ibid. 13 As Judge Pillard saw it, “[i]f
that is a result that Congress intended to authorize, it
remains free to say so,” but “the statute as it is written” does not. Ibid.
5. Petitioners filed a timely petition for rehearing
en banc, which was denied. See Pet. App. 118a. This
petition follows.
REASONS FOR GRANTING THE PETITION
The decision of the court of appeals in this case
raises an issue of exceptional importance that manifestly warrants this Court’s review. The court grievously erred in affirming HHS’s misuse of its modest
“adjustment” authority under Subclause (II) of the
MMA to make wholesale changes in the method for
calculating reimbursement rates for 340B Hospitals—
changes that flout the requirements Congress prescribed for setting such rates. And the policy the court
The funds are redistributed, rather than returned to the taxpayers, because all payment changes must be budget neutral. See
42 U.S.C. 1395l(t)(14)(H).
13

15
upheld on the basis of this legal error affects billions of
dollars in federal prescription-drug spending, and resulted in a $1.6 billion annual hit to 340B Hospitals
that depend on full Medicare reimbursements to subsidize essential healthcare services they provide to
low-income communities. A legal error this serious upholding a federal agency action with consequences this
grave is by itself a sufficient reason to grant review.
More fundamentally, the decision below vividly confirms the continuing need for this Court to enforce limits on Chevron deference, particularly as it is applied
in the D.C. Circuit, to ensure that it does not give cover
to federal agencies when they supplant Congress’s policy judgments with their own. “Courts defer to an
agency’s interpretation of law when and because Congress has conferred on the agency interpretive authority over the question at issue.” City of Arlington v.
FCC, 569 U.S. 290, 312 (2013) (Roberts, C.J., dissenting). The MMA cannot fairly be read to confer the
sweeping interpretive authority sanctioned by the
court of appeals. Indeed, Congress could hardly have
been clearer that HHS must set rates based on price,
and not on cost, unless it can meet the stringent requirements of Subclause (I) for cost-based rates. But
the court of appeals nevertheless relied on Chevron to
conclude that HHS could decide for itself whether to
adhere to those statutory requirements or instead to
set cost-based rates in a different way. And it did so
not based on any discretion-conferring ambiguity in
Subclause (I) itself, but by seizing on the supposed ambiguity of the modest authority Congress gave the
agency to “adjust” the rates it sets based on drug prices
under Subclause (II) of the provision—the provision
that applies when HHS cannot meet the requirements
of Subclause (I) for cost-based rates.

16
That extreme application of Chevron conflicts directly with a critical limit on such deference established by this Court’s decisions in MCI Telecommunications Corp. v. American Telephone & Telegraph Co.,
512 U.S. 218 (1994), and its progeny. As in that case,
the agency here misused its delegated authority to
make modest adjustments to statutory requirements
to justify a wholesale change to the regulatory scheme
Congress enacted. If left undisturbed, the decision will
inevitably exert a strong and unwarranted gravitational pull in the direction of deference to agency interpretations of law in the D.C. Circuit and beyond—
exacerbating separation-of-powers concerns.
Finally, there is no reason to defer review. This
Court regularly grants certiorari even absent a circuit
conflict when—as here—the case raises questions of
fundamental importance regarding the limits of federal agency interpretive authority on matters of enormous economic and regulatory consequence. E.g.,
FERC v. Electric Power Supply Ass’n, 136 S. Ct. 760
(2016); Michigan v. EPA, 576 U.S. 743 (2015); Utility
Air Regulatory Grp. v. EPA, 573 U.S. 302 (2014); Whitman v. American Trucking Ass’ns, 531 U.S. 457 (2001);
FDA v. Brown & Williamson Tobacco Corp., 529 U.S.
120 (2000); MCI, 512 U.S. 218.
A. The decision of the court of appeals
conflicts with the limits on Chevron
deference that this Court has established.
This Court has repeatedly held that Chevron deference is not a license for administrative agencies to invoke vague terms or ancillary provisions to alter the
fundamental structure of a regulatory scheme. What
HHS did here—relying on its narrow “adjustment” authority to circumvent a clear statutory requirement—
is precisely what these precedents preclude an agency

17
from doing. The willingness of the court of appeals to
countenance such a sharp departure from this Court’s
teachings on an issue of such central importance to the
separation of powers is a strong reason to grant review.
1. This Court has long made clear that Chevron deference is “not due unless a ‘court, employing traditional tools of statutory construction,’ is left with an
unresolved ambiguity.” Epic Systems Corp. v. Lewis,
138 S. Ct. 1612, 1630 (2018) (quoting Chevron, 467
U.S. at 843 n.9); SAS Inst., Inc. v. Iancu, 138 S. Ct.
1348, 1358 (2018). Chevron therefore applies only
where a statute is “genuinely ambiguous, even after a
court has resorted to all the standard tools of interpretation.” Kisor v. Wilkie, 139 S. Ct. 2400, 2414 (2019)
(emphasis added); see also ibid. (“when we use” the
term “genuinely ambiguous,” “we mean it”). 14 Put another way, deference is appropriate “only when th[e]
legal toolkit is empty and the interpretive question
still has no single right answer.” Id. at 2415. A “court
cannot wave the ambiguity flag just because it found
the [statute] impenetrable on first read.” Ibid. The
Court insists on this analytical rigor for a reason: because a statutory ambiguity is deemed to be a delegation of authority from Congress, it is imperative that a
reviewing court have confidence that the authority has
in fact been delegated and the agency’s action is within
the scope of the delegation.

Kisor addressed judicial deference to an agency’s interpretation of its own regulation, but its reasoning applies just as
strongly in the context at issue here—where an agency seeks deference for its interpretation of its organic statute. See Kisor, 139
S. Ct. at 2415 (explaining that the Court has adopted the “same
approach” at the first step in the analysis in both contexts).
14

18
As a necessary corollary of that principle, this Court
has repeatedly held that Chevron deference is not
available whenever an agency has located a vague
statutory term with a plausible definition that fits the
agency’s policy choice. To the contrary, agencies may
not invoke “vague terms or ancillary provisions” to “alter the fundamental details of a regulatory scheme.”
Whitman, 531 U.S. at 468.
The leading case in this regard is MCI. That case
concerned a statutory requirement that common carriers file tariffs with the FCC setting forth the rates they
charge consumers. The same law authorized the FCC
to “modify” any requirement of the statute. 512 U.S.
at 220 (quoting 47 U.S.C. 203(b)). The FCC invoked
that authority to make tariff filing optional for all nondominant long-distance carriers (effectively, all but
AT&T), but this Court struck it down. Id. at 225. Relying on the Latin root of the term and an analysis of
dictionary definitions, the Court explained that “modify” means “to change moderately or in minor fashion,”
carrying a “connotation of increment or limitation.”
Ibid. That term thus did not delegate to the FCC the
power to transform the regulatory scheme that Congress had enacted. That was so, the Court held, despite the fact that the FCC had identified a definition
of “modify” that included “to make a basic or important
change in.” Id. at 226 (citation omitted). The Court
explained that it was “highly unlikely that Congress
would leave the determination of whether an industry
will be entirely, or even substantially, rate-regulated
to agency discretion—and even more unlikely that it
would achieve that through such a subtle device as
permission to ‘modify’ rate-filing requirements.” Id. at
231. Chevron was thus unable to rescue the FCC, as
its interpretation had gone “beyond the meaning that
the statute can bear.” Id. at 229.

19
This Court’s decision in FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120 (2000), is of a piece.
That case addressed whether the FDA, after decades
of disclaiming any authority to regulate tobacco products, and in the absence of any express statutory language granting FDA such authority, could assert jurisdiction to regulate tobacco consumption. See id. at
125. The FDA asserted its jurisdiction by finding that
nicotine is a “drug” and cigarettes are “combination
products”—both of which are subject to FDA regulation. See ibid. Despite strong textual arguments that
nicotine met the technical definition of a drug and cigarettes of a combination product, this Court rejected
the FDA’s claimed authority. Expressly analogizing to
MCI, the Court explained that “Congress could not
have intended to delegate a decision of such economic
and political significance to an agency in so cryptic a
fashion.” Id. at 160. Chevron was thus again unavailable, no matter how persuasive the FDA’s evidence
equating nicotine to a drug. See id. at 159-161.
A similar analysis guided this Court in Whitman v.
American Trucking Ass’ns, Inc., 531 U.S. 457 (2001).
There, the Court considered whether the EPA has authority to consider costs when setting national ambient air quality standards. The Court held that it does
not, rejecting the argument that such authority could
be located in EPA’s responsibility to allow an “adequate margin” of safety and set standards “requisite”
to protect the public health. See id. at 464-471 (quoting 42 U.S.C. 7409(b)(1)). Citing MCI and Brown &
Williamson, the Court explained that Congress “does
not alter the fundamental details of a regulatory
scheme in vague terms or ancillary provisions—it does
not, one might say, hide elephants in mouseholes.” Id.
at 468. The Court thus found it “implausible that Congress would give to the EPA through * * * modest

20
words the power to determine whether implementation costs should moderate national air quality standards.” Ibid. And because the statute was unambiguous, that “end[ed] the matter for * * * the EPA.” Id.
at 471.
The rule is clear: Chevron deference is not a license
for agencies to “alter the fundamental details of a regulatory scheme” by invoking “vague terms or ancillary
provisions.” Id. at 468. 15 Chevron applies, instead,
only where a statutory scheme is “genuinely ambiguous, even after a court has resorted to all the standard
tools of interpretation,” and concludes that Congress
has conferred upon the agency interpretive authority
over the question at issue. Kisor, 139 S. Ct. at 2414.
2. The decision of the court of appeals conflicts directly with this authority. With barely a nod to MCI
and its progeny, the court of appeals allowed HHS to
make fundamental changes to the statutory structure
of the Medicare drug-reimbursement scheme solely
based on the agency’s vague, ancillary authority to
“adjust” reimbursement rates. No amount of Chevron
deference can justify rewriting the statute in this way.
a. Starting, as this Court always does, with the text,
the MMA is unambiguous: If HHS has collected “hospital acquisition cost survey data” meeting statutory
specifications, then HHS sets prescription-drug reimbursement rates based on “average acquisition cost”
This Court has often enforced the principle that vague terms
or ancillary provisions cannot alter the fundamental details of a
regulatory scheme. See Gonzales v. Oregon, 546 U.S. 243, 267
(2006); Virginia Uranium, Inc. v. Warren, 139 S. Ct. 1894, 1903
(2019); Cyan, Inc. v. Beaver Cnty. Emps. Ret. Fund, 138 S. Ct.
1061, 1071-1072 (2018); Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612,
1626-1627 (2018); Czyzewski v. Jevic Holding Corp., 137 S. Ct.
973, 984 (2017).
15

21
and may “vary” such rates “by hospital group.” 42
U.S.C. 1395l(t)(14)(A)(iii)(I) (Subclause (I)). If HHS
has not collected the statutorily specified data, then
HHS must set prescription-drug reimbursement rates
based on “average price,” with such rates “calculated
and
adjusted”
by
HHS.
42
U.S.C.
1395l(t)(14)(A)(iii)(II) (Subclause (II)). The text thus
establishes that the collection of sufficient hospital acquisition cost survey data is critical. Only by collecting
that robust data set may HHS proceed under Subclause (I)—the provision that authorizes the agency to
set reimbursement rates based on acquisition cost and
exercise the vast power to make “billion-dollar decisions differentiating among particular hospital
groups.” Pet. App. 37a.
HHS has upended that carefully designed statutory
framework. Invoking its authority to “adjust[]” rates
under Subclause (II), HHS now asserts that it may (as
it concededly did here, see p. 9, supra) set reimbursement rates based on acquisition cost and vary such
rates by hospital group even if it did not collect the hospital acquisition cost survey data required by Subclause (I). On HHS’s reading of its “adjustment” authority, the requirement to collect cost survey data before setting cost-based rates has become entirely optional.
That interpretation renders meaningless
“nearly a full column in the U.S. Code” that “specifies
in detail” how HHS must conduct acquisition cost surveys if it wishes to set differential reimbursement
rates based on acquisition cost. Pet. App. 39a. Still
worse, it “essentially reads [S]ubclause (I) out of the
statute by permitting the agency to do under [S]ubclause (II) without the requisite data what [S]ubclause
(I) authorizes only with that data.” Ibid. HHS, in

22
short, has “construe[d] the statute in a way that completely nullifies textually applicable provisions meant
to limit its discretion.” Whitman, 531 U.S. at 485.
b. The court of appeals nevertheless upheld HHS’s
interpretation, but its decision commits critical errors
and conflicts with this Court’s Chevron jurisprudence.
As an initial matter, the decision below does not reflect the searching review for statutory clarity that
this Court has required as a prerequisite to deferring
under Chevron. See pp. 17-20, supra. Quite the opposite. The court acknowledged the “force” of Petitioners’
argument that, under HHS’s interpretation, the entirety of Subclause (I) would be rendered “meaningless,” including its requirement that HHS collect statutorily specified acquisition cost survey data before it
bases reimbursement rates on acquisition cost and
varies rates by hospital group. Pet. App. 23a-24a. Yet
the court still held that Petitioners’ argument could
not “carry the day under Chevron,” apparently because
the statute did not expressly forbid HHS from eviscerating Subclause (I), and “HHS’s belief” that it could do
so was not “unreasonable.” Ibid. That is a far cry from
the analysis this Court requires—one that empties the
“legal toolkit” of “all the standard tools of interpretation,” Kisor, 139 S. Ct. at 2414-2415, including the
canon against adopting an interpretation that makes
whole provisions of the statute superfluous, see, e.g.,
TRW Inc. v. Andrews, 534 U.S. 19, 31 (2001). As a result, the court of appeals never came to grips with the
question that should have controlled the outcome: did
Congress delegate to HHS the power to make the requirements of Subclause (I) optional?
The court compounded that error by allowing its
preference for HHS’s policy outcome to shade its analysis. The court found it inconceivable that Congress
would prohibit HHS from basing reimbursement rates

23
on acquisition costs if HHS failed to collect the statutorily required survey data, even where the “payment
amounts otherwise would substantially exceed hospitals’ costs” and HHS has found other “reliable cost
measures.” Pet. App. 24a. But that is precisely what
the text requires. Under the law as written, HHS may
set reimbursement rates based on “average acquisition
cost” and “vary” such rates by “hospital group” only if
it “tak[es] into account the hospital acquisition cost
survey data” Congress specified.
42 U.S.C.
1395l(t)(14)(A)(iii)(I). If such data are “not available,”
HHS must base reimbursement rates on “average
price,” 42 U.S.C. 1395l(t)(14)(A)(iii)(II)—whether or
not the agency has located alternative information it
finds reliable. The court below may not think it good
policy that HHS may set differential reimbursement
rates pegged to acquisition cost “based only on the
most complete and accurate data.” Pet. App. 35a. But
a court’s agreement with an agency’s policy choice is
not a proper basis for deference. See, e.g., Utility Air,
573 U.S. at 325.
To be sure, the court of appeals purported to find a
textual hook for its decision to defer to HHS—the
agency’s authority under Subclause (II) to “adjust” the
price-based reimbursement rates under that provision
“as necessary for purposes” of the statute. 42 U.S.C.
1395l(t)(14)(A)(iii)(II). In the court’s view, that authority justifies HHS’s transformative action because
one purpose of the statute is to align reimbursement
rates and acquisition costs. See Pet. App. 21a-23a.
And while the court of appeals acknowledged dictionary definitions that limit “adjustments” to slight
changes, it held that the term “adjust” is “ambiguous
as to size,” which means that “under a straightforward
application of Chevron” there may be no “limits to

24
what HHS could permissibly consider an ‘adjustment.’” Pet. App. 29a.
That analysis runs headlong into this Court’s cases.
As an initial matter, HHS’s “adjustment” authority is
a quintessential example of a “vague” and “ancillary”
provision. Whitman, 531 U.S. at 468. Congress buried
it at the end of Subclause (II), and provided no indication (express or otherwise) that HHS could invoke it to
render superfluous Subclause (I), along with the datasource standards at the heart of the statutory scheme.
It is implausible that Congress would give HHS the
extraordinary power to transform the statutory
scheme through “such a subtle device.” MCI, 512 U.S.
at 231; see also Brown & Williamson, 529 U.S. at 160;
Whitman, 531 U.S. at 468; Gonzales v. Oregon, 546
U.S. 243, 267 (2006).
That Subclause (II) permits adjustments “as necessary for purposes” of the statute does not change the
analysis. It is elemental that “[n]o legislation pursues
its purposes at all costs,” and “[e]very statute [proposes], not only to achieve certain ends, but also to
achieve them by particular means.” Freeman v.
Quicken Loans, Inc., 566 U.S. 624, 637 (2012) (Scalia,
J.) (internal quotation marks and citations omitted).
Here, even if equating reimbursement rates to acquisition costs is one purpose of the statute, it is a purpose
that Congress authorized HHS to pursue through one
means and one means only—by collecting the acquisition cost survey data that Congress specified and basing reimbursement rates on that data. “Whatever effect may be accorded” the agency’s “adjustment” authority, it “cannot be thought to render” the statute’s
“carefully designed restrictions on [HHS] discretion
utterly nugatory.” Whitman, 531 U.S. at 484.
The D.C. Circuit’s insistence that the term “adjust”
is “ambiguous as to size,” Pet. App. 29a, likewise does

25
not assist. Even if “adjustments” are (as HHS believes) not always limited linguistically to minor
changes, the statutory context here forecloses deference to HHS’s interpretation because (as explained) it
would authorize the agency to completely rework the
scheme Congress designed. That is impermissible under MCI and its progeny, which make clear that the
first step of Chevron is not a myopic effort to find some
wiggle room in a single statutory word or phrase, but
instead a contextual analysis designed to ascertain
just how much authority Congress has delegated to the
agency.
In all events, the term “adjust”—like the term “modify”—carries a “connotation of increment or limitation.” MCI, 512 U.S. at 225. That is the term’s ordinary meaning: a person does not “adjust” his tie when
he takes it off in favor of a new one, just as a person
does not “adjust” the volume when she mutes the television. (That would be still clearer if the rule of the
house permitted muting the television only if the remote-holder had surveyed the room, and otherwise
permitted mere adjustments as necessary.) A limited
interpretation of “adjust” likewise comports (as in
MCI) with the term’s etymology 16 and dictionary definitions. 17 Other courts have had no trouble seeing that
an “adjustment” is inherently limited in the same way
16 See Adjust, American Heritage Dictionary, https://ahdictionary.com/word/search.html?q=adjust (explaining that “adjust” derives from the Latin word “adiuxtare,” meaning “to put close to”)

See, e.g., Adjust, Cambridge Dictionary, https://dictionary.
cambridge.org/dictionary/english/adjust (defining “adjust” as “to
change something slightly, especially to make it more correct, effective, or suitable”); Adjust, Oxford University Press, Lexico.com, https://www.lexico.com/en/definition/adjust (“defining
“adjust” as to “[a]lter or move (something) slightly in order to
achieve the desired fit, appearance, or result”).
17

26
as a “modification.” See Davis v. Echo Valley Condo.
Ass’n, 945 F.3d 483, 490 (6th Cir. 2019); Amgen, Inc. v.
Smith, 357 F.3d 103, 117 (D.C. Cir. 2004). Yet the decision below failed to impose any “limits to what HHS
could permissibly consider an ‘adjustment.’” Pet. App.
29a.
3. The decision below reflects a troubling trend:
“[T]he federal courts have become habituated to defer
to the interpretive views of executive agencies, not as
a matter of last resort but first.” Valent v. Comm’r of
Soc. Sec., 918 F.3d 516, 525 (6th Cir. 2019) (Kethledge,
J., dissenting). Indeed, “all too often, courts abdicate
th[eir] duty [to say what the law is] by rushing to find
statutes ambiguous, rather than performing a full interpretive analysis.” Arangure v. Whitaker, 911 F.3d
333, 336 (6th Cir. 2018) (Thapar, J.); see also Kent
Barnett & Christopher J. Walker, Chevron in the Circuit Courts, 116 Mich. L. Rev. 1, 34 (2017) (analyzing
eleven years of circuit-court decisions applying Chevron and finding that only 30% resolved the matter at
step one). “In too many cases, courts do so almost reflexively, as if doing so were somehow a virtue, or an
act of judicial restraint—as if [courts’] duty were to facilitate violations of the separation of powers rather
than prevent them.” Valent, 918 F.3d at 525. This
Court has often cautioned against such reflexive deference, yet the decision below shows that lower courts
still fail to heed this Court’s direction. Review is necessary to rein in this unfortunate tendency to flout this
Court’s separation-of-powers jurisprudence.
That the case comes to this Court from the D.C. Circuit makes the need for review even more pressing.
That court adjudicates most matters of administrative
law in the federal judiciary. Agency policymakers and
agency counsel thus look to the D.C. Circuit for guidance when determining the appropriate bounds of

27
agency authority. If the prevailing view coming from
that court is one of reflexive and capacious deference
under Chevron, agencies will view themselves as empowered to stretch the language of their organic statutes to pursue the policy ends preferred by those who
find themselves in charge, whether or not Congress
shares them.
The problem is particularly acute given the statutory issue here—the breadth of agency authority to
“adjust” statutory requirements. Similar provisions
appear throughout the U.S. Code. See, e.g., 12 U.S.C.
5627(b); 13 U.S.C. 302; 26 U.S.C. 162(l)(5)(B); 26
U.S.C. 7874(g). Under the decision below, those provisions are a license for agencies to achieve almost any
policy end they desire, rather than an appropriately
limited grant of residual discretion. It is essential that
this Court not permit the court of appeals to effect such
a vast shift in power away from the nation’s lawmakers and into the hands of unaccountable administrators.
Ultimately, the decision of the court of appeals poses
in stark terms the need for additional guidance from
this Court as to the appropriate limits on an agency’s
power to interpret the meaning and scope of its statutory authority. It is no secret that members of this
Court have raised concerns about whether Chevron
deference, particularly when applied as indiscriminately as it was in this case, violates the separation of
powers. See, e.g., Arlington, 569 U.S. at 312-316 (Roberts, C.J., dissenting); Michigan, 576 U.S. at 760-764
(Thomas, J., concurring); Gutierrez-Brizuela v. Lynch,
834 F.3d 1142, 1149-1158 (10th Cir. 2016) (Gorsuch,
J., concurring); Kisor, 139 S. Ct. at 2446 n.114 (Gorsuch, J., concurring in the judgment). Whatever Chevron’s ultimate fate, allowing the decision below to

28
stand as the law of the D.C. Circuit can only serve to
deepen these concerns.
B. The question presented is exceptionally
important.
This case presents a question of enormous importance. It addresses how HHS allocates billions of
dollars annually in prescription-drug spending, and it
may well determine whether 340B Hospitals can continue to provide essential services to the low-income,
underserved communities that depend on them.
1. This case is exceptionally important, both to the
Medicare program generally and the 340B Program in
particular.
a. The issue in this case has a significant bearing
on the Medicare program, which spends tens of billions
of dollars annually on separately payable prescription
drugs. ASPE Brief, supra note 3, at 13. That spending
is rapidly growing, escalating from $16 billion in 2007
to $33 billion in 2017. Ibid. This case will determine
the rules that govern that extraordinary amount of
federal spending. In particular, it will determine
whether HHS has the vast power to set reimbursement rates however it sees fit (subject only to arbitrary-and-capricious review), or whether HHS is instead restrained by the statutory scheme that Congress designed—one that sharply limits HHS’s discretion unless HHS collects statutorily specified hospital
acquisition cost survey data. As the United States has
elsewhere acknowledged, “enormous monetary stakes
count as a significant reason to grant certiorari.” Reply Br. for Petitioners, U.S. Dep’t of Interior v. KerrMcGee Oil & Gas Corp., No. 09-54, 2009 WL 2943389,
at *9 (Sept. 11, 2009); see also, e.g., Fidelity Fed. Bank
& Trust v. Kehoe, 547 U.S. 1051, 1051 (2006) (Scalia,
J., concurring in the denial of certiorari) (“[E]normous

29
potential liability, which turns on a question of federal
statutory interpretation, is a strong factor in deciding
whether to grant certiorari.”).
The issue here is especially critical to providers caring for Medicare beneficiaries. Before HHS promulgated the rule at issue here, the agency had always set
reimbursement rates uniformly, varying such rates between ASP+4% and ASP+6% depending on prevailing
overhead costs in the market. See pp. 5-6 & n.9, supra.
That regulatory regime provided stability to
healthcare providers, including the comfort that HHS
would not pay some providers more than others without engaging in a rigorous data-collection effort to determine whether such variations would be justified.
But on HHS’s view, it can vary rates by hospital group
no matter what data it has collected. Indeed, if the
decision below is left undisturbed, nothing prevents
HHS from picking winners and losers in the
healthcare market based on any data source HHS
finds reliable. Before HHS is permitted to wield such
an immense power, this Court should consider
whether Congress has given it the authority to do so.
HHS’s recent actions further confirm that certiorari
is warranted. In response to the district court’s decision in this case, HHS attempted to conduct a hospital
acquisition cost survey. See 85 Fed. Reg. 86,04286,043 (Dec. 29, 2020). The survey had glaring flaws;
among them, HHS surveyed only 340B Hospitals, and
received actual acquisition cost data from only 7% of
the hospitals surveyed. See id. at 86,045; contra 42
U.S.C. 1395l(t)(14)(D)(iii) (requiring HHS to use “a
large sample of hospitals that is sufficient to generate
a statistically significant estimate of the average hospital acquisition cost for each specified covered outpatient drug”). After the court of appeals reversed the
district court, HHS decided to “continue” its “current

30
policy” of cutting reimbursement rates for 340B Hospitals under Subclause (II). 85 Fed. Reg. at 86,054; see
also id. at 86,052-86,054. The agency stated that, in
light of “stakeholders’ concerns,” it would evaluate
“how best to take the relevant factors into account for
potentially using” survey data in the future. Id. at
86,052. But the agency saw no need to do so now because its Subclause (II) authority “was confirmed by
the D.C. Circuit.” Id. at 86,054. HHS has thus made
clear that it sees the decision below as a license to
maintain its unlawful policy, and as an excuse to avoid
grappling with the difficult issues that it may face in
collecting adequate data.
b. This case is important for another reason: If the
decision below stands, HHS’s rate cut will devastate
340B Hospitals and the communities they serve.
Tens of thousands of public and nonprofit hospitals,
community health centers, and other safety-net providers participate in the 340B Program. See Astra
USA, Inc. v. Santa Clara Cnty., Cal., 563 U.S. 110, 113
(2011); OIG Report, supra, at 2. Those entities play a
leading role in providing medical services to poor, underserved populations. See, e.g., Astra USA, 563 U.S.
at 115; U.S. Gov’t Accountability Off., GAO-21-107,
Drug Pricing Program: HHS Uses Multiple Mechanisms to Help Ensure Compliance with 340B Requirements 4-5 (Dec. 2020). 18 They offer vital services, including primary care, pediatrics, trauma care, obstetrics, and psychiatric services—all of which 340B Hospitals provide at a higher rate than other hospitals.

18

https://www.gao.gov/assets/720/711209.pdf.

31
See, e.g., Allen Dobson et al., The Role of 340B Hospitals in Serving Medicaid and Low-income Medicare
Patients 13-16 (July 10, 2020). 19
The role performed by 340B Hospitals carries with
it a large financial burden. Because many of their patients are uninsured or underinsured, 340B Hospitals
provide tens of billions of dollars annually in uncompensated care. 20 As a result, “340B hospitals operate
on razor thin margins, with approximately one out of
every four 340B hospitals having a negative operating
margin.” 21 See also Dobson, supra, at 3 (explaining
that “[o]perating margins for 340B [disproportionate
share] hospitals are significantly lower than those of
non-340B hospitals”). COVID-19 has further strained
that already precarious financial position. See, e.g.,
KaufmanHall, The Effect of COVID-19 on Hospital Financial Health (July 2020). 22
For 25 years, 340B Hospitals kept their commitment to low-income communities by relying on savings
from the otherwise exorbitant prices of prescription
19 https://www.340bhealth.org/files/340B_and_Medicaid_and_
Low_Income_Medicare_Patients_Report_7.10.2020_FINAL_.pdf

See Am. Hosp. Ass’n, 340B Hospital Community Benefit
Analysis (2020), https://www.aha.org/system/files/media/file/
2020/09/340b-community-benefits-analysis-report.pdf
(finding
that tax-exempt 340B Hospitals provided $64.3 billion of community benefits in 2017).
20

21 Tom Nickels, Report Misrepresents 340B Program to Deflect
from Sky High Drug Prices, AHA Stat: An American Hospital Association Blog (Nov. 22, 2019), https://www.aha.org/news/blog/
2019-11-22-report-misrepresents-340b-program-deflect-skyhigh-drug-prices#:~:text=For%20outpatient%20services%2C%
20340B%20hospitals,between%2015%25%20and%2020%25.

https://www.aha.org/system/files/media/file/2020/07/KHCOVID-Hospital-Financial-Health_FINAL.pdf.
22

32
drugs—savings made possible by the 340B Program.
Those savings “support[ed] the financial stability” of
hospitals that might otherwise have fallen under the
weight of their perilous financial burden. 23 They allowed many 340B Hospitals to “maintain services”
that are essential to their patient populations, and allowed still others to “serve more patients” and “provide
services that they might not have otherwise provided.” 24 The 340B Program thus served as a lifeline
to the most financially vulnerable medical providers,
serving the most financially vulnerable patients.
Until now. HHS’s “adjusted” reimbursement rates
eviscerate the federal subsidy that has kept 340B Hospitals afloat for decades. Prescription-drug reimbursement rates to 340B Hospitals are now nearly 30 percent lower, eliminating $1.6 billion annually to participating providers. 82 Fed. Reg. at 52,623. Those cuts
have inflicted a crushing blow on 340B Hospitals,
which are already eliminating essential services at a
time when a deadly pandemic continues to ravage the
nation. Those cuts have likewise subverted the design
of the 340B Program, which Congress created for the
purpose of subsidizing medical care to the poor
through above-cost insurer reimbursements. See p. 7
& n.10, supra. Those damaging consequences underscore the pressing need for review by this Court.
2. The Court should address this issue now. This
case is an ideal vehicle for addressing the question presented. Through the course of this litigation, both the
district court and the court of appeals have issued
23 U.S. Gov’t Accountability Off., GAO-11-836, Drug Pricing:
Manufacturer Discounts in the 340B Program Offer Benefits, but
Federal Oversight Needs Improvement 17 (Sept. 2011), https://
www.gao.gov/assets/330/323702.pdf.
24

Id.

33
thorough decisions analyzing the issue. What is more,
the four judges to review it have split down the middle
on the appropriate outcome, leaving this Court with
the benefit of dueling, reasoned opinions. There is
thus no advantage to waiting several years for the issue to arise again in the future—after billions of dollars more in harm to 340B Hospitals and the populations they serve have been inflicted.
3. Finally, the absence of a circuit conflict provides
no reason to deny review over the operation of the
MMA. This Court routinely grants review of important administrative law decisions notwithstanding
the absence of a split. See p. 16, supra. And this Court
has frequently granted review in splitless cases implicating the separation of powers, in recognition of their
structural importance. See, e.g., Seila Law LLC v.
Consumer Fin. Protection Bureau (No. 19-7); Free Enterprise Fund v. Public Co. Accounting Oversight Bd.
(No. 08-861); Metropolitan Washington Airports Auth.
v. Citizens for Abatement of Aircraft Noise, Inc. (No.
90-906). That treatment is plainly warranted here.

34
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
DONALD B. VERRILLI, JR.
Counsel of Record
JEREMY S. KREISBERG
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave. NW
Suite 500E
Washington, DC 20001
(202) 220-1100
Donald.Verrilli@mto.com
Counsel for Petitioners

February 10, 2021

APPENDIX

1a
APPENDIX A
Nos. 19-5048, 19-5198
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
AMERICAN HOSPITAL ASSOCIATION, et al.,
Appellees
v.
ALEX MICHAEL AZAR, II, in his official capacity
as the Secretary of Health and Human Services and
United States Department of Health and Human
Services, Appellants
[Filed] July 31, 2020
Rehearing En Banc Denied October 16, 2020
Before: SRINIVASAN, Chief Judge, and MILLETT
and PILLARD, Circuit Judges.
OPINION
SRINIVASAN, Chief Judge:
When hospitals provide outpatient care to patients
insured by Medicare Part B, the federal government
reimburses the hospitals for the care. Until recently,
the government reimbursed all hospitals at a uniform
rate for providing covered drugs. In 2018, though, the
Department of Health and Human Services reduced
the reimbursement rate for covered drugs by 28.5%
for certain hospitals known as “340B hospitals” by
virtue of their participation in the federal 340B Drug
Pricing Program for underserved populations. HHS
cut the reimbursement rate for 340B hospitals because they can obtain drugs far more cheaply than
other hospitals. As HHS saw it, Medicare should not
reimburse hospitals more than they paid to acquire
the drugs.

2a
Several hospitals and hospital associations challenge HHS’s decision, claiming that it rests on an
impermissible construction of the governing statute.
The district court agreed with the plaintiffs that HHS
had exceeded its statutory authority by reducing drug
reimbursement rates for 340B hospitals. We disagree.
We hold that HHS’s decision to lower drug reimbursement rates for 340B hospitals rests on a reasonable interpretation of the Medicare statute.
I.
A.
The Medicare program provides health insurance
to the elderly and disabled. Medicare Part A provides
coverage for inpatient care, i.e., care provided while a
patient is admitted to a hospital or skilled nursing
facility. Medicare Part B covers various other services
including outpatient (or same-day) hospital care. Part
B thus pays for certain drugs, such as immunosuppressants or chemotherapy drugs, administered in a
hospital setting on an outpatient basis. Part B beneficiaries generally pay 20% of their bill out of pocket
as coinsurance.
The Department of Health and Human Services
(HHS) annually establishes Part B reimbursement
rates through notice-and-comment rulemaking. In
setting the rates, HHS uses the “Outpatient Prospective Payment System,” or OPPS. See 42 U.S.C. §
1395l(t). See generally Am. Hosp. Ass’n v. Azar, No.
19-5352, 964 F.3d 1230, 1233–35 (D.C. Cir. July 17,
2020). The OPPS requires HHS to fix the amounts it
will pay providers for certain services before the year
begins (rather than after the care has been provided).
Congress moved to that prospective system to enhance HHS’s ability to control Part B costs. See Medicare Program; Prospective Payment System for Hos-

3a
pital Outpatient Services, 65 Fed. Reg. 18,434,
18,436–37 (Apr. 7, 2000); Paladin Cmty. Mental
Health Ctr. v. Sebelius, 684 F.3d 527, 528–29 (5th
Cir. 2012).
For most types of covered care, the Medicare statute instructs HHS to set annual OPPS reimbursement rates through a complex formula that gives the
agency significant discretion. See 42 U.S.C. §
1395l(t)(2). For certain kinds of services, however, the
OPPS limits that discretion and sets out a specific
methodology for calculating payment rates. That is
the case for certain drugs covered by Part B, known
as “specified covered outpatient drugs” or SCODs.
The statute requires HHS to calculate the reimbursement rate for SCODs in one of two ways. First,
under 42 U.S.C. § 1395l(t)(14)(A)(iii)(I), which we will
refer to as subclause (I), HHS may use “the average
acquisition cost for the drug ... as determined by the
Secretary taking into account ... hospital acquisition
cost survey data.” Second, under 42 U.S.C. §
1395l(t)(14)(A)(iii)(II), which we call subclause (II), “if
hospital acquisition cost data are not available,” HHS
must use “the average price for the drug” as established by a separate, cross-referenced statute. In the
event HHS uses average price under subclause (II),
that price metric may be “adjusted by [HHS] as necessary for purposes of this paragraph.” Id.
Since 2006, when those two statutory pricing alternatives took effect, HHS has not had the “hospital
acquisition cost survey data” contemplated by subclause (I). As a result, HHS has had to use the average price metric. See Medicare and Medicaid Programs: Hospital Outpatient Prospective Payment and
Ambulatory Surgical Center Payment Systems and
Quality Reporting Programs, 77 Fed. Reg. 68,210,
68,385–86 (Nov. 15, 2012). The parties here agree

4a
that, by virtue of a statutory cross-reference, a drug’s
default “average price” equals 106% of its “average
sales price,” or ASP. See 42 U.S.C. §
1395l(t)(14)(A)(iii)(II)
(citing
42
U.S.C.
§
1395w-3a(c)). HHS calculates ASP every quarter using sales data confidentially provided by drug manufacturers.
HHS’s average price “methodology ... has always
yielded a finalized payment rate [for SCODs] in the
range of ASP+4 percent to ASP+6 percent,” or 104%
to 106% of ASP. 77 Fed. Reg. at 68,386. As a result,
all hospitals have been paid the same rate—104% to
106% of ASP—for SCODs. Medicare Program: Hospital Outpatient Prospective Payment and Ambulatory Surgical Center Payment Systems and Quality
Reporting Programs, 82 Fed. Reg. 52,356, 52,494–95
(Nov. 13, 2017). From 2013 to 2017, that rate was
106% of ASP, unadjusted from the statutory default
average price.
B.
That changed in late 2017, when HHS announced
SCOD payment rates for the upcoming 2018 OPPS
year. Invoking its subclause (II) authority to “adjust”
the average price metric, HHS for the first time established two separate rates: one rate for hospitals
participating in a drug discount program known as
the “340B program,” and another rate for all other
hospitals. The rate for non-340B hospitals remained
at ASP+6%, or 106% of ASP. The rate for 340B hospitals was “adjusted” down to ASP minus 22.5%, or
77.5% of ASP.
To understand HHS’s reasons for reducing SCOD
reimbursement rates for 340B hospitals, it is helpful
to review the background of the 340B program. The
program takes its name from the section of the Public

5a
Health Service Act that authorizes it. See Pub. L. No.
102-585, § 602, 106 Stat. 4943, 4967–71 (1992). The
program allows covered entities (including eligible
hospitals) to purchase drugs from manufacturers at
heavily discounted rates. See 42 U.S.C. § 256b(a)(4).
The covered entities generally care for underserved
populations, and the discounted rates enable the providers to “stretch scarce Federal resources as far as
possible.” H.R. Rep. No. 102-384 (II), at 12 (1992).
The program requires manufacturers, as a condition of having their drugs covered by Medicaid, to sell
each covered drug to 340B entities at a “ceiling price”
(set by statutory formula). 42 U.S.C. § 256b(a). The
program covers at least 3,500 drugs, 82 Fed. Reg. at
52,494, and the government estimates that 340B
sales make up approximately 2.8% of the total U.S.
drug market. Health Resources and Services Administration, Justification of Estimates for Appropriations Committees Fiscal Year 2018, at 244,
https://www.hrsa.gov/sites/default/files/hrsa/about/bu
dget/budget-justification-2018.pdf.
Over the past several years, observers have raised
concerns about the intersection of the 340B program
with Medicare Part B. Government reports found
that 340B hospitals typically pay between 20% and
50% below ASP for covered drugs. When hospitals
provide 340B drugs that qualify as SCODs to patients, the hospitals then seek reimbursement from
Medicare Part B. Until 2018, the reimbursement rate
was 106% of ASP. There was thus a large gap between the amount a 340B hospital would spend to
acquire a SCOD and the higher amount Medicare
would reimburse that hospital. The gap ranged from
25% to 55% of the cost of the drug. See, e.g., U.S.
Government Accountability Off., GAO-15-442, Medicare Part B Drugs: Action Needed to Reduce Finan-

6a
cial Incentives to Prescribe 340B Drugs at Participating
Hospitals
(June
2015),
https://www.gao.gov/assets/680/670676.pdf.
When it came time to set 2018 OPPS rates, HHS
decided to address the 340B-Part B payment gap.
HHS believed that the gap “allow[ed] [340B] providers to generate significant profits when they administer[ed] Part B drugs.” 82 Fed. Reg. at 52,494. Seeking to shrink those revenues, HHS imposed a 28.5%
cut, from 106% of ASP to 77.5% of ASP, to the rates
at which it would reimburse 340B hospitals for
SCODs. See id. at 52,496. The new rate was based on
a “conservative” estimate, presented by the Medicare
Payment Advisory Committee, that 22.5% below ASP
equaled the “average minimum discount that a 340B
participating hospital receive[d]” when purchasing
SCODs. Id. HHS estimated that its 28.5% cut to
SCOD reimbursement rates for Part B hospitals
would save Medicare $1.6 billion in 2018. Id. at
52,509. As called for by the OPPS statute, HHS did
not pocket the savings, but instead redistributed
them to all hospitals in a budget-neutral manner by
raising other Part B reimbursement rates. Id. at
52,623; see 42 U.S.C. § 1395l(t)(14)(H).
By addressing the 340B-Part B payment gap, HHS
hoped to mitigate “unnecessary utilization and potential overutilization of [Part B] drugs.” Medicare Program: Hospital Outpatient Prospective Payment and
Ambulatory Surgical Center Payment Systems and
Quality Reporting Programs, 82 Fed. Reg. 33,558,
33,633 (July 20, 2017). HHS cited a GAO study which
found that 340B hospitals prescribed more drugs
than other hospitals, a disparity unexplained by salient distinctions between the hospitals or their patient populations. Id. at 52,494. HHS also sought to
reduce the disproportionate coinsurance payments

7a
borne by Medicare Part B beneficiaries (mostly elderly patients) for 340B SCODs: because the amount
of a patient’s coinsurance payment is a fixed percentage of the medical bill as measured by the OPPS
payment level, and because the latter amount for
SCODs exceeded 340B hospitals’ actual costs to obtain the drugs, patients’ out-of-pocket coinsurance
payments for SCODs became inflated, sometimes
even exceeding a hospital’s costs to acquire the drugs.
See id.
Ultimately, HHS found it “inappropriate for Medicare to subsidize other activities” by 340B hospitals—as
laudable
as
those
activities
may
be—“through Medicare payments for [Part B] drugs.”
Id. at 52,495. In order to “better and more appropriately reflect the resources and acquisition costs that
[340B] hospitals incur,” HHS acted to close the Part
B-340B gap. Id. (formatting modified). HHS relied on
its authority to “adjust” the average price metric under subclause (II) of the statute:
We believe our authority under section
[1395l](t)(14)(A)(iii)(II) of the Act to “calculate
and adjust” drug payments “as necessary for
purposes of this paragraph” gives the Secretary broad discretion to adjust payments for
drugs, which we believe includes an ability to
adjust Medicare payment rates according to
whether or not certain drugs are acquired at a
significant discount.
Id. at 52,499.
C.
The plaintiffs here are three hospitals and three
hospital associations, to whom we will refer collectively as the Hospitals. On November 13, 2017, the
day HHS published the rule reducing 340B reim-

8a
bursement rates for SCODs, the Hospitals brought a
challenge to HHS’s action. See Am. Hosp. Ass’n v.
Hargan, 289 F. Supp. 3d 45, 50 (D.D.C. 2017). The
district court dismissed the suit on the ground that
the Hospitals had yet to present a concrete claim for
payment to HHS, as required by statute. See id. at
47. We affirmed. Am. Hosp. Ass’n v. Azar, 895 F.3d
822, 828 (D.C. Cir. 2018).
The Hospitals quickly submitted payment claims
as required. HHS rejected them, claiming that the
Medicare statute precludes administrative review of
adjustments to OPPS payment rates, including
SCOD reimbursement rates. The Hospitals then filed
this action. Before the district court ruled, HHS
promulgated OPPS rates for fiscal year 2019, which
retained the 28.5% SCOD reimbursement cut for
340B hospitals that the Hospitals had initially challenged. 53 Fed. Reg. 83,818 (Nov. 21, 2018). After
submitting additional payment claims, the Hospitals
filed a supplemental complaint challenging the 2019
Rule as well. See Suppl. Compl. ¶¶ 73–75 (Dkt. 39).
This time, the district court reached the merits.
After concluding that the Medicare statute did not
preclude its review of the reductions in SCOD reimbursement, the court held that the rate cut exceeded
HHS’s statutory authority to “adjust” SCOD rates.
Am. Hosp. Ass’n v. Azar, 348 F. Supp. 3d 62, 79
(D.D.C. 2018). The court remanded to the agency to
come up with a remedy in the first instance. The
court then entered final judgment, paving the way for
this appeal.
II.
We must first address a threshold challenge to our
jurisdiction. The government asserts that paragraph
1395l(t)(12) of the OPPS statute,

9a
1395l(t)(12), precludes judicial review of HHS’s adjustments to SCOD rates. The district court disagreed, and so do we. Unable to find “clear and convincing evidence that Congress intended” that result,
as would be required to overcome the “strong presumption that Congress intends judicial review of
administrative action,” we conclude that the challenged rate adjustment is subject to judicial review.
Amgen, Inc. v. Smith, 357 F.3d 103, 111 (D.C. Cir.
2004) (quoting Bowen v. Mich. Acad. of Family Physicians, 476 U.S. 667, 670, 106 S.Ct. 2133, 90 L.Ed.2d
623 (1986)).
Paragraph 1395l(t)(12) states that “[t]here shall be
no administrative or judicial review” of certain enumerated actions undertaken by HHS in administering the OPPS. The question is whether changes to
SCOD reimbursement rates are among the listed,
nonreviewable actions. The government says yes,
contending that changes to SCOD reimbursement
rates fall within two provisions of paragraph (12):
subparagraphs (12)(A) and (12)(C).
The first provision, subparagraph (12)(A), bars review of the “development of the classification system
under paragraph (2), including the establishment of
groups and relative payment weights for covered
OPD [outpatient department] services, of wage adjustment factors, other adjustments, and methods
described in paragraph (2)(F).” 42 U.S.C. §
1395l(t)(12)(A); see also Am. Hosp. Ass’n, No. 19-5352,
964 F.3d at 1237–38. The second provision, subparagraph (12)(C), bars review of “periodic adjustments
made under paragraph ([9]).” Id. § 1395l(t)(12)(C).
(While the provision in fact refers to “paragraph (6),”
all agree that the reference contains a scrivener’s error and that Congress in fact intended to refer to
paragraph (9).) The reach of subparagraphs (12)(A)

10a
and (12)(C) turns on the scope of the provisions they
cross-reference: paragraphs (2) and (9), respectively.
Begin with paragraph (2), which sets out the general methodology HHS must use to set standard
OPPS payments. Under paragraph (2), HHS “develop[s] a classification system.” Id. § 1395l(t)(2)(A). In
doing so, HHS groups certain medical services together that are “comparable clinically and with respect to the use of resources.” Id. § 1395l(t)(2)(B). The
resulting groups are known as ambulatory payment
classifications, or APCs. Next, HHS establishes “relative payment weights” for the grouped services in an
APC based on hospital costs. Id. § 1395l(t)(2)(C). HHS
then sets default payment amounts for the services in
each APC corresponding to the weights.
Paragraph (9), meanwhile, requires HHS to annually review and adjust the standard OPPS payment
rates initially set under paragraph (2). Specifically,
HHS must reassess its grouping and weighting decisions, as well as the other separate payment adjustments it makes under paragraph (2) (such as labor-cost adjustments), to “take into account changes
in medical practice, changes in technology, the addition of new services, new cost data, and other relevant information and factors.” Id. § 1395l(t)(9)(A).
HHS determines most annual OPPS payment levels through the exercise of paragraph (2) and (9) authority. Recall, however, that the Medicare statute
does not allow HHS to use that discretion-laden authority to establish payment rates for all Part B services. Reimbursement rates for specified covered
outpatient drugs—the rates at issue here—instead
must be keyed to one of two statutory formulas set
out in paragraph 1395l(t)(14): average acquisition
cost (if hospital cost data are available) under subclause (I), or average price under subclause (II).

11a
SCOD payments “shall be equal” to one of those two
options. Id. § 1395l(t)(14)(A)(iii).
Returning to our original question of whether
HHS’s adjustment to SCOD reimbursement rates fall
within the bars on judicial review set out in subparagraphs (12)(A) or (12)(C), the answer is no as a textual matter. Neither (12)(A) nor (12)(C) addresses—and
thus neither purports to preclude—any action taken
by HHS under paragraph (14) of the statute. And
none of the actions described in subparagraphs
(12)(A) or (12)(C) plausibly, let alone clearly, comprises SCOD reimbursement adjustments.
In particular, subparagraph (12)(A) precludes review of “the development of the [APC] classification
system,” “the establishment of groups and relative
payment weights,” “wage adjustment factors,” and
“other adjustments.” Id. § 1395(t)(12)(A). As just discussed, SCOD rates are not set using the paragraph
(2) grouping and weighting process, so a change to
SCOD rates does not come under the first two of
those descriptions. Such a change is also not a “wage
adjustment[ ].” Nor is it covered by the term “other
adjustments,” which we have read to reach only the
“adjustments ... necessary to ensure equitable payments” under subparagraph (2)(E) (i.e., “equitable
adjustments”), see Amgen, 357 F.3d at 113.
Subparagraph (12)(C), similarly, does not by its
plain terms appear to cover SCOD payment reductions. It covers “periodic adjustments made under
paragraph [9].” 42 U.S.C. § 1395l(t)(12)(C). By the
terms of paragraph (9), that annual adjustment power extends only to actions initially taken under paragraph (2). And as just discussed, none of those actions
textually corresponds to a decision to reduce SCOD
rates.

12a
Our analysis of the text draws support from Congress’s history of amendments to the OPPS statute.
When adding new provisions to subsection 1395l(t),
Congress has tended to say expressly when it wishes
to preclude judicial review of decisions made under
an added provision. In 1999, Congress added paragraphs (5), (6), and (7) to subsection (t). In the same
legislation, Congress also added clause (E) to paragraph (12), which provided that certain “determination[s]” made under paragraphs (5) and (6), but not
any decisions under paragraph (7), would not be judicially reviewable. See Pub. L. No. 106-113, § 201(d),
113 Stat. 1501 (1999). In 2015, Congress included a
preclusion-of-judicial-review provision directly within
the newly added paragraph (21), rather than amending paragraph (12). See Pub. L. No. 114-74, § 603, 129
Stat. 584, 598 (2015). By contrast, when Congress
added paragraph (14) in 2003, it did so without any
indication of an intention to preclude judicial review
of SCOD rate-setting decisions.
According to the government, though, Congress
had no need to expressly preclude judicial review of
actions taken under paragraph (14) because those actions are inherently ones under paragraphs (2) and
(9) (and thus necessarily fall within the judicial-review bars in subparagraphs (12)(A) and
(12)(C)). The nub of the government’s argument is
that paragraph (14) does not in fact set up a
“standalone payment regime” outside the general
paragraph (2) system. Appellant’s Reply Br. 15. Rather, the government contends, paragraph (14) merely “provides instructions to HHS about how to exercise its paragraph 2 and 9 authority when setting and
revising payments” for SCODs. Id. On that view,
even though HHS must follow paragraph (14)’s specific commands when setting the SCOD reimburse-

13a
ment rate, when HHS does so, it exercises authority
located not in (14) but in paragraphs (2) and (9).
Ultimately, it is the government’s burden to support that theory by “clear and convincing evidence,”
Amgen, 357 F.3d at 111, especially given the absence
of statutory text unambiguously precluding judicial
review. Applying that standard, we are insufficiently
persuaded of the proposition that HHS’s authority to
annually set SCOD rates is located in paragraphs (2)
and (9) rather than paragraph (14).
First, Congress on several occasions has specifically noted, directly in the statutory text, that certain
OPPS-related decisions fall under paragraph (2).
When Congress authorized HHS to make “outlier adjustments” and “pass-through payments,” it fleshed
out how those actions would work in paragraphs (5)
and (6) respectively, but lodged the authority to make
the adjustments in the newly added subparagraph
(2)(E). See 42 U.S.C. § 1395l(t)(2)(E). When Congress
added paragraphs (13) and (18), which address adjustments for rural and cancer hospitals, respectively,
it similarly provided that those adjustments would
fall under subparagraph (2)(E). 42 U.S.C. §
1395l(t)(13)(B) (“the Secretary shall provide for an
appropriate adjustment under paragraph (2)(E)”); id.
§ 1395l(t)(18)(B) (“the Secretary shall ... provide for
an appropriate adjustment under paragraph (2)(E)”).
But when Congress added the SCOD reimbursement
provisions of paragraph (14) in 2003, it included no
such language referencing paragraph (2).
Second, both the statute’s text and HHS’s
longstanding practice strongly suggest that paragraph (2) and (9)’s “adjustment” authorities do not
encompass paragraph (14). If setting SCOD rates
were an exercise of paragraph (2) authority, HHS
would be authorized to use its subparagraph (2)(E)

14a
equitable-adjustment authority to change the rates.
But it does not appear HHS may make such adjustments to SCOD rates.
As a matter of statutory text, paragraph (14) provides its own authorizations for HHS to adjust SCOD
rates. Subclause (I) of paragraph (14), which sets out
the average-acquisition-cost formula, says that the
Secretary “may vary [the calculated reimbursement
rate]
by
hospital
group.”
42
U.S.C.
§
1395l(t)(14)(A)(iii)(I). Subclause (II), which requires
SCOD reimbursement to reflect a drug’s average
price, allows the Secretary to “calculate[ ] and adjust[
] [the average price metric] as necessary for purposes
of this paragraph.” Id. § 1395l(t)(14)(A)(iii)(II). And
both the average-acquisition-cost and average-price
formulas are “subject to subparagraph (E),” which
authorizes the Secretary to “adjust” SCOD payments
to account for “overhead and related expenses, such
as pharmacy services and handling costs.” Id. §
1395l(t)(14)(E). It would be odd for Congress in paragraph (14) to provide HHS with those specific authorities to “adjust” SCOD rates if HHS nonetheless has
the general authority to adjust those rates as it sees
fit under paragraph (2) or (9).
HHS’s longstanding practice, and the 2018 and
2019 Rules at issue here, corroborate that understanding. HHS has never purported to use its paragraph (2) or (9) authorities either to set SCOD rates
or to deviate from the default “average price” rate set
out in subclause (II). And it did not do so here. Instead, in the 2018 Rule, HHS grounded its action in
in the “calculate and adjust” provision of paragraph
(14), subclause (II). 82 Fed. Reg. at 52,499–500. The
government claims that HHS invoked its paragraph
(9) authority in the 2018 Rule’s preamble. But the
preamble stated only that the Rule would “describe

15a
[that] and various other statutory authorities in the
relevant sections of this final rule.” Id. at 52,362. And
in the section of the Rule explaining HHS’s statutory
authority to make the 340B-related reduction to
SCOD rates, there is no reference to paragraph (9).
See id. at 52,496, 52,499–502.
Of particular note, HHS made no claim that the
rate cut at issue here was an exercise of its subparagraph (2)(E) equitable-adjustment authority, even
though the change might be seen to serve equitable
goals. HHS relied solely on its paragraph (14), subclause (II) adjustment authority, even as it invoked
its subparagraph (2)(E) equitable-adjustment power
in connection with at least two other rate changes in
the 2018 OPPS Rule. See id. at 52,364–65 (explaining
that HHS makes an additional payment for radioisotopes used in diagnostic imaging “based on the authority set forth at section [1395l](t)(2)(E)”); id. at
52,421 (“we are using our equitable adjustment authority” to change reimbursement for retinal procedure).
Third, paragraph (14) operates as a standalone
payment regime for all practical purposes. The statute contemplates that HHS will set SCOD payment
rates in a vacuum, without taking into account other
OPPS rate-setting decisions. SCOD rates are not set
through relative weighting with rates for other reimbursable care. And if HHS changes the payment
weights for other APCs, SCOD prices need not
change because SCOD rates are unaffected by the
statute’s budget-neutrality requirement. Recall that
SCOD rates must equal either average acquisition
cost or average price. Although subparagraph (14)(H)
requires that “[a]dditional expenditures resulting
from this paragraph” be “taken into account” for
overall budget neutrality for the OPPS, that language

16a
recognizes that the expenditures “resulting” from the
application of paragraph (14) will be calculated first,
irrespective of other adjustments made to other
OPPS payments. 42 U.S.C. § 1395l(t)(14)(H). Only
then are those set-in-stone numbers put into the
budget-neutrality calculator.
On this score, HHS again has consistently read the
statute the way we do. See, e.g., 77 Fed. Reg. at
68,262 (“Payments for [SCODs] are included in the
budget neutrality adjustments ... but the budget neutral weight scaler is not applied to their payments
because they are developed through a separate
methodology, outside the relative payment weight
based process.”). That understanding of the statute’s
structure sits uncomfortably, to say the least, with
HHS’s position in this case that paragraph (14) does
no more than instruct HHS how to exercise its paragraph (2) and (9) authorities.
The government lastly relies on subparagraph
(14)(H), reading that provision to indicate that setting of SCOD rates is an exercise of paragraph (9)’s
annual-adjustment authority. Subparagraph (14)(H),
enacted along with the rest of paragraph (14) in 2003,
requires that SCOD payments be counted for budget-neutrality purposes in years after 2005, but specifies that the payments “shall not be taken into account” for budget-neutrality purposes in 2004 and
2005. 42 U.S.C. § 1395l(t)(14)(H) (emphasis added);
see also id. § 1395l(t)(9)(B). According to the government, the specification that SCOD payments would
not be subject to budget neutrality in 2004 and 2005
suggests that budget neutrality otherwise applies,
which would be the case if SCOD rate-setting were an
exercise of paragraph (9) authority (given that all
paragraph (9) adjustments must be budget neutral,
see id. § 1395l(t)(9)(B)).

17a
We disagree with the premise that SCOD rates can
factor into OPPS budget neutrality only if the setting
of SCOD rates is an exercise of paragraph (9) authority. It is at least possible, if not probable, that Congress conceived of the SCOD rate-setting program as
entirely distinct from the general paragraph (2) and
(9) program, yet still wanted the output of the SCOD
program to matter for overall budget neutrality. Recall that Congress required HHS to move to the prospective OPPS system, constrained by a budget-neutrality requirement, in order to control Medicare Part B spending and promote more predictable
annual growth. In view of those goals, Congress,
when creating a standalone payment regime for
SCODs, might still have wanted to achieve budget
neutrality for Part B payments as a whole. Thus,
Congress’s choice to make that desire explicit for
years after 2005 (and to carve out the two prior years)
does not necessarily imply that HHS exercises paragraph (9) authority whenever it adjusts SCOD rates.
To sum up: subparagraphs (12)(A) and (12)(C) do
not, by their terms, clearly cover HHS’s decision to
cut SCOD reimbursement to 340B hospitals. While
the government argues that SCOD rate-setting is
merely a species of general OPPS rate-setting under
paragraphs (2) and (9), and that Congress thus intended SCOD payment decisions to be similarly insulated from review, that account, at a minimum, is
not clearly correct. As a result, the government has
failed to “overcom[e] the strong presumption that
Congress did not mean to prohibit” our review. Bowen, 476 U.S. at 672, 106 S.Ct. 2133.
III.
Proceeding to the merits, the sole question before
us is whether HHS had statutory authority to impose
its 28.5% cut to SCOD reimbursement rates for 340B

18a
hospitals. HHS located its authority in subclause (II)
of paragraph (14) of the OPPS statute. Under that
provision, when HHS sets SCOD payment amounts
tethered to average drug prices, HHS has express
authority to “adjust[ ]” the amounts “as necessary for
purposes of this paragraph.” 42 U.S.C. §
1395l(t)(14)(A)(iii)(II). In our view, HHS reasonably
interpreted subclause (II)’s adjustment authority to
enable reducing SCOD payments to 340B hospitals,
so as to avoid reimbursing those hospitals at much
higher levels than their actual costs to acquire the
drugs.
On that issue of statutory interpretation, HHS is
entitled to Chevron deference, which it has invoked
here (although it did not do so expressly until a
post-argument letter submitted to the Court). See
Chevron U.S.A., Inc. v. Nat. Res. Def. Council, Inc.,
467 U.S. 837, 842, 104 S.Ct. 2778, 81 L.Ed.2d 694
(1984). When an agency “interpret[s] a statute it is
charged with administering in a manner (and
through a process) evincing an exercise of its lawmaking authority,” that interpretation is entitled to
Chevron treatment, and the agency cannot forfeit
Chevron’s applicability. SoundExchange, Inc. v. Copyright Royalty Board, 904 F.3d 41, 54–55 (D.C. Cir.
2018). HHS established SCOD reimbursement rates
for 340B hospitals through notice-and-comment
rulemaking and explained why it “believe[d] that [its]
proposal [was] within [its] statutory authority to
promulgate.” 82 Fed. Reg. at 52,499. HHS’s understanding of its statutory authority thus is entitled to
Chevron deference. See Am. Hosp. Ass’n, No. 19-5352,
964 F.3d at 1239; Tenet HealthSystems HealthCorp.
v. Thompson, 254 F.3d 238, 248 (D.C. Cir. 2001); see
also Barnhart v. Walton, 535 U.S. 212, 222, 122 S.Ct.
1265, 152 L.Ed.2d 330 (2002).

19a
Under Chevron, we first ask whether “Congress
has directly spoken to the precise question at issue.”
Chevron, 467 U.S. at 842, 104 S.Ct. 2778. Here, the
“precise question at issue” is whether HHS’s adjustment authority in subclause (II) encompasses a reduction to SCOD reimbursement rates aimed at
bringing reimbursements to 340B hospitals into line
with their actual costs to acquire the drugs. If the
statute does not directly foreclose HHS’s understanding, we defer to the agency’s reasonable interpretation. See id. at 844, 104 S.Ct. 2778. We conclude
that HHS’s interpretation of subclause (II) is not directly foreclosed and is reasonable.
By way of brief review, paragraph (14), as its title
confirms,
addresses
“[d]rug
...
payment
rates”—specifically, the rates at which hospitals are
reimbursed for SCODs furnished to beneficiaries in
supplying covered care. 42 U.S.C. § 1395l(t)(14). Under subclause (I) of the paragraph, the “amount of
payment,” as a default matter, “shall be equal” to
hospitals’ “average acquisition cost for the drug.” Id. §
1395l(t)(14)(A)(iii)(I). But if pertinent “hospital acquisition cost data are not available,” then payment
levels are determined under subclause (II). Under
that provision, the amount of payment equals “the
average price for the drug”—which, by statutory
cross-reference, is the drug’s average sales price
(ASP) charged by manufacturers—but subject to “adjust[ment] ... as necessary for purposes of this paragraph.” Id. § 1395l(t)(14)(A)(iii)(II).
Much is undisputed about HHS’s application of
subclause (II)’s adjustment authority to reduce SCOD
payment rates to 340B hospitals. First, HHS properly
found that the “hospital acquisition cost data” contemplated by subclause (I) was unavailable, such that
HHS needed to determine payment rates in accord-

20a
ance with subclause (II)’s fallback reliance on average
drug prices. Second, 340B hospitals obtain SCODs at
substantially lower cost than other providers, such
that reimbursing those hospitals at the same rate as
other providers would give sizable revenues to the
hospitals. Third, HHS’s 28.5% SCOD rate reduction
for 340B hospitals is a fair, or even conservative,
measure of the reduction needed to bring payments to
those hospitals into parity with their costs to obtain
the drugs. See 82 Fed. Reg. at 52,500. Fourth, absent
the reduction, at least some Medicare beneficiaries
served by 340B hospitals (generally underserved
populations) would pay out-of-pocket copayments for
the drugs that substantially exceed the normal copay
share of providers’ cost to obtain the drugs—with
beneficiaries’ copayments sometimes exceeding 340B
hospitals’ full cost to purchase the drugs. And fifth,
the roughly $1.6 billion in savings from reducing
SCOD reimbursement payments to 340B hospitals is
not kept by the agency but is redistributed to all providers as additional reimbursement payments for
other services. See generally pp. 822–23, supra.
That is the backdrop against which we consider
whether HHS permissibly understood its subclause
(II) adjustment authority to encompass its reduction
to reimbursement payments to 340B hospitals for
SCODs. Was HHS obligated to continue reimbursing
340B hospitals for SCODs in amounts substantially
exceeding their costs to obtain the drugs, with the
resulting effects that concerned the agency on
out-of-pocket copayments owed by Medicare beneficiaries? We think the agency was not compelled to
continue doing so.
The central question is whether HHS permissibly
conceived of the “purposes of this paragraph,” i.e.,
paragraph (14), in exercising its subclause (II) au-

21a
thority to “adjust[ ]” payment rates “as necessary for
the purposes of this paragraph,” 42 U.S.C. §
1395l(t)(14)(A)(iii)(II). According to the agency, a
“manifest purpose of paragraph 14 is to compensate
providers for the average acquisition cost” of SCODs.
Appellant’s Br. 30. In accordance with that understanding, HHS explained in the 2018 Rule that “a
payment amount of ASP minus 22.5 percent for drugs
acquired under the 340B Program is better aligned to
hospitals’ acquisition costs and thus this adjustment
... is necessary for Medicare OPPS payment policy.”
82 Fed. Reg. at 52,501.
Paragraph (14)’s structure supports HHS’s understanding that the provision’s core purposes include
reimbursing hospitals for their costs to acquire
SCODs. Paragraph (14)’s primary (and default) instruction for determining SCOD payment amounts,
set out in subclause (I), is to equate them to “average
acquisition cost.” 42 U.S.C. § 1395l(t)(14)(A)(iii)(I).
That alone indicates that Congress’s primary goal is
to reimburse providers for their acquisition costs.
And if direct acquisition-cost data of a kind contemplated by subclause (I) is unavailable, HHS must
then, as a fallback matter under subclause (II),
equate payment amounts to “average price,” subject
to adjustment. 42 U.S.C. § 1395l(t)(14)(A)(iii)(II). By
prescribing the use of ASP as a backup when the requisite acquisition-cost data is unavailable, Congress
signaled that average price functions as a stand-in for
costs.
HHS has long understood average price under
subclause (II) to serve as a “proxy for average acquisition cost.” 77 Fed. Reg. at 68,386. HHS has used
ASP since 2006, stating then and all along that its
“intent” in using ASP was “to pay for drugs and biologicals based on their hospital acquisition costs.”

22a
Medicare Program; Changes to the Hospital Outpatient Prospective Payment System and Calendar
Year 2006 Payment Rates, 70 Fed. Reg. 68,516,
68,642 (Nov. 10, 2005). For non-340B hospitals, ASP
is an accurate approximation of acquisition costs:
HHS’s Inspector General has found that, for
non-340B hospitals, ASP comes within roughly 1% of
acquisition costs. HHS Office of Inspector General,
Memorandum Report: Payment for Drugs Under the
Hospital Outpatient Prospective Payment System 1,
9 (Oct. 22, 2010). But for 340B hospitals, ASP substantially exceeded SCOD acquisition costs by the
time of the 2018 Rule—hence the need for an adjustment under subclause (II) to bring payments to 340B
hospitals into line with their costs.
The OPPS statute exhibits in other ways Congress’s evident purpose of aligning SCOD reimbursement with hospital costs. Paragraph (14) itself
expressly authorizes a separate adjustment to SCOD
payment rates to account for “overhead costs” and
“related expenses” (“such as pharmacy services and
handling costs”). Id. § 1395l(t)(14)(E). And more
broadly, many other OPPS provisions reflect the goal
of aligning payments to hospitals with their costs. See
id. § 1395l(t)(2)(C) (grouping and weighting under
paragraph (2) must be “based on median ... hospital
costs”); id. § 1395l(t)(2)(D) (“wage adjustment factor”
must account for “relative differences in labor and
labor-related costs”); id. § 1395l(t)(5)(B) (“outlier adjustments” must “approximate the marginal cost of
care”); id. § 1395l(t)(9)(A) (“periodic ... adjustments”
must be based on “new cost data”); id. §
1395l(t)(13)(A) (authorizing adjustments if “costs incurred by hospitals located in rural areas ... exceed
those costs incurred by hospitals located in urban ar-

23a
eas”); id. § 1395l(t)(18)(B) (same for cancer hospitals).
All of that supports HHS’s understanding that the
“purposes” of paragraph 14 for which the agency can
“adjust[ ]” SCOD payments under subclause (II) include aligning payments to hospitals with their drug
acquisition costs. Id. § 1395l(t)(14)(A)(iii)(II). That is
precisely what HHS did when it imposed its 28.5%
reduction in payments to 340B hospitals for SCODs.
In arguing that HHS lacked authority under subclause (II) to undertake that measure, the Hospitals
focus on subclause (I)’s requirement that, if payment
amounts are keyed to “average acquisition cost” under that provision—as opposed to average price under
subclause (II)—then the agency must take “into account the hospital acquisition cost survey data under
subparagraph (D).” Id. § 1395l(t)(14)(A)(iii)(I). And
subparagraph (D) imposes stringent data-quality requirements, mandating that the cost surveys “shall
have a large sample of hospitals that is sufficient to
generate a statistically significant estimate of the
average hospital acquisition cost for each [SCOD].”
Id. § 1395l(t)(14)(D)(iii).
Because Congress required HHS to “tak[e] into account” robust study data when setting SCOD rates at
average acquisition cost under subclause (I), the Hospitals argue, HHS cannot use its subclause (II) authority to adjust ASP in order to approximate acquisition cost. As the Hospitals see it, if HHS wants to
set SCOD rates based on the cost to hospitals to acquire the drugs, the agency must get the data contemplated by subclause (I). If it were otherwise, the
Hospitals contend, subclause (I)’s requirement to take
into account the data collected under subparagraph
(D) would be meaningless: HHS could simply forgo
the study required by subclause (I) and instead use

24a
subclause (II) to approximate drug acquisition costs.
Our dissenting colleague, too, stresses the same
point. Dissenting Op. 836–37.
That argument, on which the district court relied,
see Azar, 348 F. Supp. 3d at 82–83, is not without
force. We, though, are ultimately unpersuaded. For
the Hospitals’ argument to carry the day under
Chevron, we would need to conclude that Congress
unambiguously barred HHS from seeking to align
reimbursements with acquisition costs under subclause (II), or that HHS’s belief that it could do was
unreasonable. And HHS would be barred from doing
so even if, as here, it is undisputed both that payment
amounts otherwise would substantially exceed hospitals’ costs and that the proposed adjustment accurately and reliably approximates procurement costs.
Given that the survey data contemplated by subclause (I) aims to assure the reliability of
cost-acquisition data, we do not read the statute to
foreclose an adjustment to ASP under subclause (II)
that is based on reliable cost measures of the kind
undisputedly at issue here. That is particularly so
because, whereas the Hospitals question whether
HHS’s interpretation could enable sidestepping subclause (I)’s data-reliability requirements altogether,
the Hospitals’ own reading raises a similar interpretive dilemma. Subclause (II), as explained, expressly
empowers HHS to “adjust” payments based on ASP
“as necessary for purposes of” paragraph (14). And
under the Hospitals’ reading, those “purposes” cannot
include the goal of approximating hospital acquisition
costs. But the Hospitals point to no other “purpose”
that could permissibly support an adjustment. The
Hospitals’ argument thus renders subclause (II)’s
adjustment authority superfluous.

25a
The Hospitals submit that “[t]he purpose of paragraph (14) is to establish the rate for separately payable drugs.” Appellees’ Br. 42–43. That may be true
at a high level of generality—indeed, the title of paragraph (14) is “Drug APC payment rates”—but it is
unhelpful to the Hospitals for our purposes. After all,
HHS’s rate reduction for payments to 340B hospitals
does “establish the rate for separately payable
drugs.”
The Hospitals also suggest that subclause (II)’s
adjustment authority enables adjustments to account
for overhead costs. Appellees’ Br. 49. But that reading would leave subclause (II)’s adjustment authority
duplicative of authority already conferred by subparagraph (14)(E). That subparagraph, as noted, authorizes HHS to make adjustments to account for
“overhead and related expenses, such as pharmacy
services and handling costs.” 42 U.S.C. §
1395l(t)(14)(E)(i). If subclause (II)’s adjustment authority were merely meant to reinforce subparagraph
(14)(E)’s authority to account for overhead costs, then
why would subclause (II) not simply say so, in comparable language? Instead, subclause (II) frames its
grant of authority in notably broader terms addressed to the overall purposes of paragraph (14), not
just the specific, “overhead and related expenses” focus of subparagraph (14)(E).
The Hospitals’ reading of subclause (II)’s adjustment authority as addressed to overhead costs, it
bears noting, would necessarily mean that the purpose of granting that authority is to enable bringing
ASP closer to drug acquisition costs—precisely what
the Hospitals otherwise say the agency cannot aim to
do when exercising its subclause (II) authority. But
under the Hospitals’ evident understanding, the
agency can try to get ASP closer to actual costs only

26a
to the extent of taking into account overhead costs,
without going further to bring ASP all the way into
alignment with acquisition costs. That half-measure
understanding of subclause (II)’s adjustment authority is incompatible with its broad terms, which speak
generally to the “purposes” of paragraph (14), including, in particular, approximating drug acquisition
costs.
Our dissenting colleague nonetheless endorses the
Hospitals’ suggestion that subclause (II)’s adjustment
authority, while framed generally, should be read as
focused on overhead costs. Dissenting Op. 836–38.
Our colleague briefly suggests that there may be no
redundancy between subclause (II) and subparagraph
(14)(E) under that reading because, she posits, the
two provisions both allow for adjustments to account
for overhead costs, but at different times, with (14)(E)
in the nature of a time-limited, naturally-expiring allowance and subparagraph (II) an ensuing, ongoing
one. Id. at 836–37. Again, though, if the provisions
were designed to cover the same terrain (even if at
different times), one would expect them to use similar
language in defining the territory, which they conspicuously do not. And at any rate, the statutory text
confirms that the provisions are designed to work
side-by-side contemporaneously, not at different
times: Congress rendered subclause (II)’s provisions
expressly “subject to paragraph (E),” such that the
agency, when acting under subclause (II), could make
adjustments to ASP both under that provision’s own,
broadly-framed adjustment authority and under
subparagraph (14)(E)’s more specific authority addressed
to
overhead
costs.
42
U.S.C.
§
1395l(t)(14)(A).
Our dissenting colleague ultimately allows that the
Hospitals’ overhead-costs interpretation of subclause

27a
(II)’s adjustment authority means that the provision
may
reiterate—i.e.,
make
“double
sure”—subparagraph (14)(E)’s express authority to
account for overhead costs. Dissenting Op. 837. But
our colleague still believes that the Hospitals’ reading
of the statute is unambiguously compelled at Chevron
step one. Id. at 834–35. In her evident view, any superfluity occasioned by that reading is less substantial than the superfluity occasioned by the agency’s
reading. Id. at 838–39. But even assuming there is a
reliable metric for comparing degrees of superfluity
across readings in that fashion, that kind of comparison is not the stuff of a Chevron step one resolution.
Rather, when competing readings of a statute would
each occasion their own notable superfluity, that
manifests the kind of statutory ambiguity that Chevron permits the agency to weigh and resolve. See National Ass’n of Home Builders v. Defenders of Wildlife,
551 U.S. 644, 666, 127 S.Ct. 2518, 168 L.Ed.2d 467
(2007); Peter Pan Bus Lines, Inc. v. Fed. Motor Carrier Safety Admin., 471 F.3d 1350, 1354 (D.C. Cir.
2006) (“[S]ection 13902 contains surplusage under
either reading and, as a result, we cannot say that
either proffered construction reflects the Congress’s
unambiguously expressed intent.”).
The Hospitals separately suggested in oral argument that subclause (II)’s adjustment authority could
pertain to improving the accuracy of the sales-price
metric specifically for hospitals (as opposed to other
providers). ASP reflects sales prices to all manner of
medical providers, including pharmacies, clinics, independent physician practices, and the like. See 42
U.S.C. § 1395w-3a(c). As the Hospitals see it, HHS
can adjust ASP to arrive at a metric that better reflects the prices paid by hospitals alone. But nothing
in subclause (II)’s general adjustment authority sug-

28a
gests that it is so narrowly focused. And in any event,
to the extent HHS might adjust ASP to more accurately reflect prices paid by hospitals, it is unclear
whether there would then remain any appreciable
difference between such a hospital-specific ASP and
hospital acquisition costs. Yet the Hospitals’ whole
point is that HHS cannot rely on its subclause (II)
adjustment authority to approximate acquisition
costs.
Especially in view of the Hospitals’ inability to
present an interpretation of HHS’s subclause (II) adjustment authority that would give it meaningful independent content, we cannot conclude that the statute forecloses HHS from reducing SCOD reimbursement rates for 340B hospitals with the object of
bringing payments into alignment with acquisition
costs. Rather, in the specific circumstances of this
case, HHS permissibly read the statute to allow it to
implement the 340B payment reduction. Although
subclause (I) calls for the “average acquisition cost”
payment metric to “tak[e] into account” subparagraph
(D)’s survey data, here, HHS relied on data of undisputed reliability. Moreover, the agency acted on that
data in a cautious way, adopting a “conservative,
lowerbound estimate” of the 340B discount’s size. 82
Fed. Reg. at 52,504 (quotation marks omitted). In
those circumstances, HHS reasonably concluded that
it need not continue subsidizing 340B providers with
Part B (i.e. taxpayer) funds and Medicare beneficiaries’ copayments. We of course do not consider the
wisdom of that decision as a policy matter in the first
instance, but only whether the agency had statutory
authority to reach it. See Chevron, 467 U.S. at 845,
104 S.Ct. 2778. We conclude that the agency’s decision rests on a permissible understanding of its statutory authority.

29a
Shifting tack, the Hospitals contend that even if
HHS can seek to approximate acquisition costs in exercising its subclause (II) adjustment authority,
HHS’s 28.5% rate cut is simply too large and sweeping to qualify as an “adjustment.” That argument
falls short under a straightforward application of
Chevron. The statutory term “adjust” is ambiguous as
to size. The Hospitals offer various definitions of “adjust” that include qualifiers such as “slightly,” e.g.,
Adjust, Oxford Dictionaries, https://www.lexico.com/
definition/adjust (“alter or move (something) slightly
in order to achieve the desired fit, appearance, or result”), but HHS responds with many definitions that
lack such qualifiers, e.g., Adjust, Merriam-Webster,
https://www.merriam-webster.com/dictionary/adjust
(“to bring to a more satisfactory state”).
The Hospitals point to our decision in Amgen,
which considered an “adjustment” under HHS’s subparagraph (2)(E) authority to make equitable adjustments. In the course of upholding the challenged
adjustment, we observed that “similar limits inhere
in the term ‘adjustments’ to those the Supreme Court
found in the word ‘modify’” in MCI Telecomms. Corp
v. Am. Tel. & Tel. Co., 512 U.S. 218, 225, 114 S.Ct.
2223, 129 L.Ed.2d 182 (1994). Amgen, 357 F.3d at
117. And the MCI Court stated that “modify” means
“to change moderately or in minor fashion.” MCI, 512
U.S. at 225, 114 S.Ct. 2223. But we do not read
Amgen to prescribe that “adjust” in the OPPS statute
refers only to minor changes. To the contrary, Amgen
explained that it “ha[d] no occasion to engage in line
drawing to determine when ‘adjustments’ cease being
‘adjustments.’” 357 F.3d at 117. Even if there are
limits to what HHS could permissibly consider an
“adjustment,” that line has not been crossed here,

30a
where the agency acted on a conservative estimate
drawn from data of undisputed reliability.
The Hospitals’ last argument is that HHS’s subclause (II) adjustment authority does not allow adjusting reimbursement rates for 340B hospitals
alone. According to the Hospitals, the reimbursement
rate set under subclause (II) must be uniform across
all hospitals. The Hospitals rely on subclause (I)’s
statement that payment rates set under that provision must equal “the average acquisition cost for the
drug for that year (which, at the option of the Secretary, may vary by hospital group (as defined by the
Secretary based on volume of covered OPD services or
other relevant characteristics)).” 42 U.S.C. §
1395l(t)(14)(A)(iii)(I) (emphasis added). The Hospitals
stress that subclause (II), by comparison, says nothing about authority to vary the average price metric
by hospital group. That silence, to the Hospitals,
means that when HHS sets SCOD reimbursement
rates under subclause (II), it must apply the same
rate to every recipient hospital.
Congress, however, was not silent about HHS’s
adjustment power in subclause (II). Whereas subclause (I) does not grant HHS any general authority
to adjust reimbursement rates, subclause (II) affirmatively grants HHS general adjustment authority for
deployment “as necessary for purposes of” paragraph
(14). And as explained, HHS reasonably believes that
a central purpose of paragraph (14) is to accurately
reimburse hospitals for their acquisition costs. There
is no reason to think that HHS’s general adjustment
authority when acting under subclause (II) excludes
the more focused license to vary rates by hospital
group when acting under subclause (I). In particular,
the Hospitals provide no reason why, if HHS knows
that a certain group of hospitals has far lower (or far

31a
higher) costs than others, Congress would want to
preclude HHS from acting on that information in a
suitably tailored fashion when exercising its adjustment authority under subclause (II). At a minimum,
the statute does not clearly preclude HHS from adjusting the SCOD rate in a focused manner to address problems with reimbursement rates applicable
only to certain types of hospitals. That is enough to
reject the Hospitals’ argument under Chevron.
*****
For the foregoing reasons, we reverse the judgment
of the district court.
So ordered.
PILLARD, Circuit Judge, dissenting in part:
I agree with my colleagues that the Medicare
Outpatient Prospective Payment System (OPPS)
statute does not preclude judicial review of HHS’s
28.5% reduction in reimbursement rates to 340B hospitals that administer Specified Covered Outpatient
Drugs (SCODs). On the merits, however, I disagree
that subclause (II) authorized HHS to implement for
340B hospitals alone the challenged rate reductions
in its 2018 and 2019 OPPS rules.
The statute sets forth two alternative bases for
HHS’s calculation of the relevant reimbursement
rates: It may set those rates under subclause (I)
based on average acquisition cost (reflecting the average cost that hospitals actually incurred in purchasing the drug), or under subclause (II) based on
average sales price (reflecting the average price, updated quarterly, at which manufacturers sold the
drug to most purchasers, not limited to hospitals). See
42 U.S.C. § 1395l(t)(14)(A)(iii)(I)-(II). When the two

32a
subclauses at issue here are read together, the conclusion is unavoidable that HHS may institute its
large reductions, tailored for a distinct hospital
group, only under subclause (I), which requires the
agency to take into account specific data undisputedly absent here.
The majority concludes that HHS may act on other
data (not meeting Congress’ specifications) to make
those reductions pursuant to subclause (II). That
reading impermissibly nullifies subclause (I) and the
data requirements spelled out at length in subparagraph (D). See id. § 1395l(t)(14)(D). I would therefore
hold that the agency’s interpretation of subclause (II)
is foreclosed at Chevron step one. Because HHS’s actions cannot be squared with the text of the OPPS
statute, I respectfully dissent from part III of the
majority opinion.
***
Reproduced in full, subclauses (I) and (II) provide
that, for every year after 2005, the reimbursement
rate “shall be equal, subject to subparagraph (E)”—
(I) to the average acquisition cost for the drug
for that year (which, at the option of the Secretary, may vary by hospital group (as defined
by the Secretary based on the volume of covered [outpatient department] services or other
relevant characteristics)), as determined by
the Secretary taking into account the hospital
acquisition cost survey data under subparagraph (D); or
(II) if hospital acquisition cost data are not
available, the average price for the drug in the
year established under section 1395u(o) of this
title, section 1395w-3a of this title, or section
1395w-3b of this title, as the case may be, as

33a
calculated and adjusted by the Secretary as
necessary for purposes of this paragraph.
42 U.S.C. § 1395l(t)(14)(A)(iii). Subparagraph (E) in
turn authorizes the Secretary to make “adjustment[s]
in payment rates for overhead costs,” for instance to
account for “pharmacy services and handling costs,”
based on the findings of a 2005 Medicare Payment
Advisory Commission (MedPAC) report. Id. §
1395l(t)(14)(E).
The two subclauses together provide that, if HHS
sets reimbursements rates based on hospitals’ actual
average acquisition costs, HHS must consider congressionally specified acquisition-cost data. See id. §
1395l(t)(14)(D). And—crucial for the challenged differential reimbursement rate for 340B hospitals—HHS may only segment reimbursement rates
by hospital group if it has collected the specified data
and set the rates keyed to hospital acquisition costs
in view of that data.
The two subclauses operate as alternatives: Subclause (I) lays out what the agency may do when it
has collected and taken into account the “hospital
acquisition cost survey data under subparagraph
(D),” whereas subclause (II) lays out what the agency
may do “if the hospital acquisition cost data are not
available.” Id. § 1395l(t)(14)(A)(iii). If the agency has
that data, it may set reimbursement rates based on
the “average acquisition cost for the drug for that
year,” and “vary by hospital group” any reimbursement rates. Id. § 1395l(t)(14)(A)(iii)(I). But “if hospital acquisition cost data are not available,” id. §
1395l(t)(14)(A)(iii)(II), the agency must set reimbursement amounts under subclause (II) by resort to
what it has previously called the “statutory default”
rate for a given drug in a given year, see, e.g., 2013
OPPS Rule,

34a
2012). That statutory default rate is the drug’s average sales price charged to hospitals, clinics, pharmacies, and other providers, drawn from data that drug
manufacturers submit to HHS every quarter. See id.
§§ 1395w-3a(c), 1396r-8(b)(3)(A)(iii). Subclause (II)
provides for the average sales price to be “adjusted ...
as necessary for purposes of this paragraph” but, unlike subclause (I), grants no authority to vary the
reimbursement rates by hospital group. Id. §
1395l(t)(14)(A)(iii)(II).
As everyone agrees, HHS has never collected the
“hospital acquisition cost data” that the statute contemplates, so must proceed under its subclause (II)
authority to set reimbursement rates for the 2018
and 2019 OPPS rules. See, e.g., HHS Br. 9; 2018 Proposed OPPS Rule, 82 Fed. Reg. 33,558, 33,634 (proposed July 20, 2017). The question before us is
whether the agency may set and vary by hospital
group SCOD reimbursement rates in the manner
that subclause (I) authorizes, without collecting and
considering the data that subclause (I) specifies, by
invoking its authority under subclause (II) to adjust
the average-sales-price-based reimbursement rate
and, in effect, simply deem that to be a rate reflecting
hospitals’ average acquisition cost. The majority concludes that the agency’s circumvention of subclause
(I) in this manner is a permissible construction of the
statute for several reasons, none of which I find persuasive.
First, the majority argues, based primarily on the
text of subclause (I) and other provisions in the OPPS
statute, that Congress’ “primary goal is to reimburse
providers for their acquisition costs.” Maj. Op. at 830.
But the statute’s overarching goal is not its only goal,
to be achieved however the agency sees fit. When it
comes to Medicare Part B payments for SCODs, par-

35a
agraph (14) specifically tells us when and how Congress intended HHS to pursue acquisition-cost-based
reimbursement. Only subclause (I), not subclause (II),
authorizes HHS to set different reimbursement rates
for distinct hospital groups—rather than a uniform,
drug-by-drug “average price for the drug in the year,”
42 U.S.C. § 1395l(t)(14)(A)(iii)(II)—and to do so only
by taking into account the different acquisition costs
identified in the robust, hospital-specific data that
Congress required the agency to collect.
The majority finds it inconceivable that Congress
would require the same sales-price-based reimbursement rate for all types of hospitals when hospitals’ acquisition costs vary widely. See, e.g., Maj. Op.
at 831. But in authorizing the average-sales-price
methodology, which takes account of most discounts
and rebates that purchasers receive, Congress was
attuned to the many factors rendering non-uniform
the amounts different hospitals actually pay for the
same drugs. Given Congress’ awareness that various
hospitals—not only 340B hospitals—pay more or less
than others, I see nothing inconceivable about Congress requiring disparities in reimbursement rates to
certain types of hospitals to be identified and acted
upon based only on the most complete and accurate
data.
If Congress wanted HHS, in the absence of subclause (I)’s hospital-specific data regarding average
acquisition costs, just to do its best to approximate
those costs and then vary them by hospital groups
according to its unchecked policy judgment, it easily
could have written the statute to say so. Instead,
subclause (II) mandates that the base reimbursement
rate “shall be equal” to the specified drug’s statutory
default rate premised on average sales price, subject
to adjustments, and entirely omits the authority

36a
granted in subclause (I) to “vary by hospital group”
the pricing data or resultant rate. 42 U.S.C. §
1395l(t)(14)(A)(iii). I cannot discern in the statute any
congressional intention that the adjustment authority be used to set markedly different prices for different hospital groups. I would instead affirm the district court’s conclusion that HHS “cannot fundamentally rework the statutory scheme—by applying a
different methodology than the provision requires—to
achieve under sub[clause] (II) what [it] could not do
under sub[clause] (I) for lack of adequate data.” Am.
Hosp. Ass’n v. Azar, 348 F. Supp. 3d 62, 82 (D.D.C.
2018).
Second, the majority reasons that this data-sensitive reading of the two subclauses cannot be
correct because it “renders subclause (II)’s adjustment authority superfluous.” Maj. Op. at 831. But the
Hospitals’ reading of the subclause (II) adjustment
authority as primarily cross-referencing incremental
modifications like the overhead-cost adjustment described in subparagraph (E) does not make the former altogether redundant. As the Hospitals explain,
subparagraph (E) authorized adjustments for overhead with reference to a one-time, 2005 MedPAC report, whereas subclause (II)’s authority to make “adjust[ments] ... as necessary for purposes of this paragraph,” 42 U.S.C. § 1395l(t)(14)(A)(iii)(II), encompasses “adjustments” for overhead in the same manner on an ongoing basis. See Hospitals Br. 5-6, 49.
In any event, reading section 1395l(t)(14) to contain overlapping references to a limited adjustment
authority—making “double sure” the point is
made—does not create the kind of superfluity that
renders a statute ambiguous. Mercy Hosp., Inc. v.
Azar, 891 F.3d 1062, 1068 (D.C. Cir. 2018) (quoting
Fla. Health Scis. Ctr., Inc. v. HHS, 830 F.3d 515, 520

37a
(D.C. Cir. 2016)). As we have recognized with respect
to the Medicare statute, a “little overlap, either by
accident or design, is to be expected in any complex
statutory scheme with interdependent provisions”
and does not alone create ambiguity. Id. The fact that
average price data lumps together pharmaceutical
sales to hospitals from sales to non-hospital providers
seems to explain Congress’ clear decision to omit from
subclause (II) the authority in subclause (I) to vary
reimbursement by hospital group. Without subclause
(I)’s hospital-specific cost data, billion-dollar decisions
differentiating among particular hospital groups
could rest on significantly less exact information.
Moreover, to the extent that past agency practice
bears on the question of statutory construction before
us, it only confirms the Hospitals’ reading that the
agency’s subclause (II) adjustment authority references overhead adjustments like those contemplated
by subparagraph (E). As the agency described at
length in 2012, during the preceding six years HHS
had made no adjustments to its estimate of average
sales prices other than occasional small tweaks to
account for overhead costs (and, in any case, purported to rely only on its subclause (I) authority). See
2013 OPPS Rule, 77 Fed. Reg. at 68,383-86 (explaining the agency’s methodology year by year over this
period); see also 2016 OPPS Rule, 80 Fed. Reg.
70,298, 70,439 (Nov. 13, 2015) (providing a similar
summary of the agency’s past methodology); Hospitals Br. 49 (“[W]hen HHS previously made adjustments to the ASP-plus-6% rate, it explained at the
time that it was doing so to account for estimates of
overhead.”). Indeed, the focus of the agency in those
years was on collecting more accurate overhead-cost
data to better tailor its adjustments. See, e.g., 2013
OPPS Rule,

38a
years before the two challenged rules at issue, the
agency simply adopted the statutory default rate of
106% of the average sales price under subclause (II)
without making any adjustments at all. See 2018
OPPS Rule, 82 Fed. Reg. 52,362, 52,490 (Nov. 13,
2017).
In sum, at no point in any of the materials that the
majority cites—and at no point of which I am
aware—has HHS ever previously used its subclause
(II) adjustment authority to make adjustments that
are not modest changes to account for overhead. HHS
itself has not claimed otherwise in its briefing before
us. And HHS certainly has never used that adjustment authority to implement variations by hospital
group. See, e.g., HHS Br. 13 (“The final rule for 2018
established a new subclassification for drugs purchased by 340B providers....” (emphasis added)).
The Hospitals’ limited reading of the adjustment
authority that subclause (II) confers is supported by
our previous caution that the term “adjustment” in
this statute—like the term “modify” at issue in MCI
Telecommunications Corp. v. AT&T Co., 512 U.S.
218, 225, 114 S.Ct. 2223, 129 L.Ed.2d 182 (1994),
which the Court held “means to change moderately or
in minor fashion”—cannot permit “basic and fundamental changes in the scheme.” Amgen, Inc. v. Smith,
357 F.3d 103, 117 (D.C. Cir. 2004) (quoting MCI, 512
U.S. at 225, 114 S.Ct. 2223). The majority distinguishes Amgen by quoting our observation there that
we had “no occasion to engage in line drawing to determine when ‘adjustments’ cease being ‘adjustments.’” Id. But that observation made eminent sense
in a dispute “involving only the payment amount for
a single drug,” and we went on to warn that a “more
substantial departure from the default amounts
would, at some point, violate the Secretary’s obliga-

39a
tion to make such payments and cease to be an ‘adjustment.’” Id. (alteration omitted). Given the scale
and segmentation of the rate cut at issue—reducing
SCOD reimbursements by nearly a third, thereby
eliminating $1.6 billion annually in reimbursements
to many of the most financially vulnerable hospitals
in the Medicare program—I disagree that, “[e]ven if
there are limits to what HHS could permissibly consider an ‘adjustment,’ that line has not been crossed
here.” Maj. Op. at 834.
Not only is the majority wrong to reject the Hospitals’ reading as creating unexplained surplusage, see
Maj. Op. at 831–33, but the superfluity concerns cut
decisively the other way. As discussed above, the majority essentially reads subclause (I) out of the statute
by permitting the agency to do under subclause (II)
without the requisite data what subclause (I) authorizes only with that data. The majority also renders
superfluous the entirety of subparagraph (D). See 42
U.S.C. § 1395l(t)(14)(D). That subparagraph, occupying nearly a full column in the U.S. Code, specifies in
detail how the “[a]cquisition cost survey for hospital
outpatient drugs” is to be conducted, first by the
Government Accountability Office (GAO) and later by
HHS, after that agency has “tak[en] into account” the
Comptroller General’s “recommendations” as to the
“frequency and methodology of subsequent surveys.”
Id. § 1395l(t)(14)(D)(i)-(ii). Subparagraph (D) further
includes a provision dealing with “survey requirements,” mandating that the GAO and HHS surveys
“shall have a large sample of hospitals that is sufficient to generate a statistically significant estimate of
the average hospital acquisition cost for each specified
covered
outpatient
drug.”
Id.
§
1395l(t)(14)(D)(iii). And a later clause details how
acquisition-cost variations by hospital group are to be

40a
identified in GAO’s initial surveys if they are to justify reimbursement-rate variations, noting that the
Comptroller General “shall determine and report to
Congress if there is (and the extent of any) variation
in hospital acquisition costs for drugs among hospitals based on the volume of covered [outpatient department] services performed by such hospitals or
other relevant characteristics of such hospitals (as
defined by the Comptroller General).” Id. §
1395l(t)(14)(D)(iv).
The majority’s reading drains each of these provisions of meaning. It allows the agency simply to purport to approximate hospital acquisition costs, and to
claim authority to vary reimbursement rates by hospital group, based on adjusted average price data
that HHS recasts as acquisition cost data, but that
lacks the characteristics and process of collection that
Congress specified in subclause (I). The Hospitals’
reading does give distinct meaning to subclause (II)’s
allowance for adjustment; it is the majority’s reading
that occasions significant superfluity without regard
to Congress’ structural decision to make subclauses
(I) and (II) distinct alternatives.
Finally, the majority repeatedly justifies its reading by reference to the policy benefits of the agency’s
rate reductions and the reasonableness of the agency’s alternative data and resulting estimates. See,
e.g., Maj. Op. at 828, 829, 830, 831, 832–33. The majority views it as relevant “backdrop,” for example,
that one result of the agency’s proposed cuts will be to
lower copayments for Medicare beneficiaries served
by 340B hospitals, and to avoid the prospect of any
beneficiary possibly paying more in a copayment than
the hospital paid to buy the prescribed drugs. Id. at
829; but see HHS Off. of Inspector Gen.,
OEI-12-14-00030,
Part
B
Payments
for

41a
340B-Purchased Drugs 9 n.26 (Nov. 2015) (OIG Report) (noting that 340B hospitals “may waive all or
part of the beneficiary’s coinsurance”). And the majority notes HHS’s worries that 340B hospitals might
overprescribe drugs that bring reimbursement revenue. See Maj. Op. at 822–23; but see U.S. Gov’t Accountability Off., GAO-15-442, Medicare Part B
Drugs: Action Needed to Reduce Financial Incentives
to Prescribe 340B Drugs at Participating Hospitals
31 (June 2015) (noting HHS’s view that “higher
spending for Part B drugs at 340B hospitals” might
“lead to better clinical outcomes” for patients served
by those safety-net hospitals, who often are in
“meaningful[ly]” poorer health than other patients).
The majority also expresses confidence that the
agency examined “data of undisputed reliability,”
Maj. Op. at 833, “acted on that data in a cautious
way,” id., and implemented a “fair, or even conservative, measure of the reduction needed to bring payments to those hospitals in parity with their costs to
obtain the drugs,” id. at 829. “In those circumstances,” the majority declares, “HHS reasonably concluded that it need not continue subsidizing 340B providers with Part B (i.e. taxpayer) funds and Medicare
beneficiaries’ copayments.” Id. at 833.
Those circumstances would perhaps be relevant
were this a challenge to the agency’s rules as arbitrary and capricious. But concerns about the program’s effects, and confidence in the agency’s care in
using data other than those the statute requires,
cannot somehow authorize the agency to do what the
statute does not. As the Supreme Court has held, an
“agency has no power to ‘tailor’ legislation to bureaucratic policy goals by rewriting unambiguous statutory terms.” Util. Air Regulatory Grp. v. EPA, 573
U.S. 302, 325, 134 S.Ct. 2427, 189 L.Ed.2d 372

42a
(2014). And, unmoored from the statute’s express data-quality requirements, the asserted reliability of
the quite different data HHS gathered here provides
no assurance for its next rulemaking. Whether HHS’s
actions might have perceptible policy advantages
does not affect whether the statute authorizes what
the agency has done.
It bears noting that, even were they relevant, the
claimed policy benefits of the agency’s new rate reductions are far from clear. The Section 340B drug
discount program, enacted in 1992 as part of the
Public Health Service Act, see 42 U.S.C. § 256b, permits 340B hospitals to “generate revenue” through
“insurance reimbursement[ ] that may exceed the
340B price paid for the drugs.” U.S. Gov’t Accountability Off., GAO-11-836, Manufacturer Discounts in
the 340B Program Offer Benefits, But Federal Oversight Needs Improvement 2 (2011) (GAO Report). As
HHS itself has recognized, Congress anticipated that
such above-cost reimbursement revenue would help
to fund the public and nonprofit safety-net hospitals
that qualify for 340B pricing: “Under the design of
the 340B Program and Part B payment rules, the
difference between what Medicare pays and what it
costs to acquire the drugs is fully retained by the participating covered entities, allowing them to stretch
scarce Federal dollars in service to their communities.” OIG Report i (Executive Summary); see also
HHS Off. of Inspector Gen. Memorandum Report:
Payment for Drugs Under the Hospital Outpatient
Prospective Payment System 8 (Oct. 22, 2010) (describing above-cost SCOD reimbursements to 340B
hospitals as “an expected result given the purpose of
the 340B Program”).
The challenged rules took a major bite out of 340B
hospitals’ funding. Often operating at substantial

43a
losses, 340B hospitals rely on the revenue that Medicare Part B provides in the form of standard
drug-reimbursement payments that exceed those
hospitals’ acquisition costs. 340B hospitals “have
used the additional resources to provide critical
healthcare services to communities with underserved
populations that could not otherwise afford these services.” Hospitals Br. 9 (citing GAO Report at 17-18);
see also Cares Cmty. Health v. HHS, 944 F.3d 950,
955 (D.C. Cir. 2019). Although stakeholders have debated “whether statutory changes should be made to
enable Medicare and/or Medicaid to share in these
savings,” OIG Report 2, Congress has not made any
such change. And, as written, subparagraph (E) does
not empower the Secretary to “adjust” away from
340B hospitals substantial annual revenue they garner under the separate, unchallenged 340B statute to
provide care to underserved communities.
The net effect of HHS’s 2018 and 2019 OPPS rules
is to redistribute funds from financially strapped,
public and nonprofit safety-net hospitals serving
vulnerable populations—including patients without
any insurance at all—to facilities and individuals
who are relatively better off. If that is a result that
Congress intended to authorize, it remains free to say
so. But because the statute as it is written does not
permit the challenged rate reductions, I respectfully
dissent.

44a
APPENDIX B
No. 18-CV-2084
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
THE AMERICAN HOSPITAL ASSOCIATION, et
al., Plaintiffs,
v.
ALEX M. AZAR II, United States Secretary of
Health and Human Services, et al., Defendants.
[Filed] December 27, 2018
MEMORANDUM OPINION
DENYING DEFENDANTS’ MOTION TO DISMISS;
GRANTING PLAINTIFFS’ MOTION FOR A PERMANENT
INJUNCTION; DENYING AS MOOT PLAINTIFFS’ MOTION FOR A PRELIMINARY INJUNCTION
RUDOLPH CONTRERAS, United States District
Judge
I. INTRODUCTION
This action concerns whether the Department of
Health and Human Services (“HHS”) acted lawfully
when it reduced Medicare payments worth billions of
dollars to private institutions, to correct what it views
as a fundamental misalignment of Medicare programs. Plaintiffs, a group of hospital associations and
non-profit hospitals, 1 contend that HHS exceeded its
The hospital association Plaintiffs (“Association Plaintiffs”)
are the American Hospital Association (“AHA”), the Association
of American Medical Colleges (“AAMC”), and America’s Essential Hospitals (“AEH”). Compl. ¶¶ 4–9. The non-profit hospital
Plaintiffs (“Hospital Plaintiffs”) are the Henry Ford Health System (“Henry Ford”), Northern Light Health (“Northern
Light”)—formerly Eastern Maine Healthcare Systems—and
1

45a
statutory authority when it cut Medicare reimbursement rates for certain outpatient pharmaceutical
drugs by nearly 30%. Defendants, HHS and its Secretary, contend that the rate adjustment was statutorily authorized and necessary to close the gap between the discounted rates at which Plaintiffs obtain
the drugs at issue—through Medicare’s “340B Program”—and the higher rates at which Plaintiffs were
previously reimbursed for those drugs under a different Medicare framework.
Presently before this Court are Plaintiffs’ motion
for a preliminary or permanent injunction and Defendants’ motion to dismiss. Among other relief,
Plaintiffs ask the Court to vacate the Secretary’s rate
reduction, require the Secretary to apply previous
reimbursement rates for the remainder of this year,
and require the Secretary to pay Plaintiffs the difference between the reimbursements they have received this year under the new rates and the reimbursements they would have received under the previous rates. Defendants contest the Court’s ability to
hear the case, arguing that Congress has shielded the
Secretary’s action from judicial review, that the Secretary’s boundless discretion precludes review, and
that Plaintiffs’ failure to exhaust their administrative
remedies is fatal. Defendants also argue that the
Secretary’s action was well within his statutory authority.
For the reasons stated below, the Court concludes
that it has jurisdiction to provide relief in this case
and that Plaintiffs are entitled to such relief. While in
Fletcher Hospital, Inc., doing business as Park Ridge Health
(“Park Ridge”). Compl. ¶¶ 10–18; Notice of Party Name Change
at 1, ECF No. 21 (stating that Eastern Maine Healthcare Systems has changed its name to Northern Light Health).

46a
certain circumstances the Secretary could implement
the rate reduction at issue here, he did not have statutory authority to do so under the circumstances
presented. Moreover, because the parties have fully
and vigorously debated the merits of Plaintiffs’
claims, which turn on questions of law, not fact, the
Court concludes that further merits briefing would be
redundant and inefficient. However, while Plaintiffs
are entitled to some relief, the potentially drastic impact of this Court’s decision on Medicare’s complex
administration gives the Court pause. Accordingly,
the Court grants Plaintiffs’ motion for a permanent
injunction and orders supplemental briefing on the
question of a proper remedy.
II. BACKGROUND AND PROCEDURAL
HISTORY
A. Medicare
Medicare is a federal health insurance program for
the elderly and disabled, established by Title XVIII of
the Social Security Act. See 42 U.S.C. §§
1395–1395lll. Medicare Part A provides insurance
coverage for inpatient hospital care, home health
care, and hospice services. Id. § 1395c. Medicare Part
B provides supplemental coverage for other types of
care, including outpatient hospital care. Id. §§ 1395j,
1395k. HHS’s Outpatient Prospective Payment System (“OPPS”), which directly reimburses hospitals for
providing outpatient services and pharmaceutical
drugs to Medicare beneficiaries, is a component of
Medicare Part B. See id. at 1395l(t). OPPS requires
“payments for outpatient hospital care to be made
based on predetermined rates.” Amgen, Inc. v. Smith,
357 F.3d 103, 106 (D.C. Cir. 2004). Under this system, HHS—through the Centers for Medicare and
Medicaid Services (“CMS”)—sets annual OPPS reimbursement rates prospectively, before a given year,

47a
rather than retroactively based on covered hospitals’
actual costs during that year. 2
B. The 340B Program
In 1992, Congress established what is now commonly referred to as the “340B Program.” Veterans
Health Care Act of 1992, Pub L. No. 102-585, § 602,
106 Stat. 4943, 4967–71. The 340B Program allows
participating hospitals and other health care providers (“covered entities”) to purchase certain “covered
outpatient drugs” from manufacturers at or below the
drugs’ “maximum” or “ceiling” prices, which are dictated by a statutory formula and are typically significantly discounted from those drugs’ average manufacturer prices. See 42 U.S.C. § 256b(a)(1)–(2). 3 Put
more simply, this Program “imposes ceilings on prices
drug manufacturers may charge for medications sold
to specified health care facilities.” Astra USA, Inc. v.
Santa Clara Cty., 563 U.S. 110, 113, 131 S.Ct. 1342,
179 L.Ed.2d 457 (2011). It is intended to enable covered entities “to stretch scarce Federal resources as
far as possible, reaching more eligible patients and
providing more comprehensive services.” H.R. Rep.
No. 102-384(II), at 12 (1992); see also Medicare Program: Hospital Outpatient Prospective Payment System and Ambulatory Surgical Center Payment Systems and Quality Reporting Programs (“2018 OPPS
Rule”), 82 Fed. Reg. 52,356, 52,493 & 52,493 n.18
(Nov. 13, 2017) (codified at 42 C.F.R. pt. 419). 4 ImCMS is a component of HHS and is overseen by the Secretary.
See HHS Organizational Chart, HHS (Nov. 14, 2018),
https://www.hhs.gov/about/agencies/orgchart/index.html.
2

The manufacturers must offer these discounts as a condition
of their participation in the Medicaid program. Id. § 256b(a)(3).
3

While the regulations setting 340B drug reimbursement rates,
including the 2018 OPPS Rule, are technically issued by CMS,
4

48a
portantly, and as discussed in greater detail below,
the 340B Program allows covered entities to purchase
certain drugs at steeply discounted rates, and then
seek reimbursement for those purchases under Medicare Part B at the rates established by OPPS.
C. Medicare Reimbursement
Rates for 340B Drugs
The statutory provision governing OPPS, codified
at 42 U.S.C. § 1395l(t), imposes the framework by
which HHS must set prospective Medicare reimbursement rates. Among other requirements under
that provision, HHS must determine how much it will
pay for “specified covered outpatient drugs”
(“SCODs”) provided by hospitals to Medicare beneficiaries. 42 U.S.C. § 1395l(t)(14)(A). SCODS are a
subset of “separately payable drugs,” which are not
bundled with other Medicare Part B outpatient services and are therefore reimbursed on a drug-by-drug
basis. See id. § 1395l(t)(14)(B). And as noted, the
340B Program covers certain separately payable
drugs, some of which are SCODs and some of which
are not. 82 Fed. Reg. at 52,496; Defs.’ Mot. to Dismiss
(“Defs.’ Mot.”) at 5, ECF No. 14.
Congress has authorized two potential methodologies for setting SCOD rates. 5 First, if HHS has cersee 82 Fed. Reg. at 52,356, for simplicity’s sake the Court will
refer to them as HHS regulations.
While not all separately payable drugs qualify as SCODs, to
which the payment methodologies of § 1395l(t)(14)(A) apply,
“[HHS] applies these statutory payment methodologies to all
separately payable drugs, even those that are not SCODS.”
Defs.’ Mot. at 6 n.1 (citing 77 Fed. Reg. at 68,383); see also 82
Fed. Reg. at 52,509 (stating that the rate reduction will apply to
“separately payable Part B drugs ... that are acquired through
the 340B Program”). Thus, the methodology at issue here applies to all 340B drugs, not just SCODS covered by the 340B
5

49a
tain “hospital acquisition cost survey data,” it must
set the reimbursement rate for each SCOD according
to “the average acquisition cost for the drug for that
year ... as determined by the Secretary taking into
account”
the
survey
data.
42
U.S.C.
§
1395l(t)(14)(A)(iii)(I) (emphasis added). Second, if the
survey data is not available, each SCOD’s reimbursement rate must be set equal to “the average
price for the drug in the year established under ...
section 1395w-3a ... as calculated and adjusted by the
Secretary as necessary for purposes of this paragraph.” Id. § 1395l(t)(14)(A)(iii)(II) (emphasis added).
Section 1395w-3a, in turn, provides that a given
drug’s default reimbursement rate is the average
sales price (“ASP”) of the drug plus 6%. 6 Id. §
1395w-3a(b)(1)(A)–(B); see also Medicare and Medicaid Programs: Hospital Outpatient Prospective
Payment and Ambulatory Surgical Center Payment
Systems and Quality Reporting Programs (“2012
OPPS Rule”), 77 Fed. Reg. 68,210, 68,387 (Nov. 15,
2012) (codified at 42 C.F.R. pt. 419) (adopting a reimbursement rate of ASP plus 6% for covered drugs
in light of the “continuing uncertainty about the full
Program. This “is a policy choice rather than a statutory requirement.” Defs.’ Mot. at 6 n.1 (quoting 77 Fed. Reg. at 68,383).
Because neither party raises the question of whether the Secretary’s statutory authority to alter reimbursement rates for
SCODs also governs the Secretary’s “policy choice” to apply the
same rates to non-SCOD, separately payable drugs, the Court
will not address that question here.
Both parties seem to agree that § 1395w-3a sets a default
payment rate of 106% of a given drug’s volume-weighted average sales price, and that this rate is the presumptive reimbursement rate under § 1395l(t)(14)(A)(iii)(II). See Defs.’ Mot. at
6; Pls.’ Mem. Supp. Mot. Prelim. & Permanent Inj. (“Pls.’ Mem.”)
at 3–4, ECF No. 2-1; 82 Fed. Reg. at 52,501 (acknowledging ASP
plus 6% as the “statutory benchmark”).
6

50a
cost of pharmacy overhead and acquisition cost” and
the concern that deviating from the default rate “may
not appropriately account for average acquisition and
pharmacy overhead cost ....”).
D. The 340B-Medicare Payment Gap
As explained above, hospitals participating in the
340B Program purchase 340B drugs at steeply discounted rates, and when those hospitals prescribe the
340B drugs to Medicare beneficiaries they are reimbursed by HHS at OPPS rates. Before 2018, the relevant OPPS rate for 340B drugs was ASP plus 6%.
See, e.g., 77 Fed. Reg. at 68,387. This rate resulted in
a significant gap between what hospitals paid for
340B drugs and what they received in Medicare reimbursements for those drugs, because the 340B
Program allowed participating hospitals to buy the
drugs at a far lower rate than ASP plus 6%. See 82
Fed. Reg. at 52,495 (citing an Office of Inspector
General report finding that this margin “allowed
covered entities to retain approximately $1.3 billion
in 2013”). Plaintiffs allege that the revenues derived
from this payment gap have “helped [Plaintiffs] provide critical services to their communities, including
underserved populations in those communities.” Pls.’
Mem. Supp. Mot. Prelim. & Permanent Inj. (“Pls.’
Mem.”) at 31 (citing Aff. of Tony Filer (“Northern
Light Aff.”) ¶ 13, Pls.’ Mot. Prelim. & Permanent Inj.
(“Pls.’ Mot.”) Ex. V, ECF No. 2-25; Aff. of Robin Damschroder (“Henry Ford Aff.”) ¶¶ 15–18, Pls.’ Mot. Ex.
W, ECF No. 2-26; Aff. of Wendi Barber (“Park Ridge
Aff.”) ¶¶ 15–17, Pls.’ Mot. Ex. X, ECF No. 2-27), ECF
No. 2-1. They further allege that the narrowing of
this gap “threatens these critical services” because
Plaintiffs may be unable to fund the services with
lower reimbursement amounts. Id. (citing Northern
Light Aff. ¶¶ 14–19; Henry Ford Aff. ¶¶ 19–20; Park

51a
Ridge Aff. ¶¶ 18–19).
E. The 2018 OPPS Rule
In mid-2017, HHS proposed reducing the Medicare
reimbursement rates for SCODs and other separately
payable drugs acquired through the 340B Program
from ASP plus 6% to ASP minus 22.5%. Medicare
Program: Hospital Outpatient Prospective Payment
and Ambulatory Surgical Center Payment Systems
and Quality Reporting Programs, 82 Fed. Reg.
33,558, 33,634 (Jul. 20, 2017) (codified at 42 C.F.R.
pt. 419). HHS provided a detailed explanation of why
it believed this rate reduction was necessary. First,
HHS noted that several recent studies have confirmed the large “profit” margin created by the difference between the price that hospitals pay to acquire 340B drugs and the price at which Medicare
reimburses those drugs. See id. at 33,632–33. Second,
HHS stated that because of this “profit” margin, HHS
was “concerned that the current payment methodology may lead to unnecessary utilization and potential
overutilization of separately payable drugs.” Id. at
33,633. It cited, as an example of this phenomenon, a
2015 Government Accountability Office Report finding that Medicare Part B drug spending was substantially higher at 340B hospitals than at non-340B
hospitals. Id. at 33,632–33. The data indicated that
“on average, beneficiaries at 340B ... hospitals were
either prescribed more drugs or more expensive drugs
than beneficiaries at the other non-340B hospitals in
GAO’s analysis.” Id. at 33,633. Third, HHS expressed
concern “about the rising prices of certain drugs and
that Medicare beneficiaries, including low-income
seniors, are responsible for paying 20 percent of the
Medicare payment rate for these drugs,” rather than
the lower 340B rate paid by the covered hospitals.

52a
Thus, HHS concluded that lowering the Medicare
reimbursement rates for 340B Program drugs would
“make Medicare payment for separately payable
drugs more aligned with the resources expended by
hospitals to acquire such drugs[,] while recognizing
the intent of the 340B program to allow covered entities, including eligible hospitals to stretch scarce resources while continuing to provide access to care.”
Id. HHS, however, did not have the data necessary to
“precisely calculate the price paid by 340B hospitals
for [any] particular covered outpatient drug.” Id. at
33,634. For that reason, HHS estimated 340B hospitals’ drug acquisition costs based on those hospitals’
average 340B discount. See id. Specifically, HHS
proposed applying the average 340B discount estimated by the Medicare Payment Advisory Commission (“MedPAC”)—22.5% of a covered drug’s average
sales price—to govern the 340B drug reimbursement
rates. See id. HHS believed that MedPAC’s estimate
was appropriate and, in fact, conservative because
the “actual average discount experienced by 340B
hospitals is likely much higher than 22.5[%].” Id.
In addition to explaining its rationale and methodology for reducing the 340B reimbursement rates to
ASP minus 22.5%, HHS stated its purported statutory basis for taking that action. Because HHS did not
“have hospital acquisition cost data for 340B drugs,”
82 Fed. Reg. at 33,634, it could not invoke its express
authority under 42 U.S.C. § 1395l(t)(14)(A)(iii)(I) to
set rates according to the drugs’ average acquisition
costs. Instead, HHS invoked its authority under §
1395l(t)(14)(A)(iii)(II), “which states that if hospital
acquisition cost data are not available, the payment
for an applicable drug shall be the average price for
the drug ... as calculated and adjusted by the Secretary as necessary.” 82 Fed. Reg. at 33,634. HHS

53a
would thus “adjust the applicable payment rate as
necessary” for separately payable drugs acquired under the 340B program, “to ASP minus 22.5[%].” Id.
HHS stated that the adjustment was necessary because ASP minus 22.5% “better represents the average acquisition cost for [340B] drugs and biologicals.”
Id.
Plaintiffs strongly opposed the proposed 2018 340B
reimbursement rates, and they voiced their opposition in comments to the proposed rule. Plaintiffs argued primarily that HHS did not have the legal authority to change the 340B reimbursement rates in
the manner proposed, and that reducing reimbursement rates by nearly 30% would severely impact covered entities’ ability to provide critical healthcare
programs to their communities, particularly to their
underserved patients. See generally AHA Comments,
Pls.’ Mot. Ex. C, ECF No. 2-6; AAMC Comments, Pls.’
Mot. Ex. D, ECF No. 2-7; AEH Comments, Pls.’ Mot.
Ex. E, ECF No. 2-8; Henry Ford Comments, Pls.’ Mot.
Ex. F, ECF No. 2-9; Northern Light Comments, Pls.’
Mot. Ex. G, ECF No. 2-9.
Nevertheless, in November 2017, HHS adopted the
proposed 340B reimbursement rate reduction. See 82
Fed. Reg. at 52,362. In issuing its final rule, HHS responded to Plaintiffs’ arguments about its authority
to change Medicare reimbursement rates for 340B
drugs. See id. at 52,499. HHS argued that the Secretary’s authority under § 1395l(t)(14)(A)(iii)(II) to
“calculate and adjust” drug payments “as necessary
for purposes of this paragraph” gave the Secretary
broad discretion, including discretion to adjust Medicare payment rates according to whether or not certain drugs were acquired at a significant discount. Id.
HHS also disagreed with commenters that the authority to “calculate and adjust” drug rates as neces-

54a
sary was limited to “minor changes”; it saw “no evidence in the statute to support that position.” Id. at
52,500. Accordingly, HHS used its purported authority “to apply a downward adjustment that is necessary to better reflect acquisition costs of [340B]
drugs.” Id. The 340B reimbursement rates dictated
by this rule, and its ASP minus 22.5% methodology,
became effective on January 1, 2018. Id. at 52,356.
F. Procedural History
In late 2017, Plaintiffs raised an Administrative
Procedure Act (“APA”) challenge to the 2018 OPPS
Rule’s 340B provisions. See generally Compl., Am.
Hosp. Ass’n v. Hargan (“AHA I”), No. 17-2447, ECF
No. 1 (D.D.C.). However, this Court dismissed the action because Plaintiffs failed “to present any concrete
claim for reimbursement to the Secretary for a final
decision[,]” which is “a fundamental jurisdictional
impediment to judicial review under 42 U.S.C. §
405(g).” AHA I v. Hargan, 289 F.Supp.3d 45, 55
(D.D.C. 2017). 7 Both parties agree that Plaintiffs
have now presented reimbursement claims covered
by the 2018 OPPS Rule, Defs.’ Mot. at 15 n.6; Pls.’
Mem. at 11–12, and Plaintiffs have re-filed suit asserting nearly identical challenges to the rule, see
generally Compl., ECF No. 1.
Plaintiffs allege that the Secretary’s reimbursement rate reduction for 340B drugs violates the APA
and the Social Security Act because it is “arbitrary
and capricious and contrary to law, and in excess of
the Secretary’s authority under the Medicare provisions of the Social Security Act.” Compl. ¶¶ 68–69
(citing 42 U.S.C. §§ 405(g), 1395ii, 1395l(t)(14)(A)(iii);
This decision was recently affirmed by the D.C. Circuit. See
Am. Hosp. Ass’n v. Azar (“AHA II”), 895 F.3d 822, 828 (D.C. Cir.
2018).
7

55a
5 U.S.C. § 706(2) ). In conjunction with filing their
complaint, Plaintiffs have moved for either a preliminary injunction or a permanent injunction under
Rule 65 of the Federal Rules of Civil Procedure. Pls.’
Mot. at 1, ECF No. 2. Plaintiffs request that this
Court direct the Secretary to:
[S]trike the changes in the payment methodology for 340B drugs from the OPPS Rule and
use the methodology used in calendar year
2017 for all future 340B Program payments in
2018; pay the Hospital Plaintiffs and all provider members of the Association Plaintiffs the
difference between the payments for 340B
drugs that they received under the 2018 OPPS
Rule and the payments they would have received under the 2017 OPPS Rule; and conform the payment methodology that they use
for 340B drugs in calendar year 2019 and
subsequent years to the requirements of the
Social Security Act, and specifically not to use
acquisition cost to calculate payment rates
unless Defendants have complied with 42
U.S.C. § 1395l(t)(14)(A)(iii)(I).
Pls.’ Mem. at 35. The government has opposed Plaintiffs’ motion and filed a motion to dismiss the action
pursuant to Federal Rules of Civil Procedure 12(b)(1)
and 12(b)(6). See generally Defs.’ Mot. The parties’
motions are fully briefed and ripe for this Court’s
consideration.
III. LEGAL STANDARDS
A. Federal Rule of Civil Procedure 12(b)(1)
A motion to dismiss under Federal Rule of Civil
Procedure 12(b)(1) “presents a threshold challenge to
the Court’s jurisdiction.” Curran v. Holder, 626
F.Supp.2d 30, 32 (D.D.C. 2009) (quoting Agrocom-

56a
plect, AD v. Republic of Iraq, 524 F.Supp.2d 16, 21
(D.D.C. 2007) ). “It is to be presumed that a cause lies
outside [the federal courts’] limited jurisdiction, and
the burden of establishing the contrary rests upon
the party asserting jurisdiction.” Kokkonen v.
Guardian Life Ins. Co. of Am., 511 U.S. 375, 377, 114
S.Ct. 1673, 128 L.Ed.2d 391 (1994) (citing McNutt v.
Gen. Motors Acceptance Corp., 298 U.S. 178, 182–83,
56 S.Ct. 780, 80 L.Ed. 1135 (1936); Turner v. Bank of
N.A., 4 U.S. (4 Dall.) 8, 11, 1 L.Ed. 718 (1799) ). In
determining whether the plaintiff has met this burden, a court must accept “the allegations of the complaint as true,” Banneker Ventures, LLC v. Graham,
798 F.3d 1119, 1129 (D.C. Cir. 2015), and “construe
the complaint ‘liberally,’ granting the plaintiff ‘the
benefit of all inferences that can be derived from the
facts alleged,’” Barr v. Clinton, 370 F.3d 1196, 1199
(D.C. Cir. 2004) (quoting Kowal v. MCI Commc’ns
Corp., 16 F.3d 1271, 1276 (D.C. Cir.1994) ). However,
“the [p]laintiff’s factual allegations in the complaint
... will bear closer scrutiny in resolving a 12(b)(1) motion than in resolving a 12(b)(6) motion for failure to
state a claim.” Grand Lodge of Fraternal Order of Police v. Ashcroft, 185 F.Supp.2d 9, 13–14 (D.D.C. 2001)
(internal quotation marks omitted) (citing 5A Charles
A. Wright & Arthur R. Miller, Federal Practice and
Procedure § 1350).
The Court must confirm its jurisdiction for each
type of claim brought before it, including APA challenges. Indeed, while the “APA generally establishes
a cause of action for those suffering legal wrong because of agency action, or adversely affected or aggrieved by agency action,” the “APA does not apply ...
to the extent that ... statutes preclude judicial review.” Tex. All. for Home Care Servs. v. Sebelius, 681
F.3d 402, 408 (D.C. Cir. 2012) (internal quotation

57a
marks omitted) (quoting 5 U.S.C. § 701(a)(1); Koretoff
v. Vilsack, 614 F.3d 532, 536 (D.C. Cir. 2010) ). Similarly, courts lack jurisdiction over claims brought
under the Social Security Act until the claimants
have exhausted their administrative remedies and
received final decisions from the Secretary regarding
the issues underlying those claims. 42 U.S.C. §
405(g).
B. Federal Rule of Civil Procedure 12(b)(6)
The Federal Rules of Civil Procedure require that
a complaint contain “a short and plain statement of
the claim” to give the defendant fair notice of the
claim and the grounds upon which it rests. Fed. R.
Civ. P. 8(a)(2); accord Erickson v. Pardus, 551 U.S.
89, 93, 127 S.Ct. 2197, 167 L.Ed.2d 1081 (2007) (per
curiam). A motion to dismiss under Rule 12(b)(6) does
not test a plaintiff’s ultimate likelihood of success on
the merits; rather, it tests whether a plaintiff has
properly stated a claim. See Scheuer v. Rhodes, 416
U.S. 232, 236, 94 S.Ct. 1683, 40 L.Ed.2d 90 (1974),
abrogated on other grounds by Harlow v. Fitzgerald,
457 U.S. 800, 102 S.Ct. 2727, 73 L.Ed.2d 396 (1982).
A court considering such a motion presumes that the
complaint’s factual allegations are true and construes
them liberally in the plaintiff’s favor. See, e.g., United
States v. Philip Morris, Inc., 116 F.Supp.2d 131, 135
(D.D.C. 2000).
To survive a motion to dismiss, a complaint need
not contain all elements of a prima facie case. See
Swierkiewicz v. Sorema N.A., 534 U.S. 506, 511–14,
122 S.Ct. 992, 152 L.Ed.2d 1 (2002); Bryant v. Pepco,
730 F.Supp.2d 25, 28–29 (D.D.C. 2010). However, the
“complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,
678, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009) (quoting

58a
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570, 127
S.Ct. 1955, 167 L.Ed.2d 929 (2007) ). This means that
a plaintiff’s factual allegations “must be enough to
raise a right to relief above the speculative level, on
the assumption that all the allegations in the complaint are true (even if doubtful in fact).” Twombly,
550 U.S. at 555, 127 S.Ct. 1955 (citations omitted).
“Threadbare recitals of the elements of a cause of action, supported by mere conclusory statements,” are
therefore insufficient to withstand a motion to dismiss. Iqbal, 556 U.S. at 678, 129 S.Ct. 1937. A court
need not accept a plaintiff’s legal conclusions as true,
see id., nor must a court presume the veracity of legal
conclusions couched as factual allegations, see
Twombly, 550 U.S. at 555, 127 S.Ct. 1955.
C. Administrative Procedure Act
The APA governs the conduct of federal administrative agencies. See 5 U.S.C. §§ 101–913. It permits
a court to “compel agency action unlawfully withheld
or unreasonably delayed,” id.§ 706(1), and to “hold
unlawful and set aside agency action, findings, and
conclusions found to be ... arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance
with law,” id.§ 706(2)(A). It provides for judicial review of a “final agency action for which there is no
other adequate remedy in a court[,]” id. § 704, except
when “statutes preclude judicial review” or the
“agency action is committed to agency discretion by
law[,]” id. § 701(a).
IV. ANALYSIS
By and large, the Secretary’s arguments for dismissal concern whether this Court has jurisdiction to
hear Plaintiffs’ allegations. First, the Secretary argues that Plaintiffs’ failure to exhaust their adminis-

59a
trative remedies forecloses judicial review. Second,
the Secretary argues that certain Medicare provisions
preclude the Court’s review. Third, the Secretary argues that the decision to reduce 340B drug reimbursement rates was “committed to agency discretion
by law,” and therefore outside the scope of APA review. Fourth, the Secretary argues that he had clear
statutory authority to “adjust” 340B drug reimbursement rates. The Court addresses each argument
in turn and concludes that the potential jurisdictional
obstacles are not fatal here, and that the Secretary’s
action exceeded his authority to “adjust” rates. Accordingly, Plaintiffs are entitled to relief, to be determined after the Court considers the parties’ supplemental briefing.
A. Plaintiffs Need Not Exhaust Their Administrative Remedies
The Secretary argues that the Court lacks jurisdiction because Plaintiffs failed to exhaust their administrative remedies prior to filing suit. In evaluating
this argument, the Court must consider the mechanism by which Plaintiffs have brought this suit.
Plaintiffs assert their claims under a specific Social
Security Act provision, 42 U.S.C. § 405(g), 8 which is
the proper provision by which to raise an APA chal8

This provision states, in relevant part, that:
Any individual, after any final decision of the [Secretary]
made after a hearing to which he was a party, irrespective
of the amount in controversy, may obtain a review of such
decision by a civil action commenced within sixty days after
the mailing to him of notice of such decision or within such
further time as the Commissioner of Social Security may
allow. Such action shall be brought in the district court of
the United States ....

42 U.S.C. § 405(g) (emphasis added).

60a
lenge to a Medicare-related agency action. 42 U.S.C.
§§ 405(h), 9 1395ii; Heckler v. Ringer, 466 U.S. 602,
615, 104 S.Ct. 2013, 80 L.Ed.2d 622 (1984); Am.
Hosp. Ass’n v. Azar (“AHA II”), 895 F.3d 822, 825
(D.C. Cir. 2018). And as noted, judicial review of a
claim brought under § 405(g) is foreclosed until the
claimants have exhausted their administrative remedies and received a final decision from the Secretary.
42 U.S.C. § 405(g); Mathews v. Eldridge, 424 U.S.
319, 328, 96 S.Ct. 893, 47 L.Ed.2d 18 (1976); AHA II,
895 F.3d at 826. Although the concept of “exhaustion”
exists under typical administrative law principles,
the Supreme Court has explained that § 405(h)’s
channeling mechanism imposes an even more exact9

This provision states that:
The findings and decision of the [Secretary] after a hearing
shall be binding upon all individuals who were parties to
such hearing. No findings of fact or decision of the [Secretary] shall be reviewed by any person, tribunal, or governmental agency except as herein provided. No action against
the United States, the [Secretary], or any officer or employee thereof shall be brought under section 1331 or 1346 [federal defendant jurisdiction] of title 28 to recover on any
claim arising under this subchapter.

42 U.S.C. § 405(h) (emphasis added). The Supreme Court has
interpreted § 405(h) to require that Medicare claims be pursued
through the special review system laid out in § 405(g), rather
than through other judicial mechanisms that may otherwise be
available. Shalala v. Ill. Council on Long Term Care, Inc., 529
U.S. 1, 8–15, 120 S.Ct. 1084, 146 L.Ed.2d 1 (2000). 42 U.S.C. §
1395ii expressly applies § 405(h) to claims arising under the
Medicare provisions of the Social Security Act, and the D.C.
Circuit has reasoned that “expressly incorporating the judicial-review bar in § 405(h) also effectively incorporates the exception ‘herein provided’ in § 405(g).” Am. Hosp. Ass’n v. Azar
(“AHA II”), 895 F.3d 822, 825 (D.C. Cir. 2018) (citing United
States v. Blue Cross & Blue Shield of Ala., Inc., 156 F.3d 1098,
1103 (11th Cir. 1998) ).

61a
ing exhaustion requirement. Shalala v. Ill. Council
on Long Term Care, Inc., 529 U.S. 1, 12, 120 S.Ct.
1084, 146 L.Ed.2d 1 (2000) (“[T]he bar of § 405(h)
reaches beyond ordinary administrative law principles of ‘ripeness’ and ‘exhaustion of administrative
remedies’....”). Indeed, § 405(h) “demands the ‘channeling’ of virtually all legal attacks through the
agency.” Id. at 13, 120 S.Ct. 1084.
Section 405(g)’s review channeling mechanism
contains two elements. First, the provision contains a
jurisdictional, non-waivable “requirement that a
claim for benefits shall have been presented to the
Secretary.” Eldridge, 424 U.S. at 328, 96 S.Ct. 893.
Second, the provision contains a non-jurisdictional
“requirement that the administrative remedies prescribed by the Secretary be exhausted.” Id. This requirement may be waived by the agency or a court. 10
See id. at 330, 96 S.Ct. 893. Together, these requirements serve the practical purpose of “assur[ing] the
agency greater opportunity to apply, interpret, or revise policies, regulations, or statutes.” Ill. Council,
529 U.S. at 13, 120 S.Ct. 1084. Because, as noted,
both parties agree that Plaintiffs have satisfied §
405(g)’s presentment requirement, the Court must
consider whether Plaintiffs may be excused from exhausting their administrative remedies.
“A court may waive the exhaustion requirements
In arguing that Plaintiffs must fully exhaust their administrative remedies, the Secretary notes that the Social Security
Act provides an “abbreviated review process” by which a claimant may request expedited judicial review. Defs.’ Mot. at 27
(citing 42 U.S.C. § 1395ff(b)(2)(A); 42 C.F.R. § 405.990). However, the Secretary does not explain why that provision would
prevent a court from waiving 42 U.S.C. § 405(g)’s exhaustion
requirement when appropriate, nor does the Secretary cite case
law establishing that principle.
10

62a
of § 405(g) when: (1) the issue raised is entirely collateral to a claim for payment; (2) plaintiffs show
they would be irreparably injured were the exhaustion requirement enforced against them; [or] (3) exhaustion would be futile.” Triad at Jeffersonville I,
LLC v. Leavitt, 563 F.Supp.2d 1, 16 (D.D.C. 2008)
(citing Bowen v. City of New York, 476 U.S. 467,
483–85, 106 S.Ct. 2022, 90 L.Ed.2d 462 (1986) ); see
also Tataranowicz v. Sullivan, 959 F.2d 268, 274
(D.C. Cir. 1992). In such situations, a “district court
may, in its discretion, excuse exhaustion if ‘the litigant’s interests in immediate judicial review outweigh the government’s interests in the efficiency or
administrative autonomy that the exhaustion doctrine is designed to further.’” Avocados Plus Inc. v.
Veneman, 370 F.3d 1243, 1247 (D.C. Cir. 2004)
(quoting McCarthy v. Madigan, 503 U.S. 140, 146,
112 S.Ct. 1081, 117 L.Ed.2d 291 (1992) ).
Here, Plaintiffs rely solely on what they claim is
the futility of exhausting their administrative remedies. “Futility may serve as a ground for excusing
exhaustion, either on its own or in conjunction with
[the] other factors ....” Nat’l Ass’n for Home Care &
Hospice, Inc. v. Burwell, 77 F.Supp.3d 103, 110
(D.D.C. 2015); see also Tataranowicz, 959 F.2d at 274
(waiving the plaintiffs’ § 405(g) exhaustion requirement as futile, without recourse to other factors).
That said, the ordinary standard for futility in administrative law cases is inapplicable in Medicare
cases. See Weinberger v. Salfi, 422 U.S. 749, 766, 95
S.Ct. 2457, 45 L.Ed.2d 522 (1975) (stating that §
405(g) is “more than simply a codification of the judicially developed doctrine of exhaustion, and may not
be dispensed with merely by a judicial conclusion of
futility”). Instead, the Court must consider whether
judicial resolution of the issue will interfere with the

63a
agency’s efficient functioning, deny the agency the
ability to self-correct, or deprive the Court of the benefits of the agency’s expertise and an adequate factual record. Tataranowicz, 959 F.2d at 275 (citing Salfi,
422 U.S. at 765, 95 S.Ct. 2457).
Applying these principles, the futility of requiring
Plaintiffs to exhaust their administrative remedies in
this case is readily apparent. The Secretary does not
argue that proceeding with Plaintiffs’ lawsuit would
somehow “interfere with the agency’s efficient functioning.” 11 Nor does the Secretary contend that this
dispute must be resolved based on facts that would be
more fully developed through the administrative
process. Indeed, as the Secretary recognizes, Plaintiffs’ claim “raises pure legal questions regarding the
scope of the Secretary’s statutory authority ....” Defs.’
Mot. at 28 n.10. Finally, there is no reason to believe
that the agency might overturn the regulation,
should Plaintiffs be given additional opportunities to
raise their arguments through the administrative
process. In the notice and comment proceedings, HHS
specifically considered and rejected the arguments
that Plaintiffs now raise here. See 82 Fed. Reg. at
52,499–502 (asserting that the Secretary could reduce SCOD reimbursement rates pursuant to the
Secretary’s authority to “adjust” reimbursement rates
under 42 U.S.C § 1395l(t)(14)(A)(iii)(II), and rejecting
Plaintiffs’ claims to the contrary). Moreover, HHS’s
proposed 2019 OPPS Rule continues to reimburse
340B drugs at ASP minus 22.5%, indicating HHS’s
commitment to its position here. Medicare Program:
In fact, Plaintiffs assert, and the Secretary does not contest,
that clarity regarding the 340B reimbursement rates will improve the agency’s efficiency by resolving a large portion of the
agency’s administrative appeal workload raising the same issues
addressed by this opinion. See Pls.’ Mem. Ex. T at 2 n.2.
11

64a
Proposed Changes to Hospital Outpatient Prospective
Payment and Ambulatory Surgical Center Payment
Systems and Quality Reporting Programs (“Proposed
2019 OPPS Rule”), 83 Fed. Reg. 37,046, 37,122 (July
31, 2018) (to be codified at 42 C.F.R. pt. 419).
In fact, as Plaintiffs point out and the Secretary
does not dispute, because the 2018 OPPS Rule is final, it appears that no administrative review body
would even have authority to alter or deviate from its
requirements, due to the Rule’s binding nature on
HHS. Indeed, HHS regulations provide that “[a]ll
laws and regulations pertaining to the Medicare and
Medicaid programs ... are binding on ALJs and attorney adjudicators, and the [Medicare Appeals]
Council.” 42 C.F.R. § 405.1063(a) (emphasis added);
see also HHS Expedited Access to Judicial Review
Ruling at 6, ECF No. 19-1 (stating that “neither the
ALJ nor the [Medicare Appeals] Council has the authority to find the 2018 OPPS Rule invalid”).
When faced with similar circumstances, the Supreme Court and other courts in this jurisdiction
have waived the Social Security Act’s exhaustion requirement. 12 See Mathews v. Diaz, 426 U.S. 67,
76–77, 96 S.Ct. 1883, 48 L.Ed.2d 478 (1976) (treating,
for jurisdictional purposes, the Secretary’s “stipulat[ion] that no facts were in dispute, that the case
was ripe for disposition by summary judgment, and
that the only issue before the District Court was the
constitutionality of the statute ... as tantamount to a
Because the Court concludes that Plaintiffs’ exhaustion of
their administrative remedies here would be futile, it need not
consider Plaintiffs’ argument that they have exhausted their
administrative remedies with respect to certain claims for reimbursement. See Pls.’ Opp’n Defs.’ Mot. (“Pls.’ Opp’n”) at
11–12, ECF No. 16.
12

65a
decision denying the application and as a waiver of
the exhaustion requirements” because the “constitutional question [was] beyond the Secretary’s competence”); Tataranowicz, 959 F.2d at 274 (excusing exhaustion requirement on futility grounds where “the
Secretary g[ave] no reason to believe that the agency
machinery might accede to plaintiffs’ claims”); Nat’l
Ass’n for Home Care & Hospice, 77 F.Supp.3d at 112
(excusing exhaustion requirement on futility grounds
because plaintiff’s “statutory claim—that the Secretary exceeded her authority under the [Affordable
Care Act] in promulgating [a rule]—[was] a purely
legal challenge to the agency’s established interpretation of the Medicare Act”); Hall v. Sebelius, 689
F.Supp.2d 10, 23–24 (D.D.C. 2009) (stating that “exhaustion may be excused where ‘an agency has
adopted a policy or pursued a practice of general applicability that is contrary to the law’” (quoting DL v.
District of Columbia, 450 F.Supp.2d 11, 17 (D.D.C.
2006) ). The Court does the same here. Because
Plaintiffs have presented claims for reimbursement
to the Secretary under the 2018 OPPS Rule, and because Plaintiffs’ exhaustion of their administrative
remedies would be futile, the Court waives Plaintiffs’
exhaustion requirement and exercises its subject
matter jurisdiction under 42 U.S.C. § 405(g).
B. This Court Is Not Precluded From Evaluating Plaintiffs’ Ultra Vires Claim
The Secretary also argues that the Court is precluded by certain Medicare provisions from hearing
Plaintiffs’ suit. Again, the precise mechanism by
which Plaintiffs have brought this suit is key to the
Court’s analysis. Although, as discussed above, this
Court has jurisdiction under § 405(g) to hear Plaintiffs’ action, Plaintiffs ultimately seek relief not under

66a
§ 405(g), but under the APA. See Compl. ¶¶ 68–69.
And under the APA, litigants may seek review of
agency action, “except to the extent that [a] statute[ ]
preclude[s] judicial review.” 5 U.S.C. § 701(a)(1).
“There is a ‘strong presumption that Congress intends judicial review of administrative action.’”
Amgen, 357 F.3d at 111 (quoting Bowen v. Mich.
Acad. of Family Physicians, 476 U.S. 667, 670, 106
S.Ct. 2133, 90 L.Ed.2d 623 (1986) ). This presumption
weighs “particularly strong[ly]” in favor of “judicial
review of agency action taken in excess of delegated
authority,” as alleged here. Id. at 111–12 (citing
Leedom v. Kyne, 358 U.S. 184, 190, 79 S.Ct. 180, 3
L.Ed.2d 210 (1958); Aid Ass’n for Lutherans v. USPS,
321 F.3d 1166, 1173 (D.C. Cir. 2003) ). To overcome
the presumption, there must be “‘clear and convincing evidence’ of a contrary legislative intent.” Abbott
Labs. v. Gardner, 387 U.S. 136, 141, 87 S.Ct. 1507, 18
L.Ed.2d 681 (1967) (quoting Rusk v. Cort, 369 U.S.
367, 380, 82 S.Ct. 787, 7 L.Ed.2d 809 (1962) ), overruled on other grounds by Califano v. Sanders, 430
U.S. 99, 107, 97 S.Ct. 980, 51 L.Ed.2d 192 (1977).
This analysis requires that the Court look to the
statute’s “express language ... the structure of the
statutory schemes, its objectives, its legislative history, and the nature of the administrative action involved.” Block v. Cmty. Nutrition Inst., 467 U.S. 340,
345, 104 S.Ct. 2450, 81 L.Ed.2d 270 (1984).
The Secretary contends that three Medicare provisions preclude this Court’s review of Plaintiffs’ suit:
42 U.S.C. § 1395l(t)(12)(A), (t)(12)(C), and (t)(12)(E).
Defs.’ Mot. at 17. Subsection (t)(12)(A) states:
There shall be no administrative or judicial
review under section 1395ff of this title,
1395oo of this title, or otherwise of ... the development of the classification system under

67a
paragraph (2), including the establishment of
groups and relative payment weights for covered OPD services, of wage adjustment factors,
other adjustments, and methods described in
paragraph (2)(F).
42 U.S.C. § 1395l(t)(12)(A) (emphasis added). Subsection (t)(12)(C) states that “[t]here shall be no administrative or judicial review under section 1395ff of
this title, 1395oo of this title, or otherwise of ... periodic adjustments made under paragraph [9].” 13 Id. §
1395l(t)(12)(C) (emphasis added). And subsection
(t)(12)(E) states:
There shall be no administrative or judicial
review under section 1395ff of this title,
1395oo of this title, or otherwise of ... the determination of the fixed multiple, or a fixed
dollar cutoff amount, the marginal cost of care,
or applicable percentage under paragraph (5)
or the determination of insignificance of cost,
the duration of the additional payments, the
determination and deletion of initial and new
categories (consistent with subparagraphs (B)
and (C) of paragraph (6) ), the portion of the
medicare OPD fee schedule amount associated
with particular devices, drugs, or biologicals,
and the application of any pro rata reduction
under paragraph (6).

Both parties agree that because of a scrivener’s error, subsection (t)(12)(C) explicitly refers to “periodic adjustments made
under paragraph [ (t) ](6)” but should refer to subsection (t)(9).
See Defs.’ Mot. at 6 n.2; Pls.’ Opp’n Defs.’ Mot. (“Pls.’ Opp’n”) at
7 n.6, ECF No. 16. Subsection (t)(9) requires that “[t]he Secretary ... review not less often than annually and revise the
groups, the relative payment weights, and the wage and other
adjustments described in paragraph [ (t) ](2).” Id.§ 1395(t)(9)(A).
13

68a
Id. § 1395l(t)(12)(E) (emphasis added).
It is uncontested that none of these subsections
explicitly preclude judicial review of rate adjustments
made under subsection (t)(14). See Pls.’ Opp’n Defs.’
Mot. (“Pls.’ Opp’n”) at 3, ECF No. 16. And Plaintiffs
argue that without this explicit reference, there is no
“clear and convincing evidence” that subsection
(t)(12) is intended to preclude judicial review of the
subsection (t)(14) rate adjustment at issue here. Id. a
3–4. The Secretary, on the other hand, argues that
the separately payable drugs addressed by subsection
(t)(14) fall within the OPPS payment “classification
system” established under subsection (t)(2). Defs.’
Mot. at 19. Therefore, according to the Secretary, adjustments to those drugs’ reimbursement rates are
“adjustments” described in subsection (t)(2), made to
the agency’s “fee schedule amount associated with
particular ... drugs,” review of which are precluded by
subsections (t)(12)(A) and (t)(12)(E). Id. at 19–21; Reply Supp. Defs.’ Mot. (“Defs.’ Reply”) at 4–5, ECF No.
20. The Secretary further argues that in finalizing
the 2018 OPPS Rule, the Secretary explicitly invoked
his subsection (t)(9) authority to periodically revise
relative payment rates, review of which is precluded
by subsection (t)(12)(C). Defs.’ Mot. at 20 (citing 82
Fed. Reg. at 52,356); Defs.’ Reply at 7–8.
The parties’ preclusion arguments notwithstanding, because Plaintiffs claim that the Secretary acted
in excess of his statutory authority—that he acted
ultra vires—the Court need not resolve the parties’
conflicting interpretations of subsection (t)(12). “[T]he
case law in this circuit is clear that judicial review is
available when an agency acts ultra vires.” Aid Ass’n
for Lutherans, 321 F.3d at 1173 (citing Chamber of
Commerce v. Reich, 74 F.3d 1322, 1327–28 (D.C. Cir.
1996) ). Thus, “the APA’s stricture barring judicial

69a
review ‘to the extent that statutes preclude judicial
review,’ ‘does not repeal the review of ultra vires actions’ ....” Id. (quoting 5 U.S.C. § 701(a)(1); Dart v.
United States, 848 F.2d 217, 224 (D.C. Cir. 1988) ).
Put simply, if the Secretary’s 340B drug reimbursement rate reduction was an “adjustment” under subsection (t)(14), review of that adjustment is arguably
precluded by subsection (t)(12). But if the Secretary’s
action was not an “adjustment,” the Court may review it. See Amgen, 357 F.3d at 112 (section
1395l(t)(12)(A) prevents “review only of those ‘other
adjustments’ that the Medicare Act authorizes the
Secretary to make; in other words, the preclusion on
review of ‘other adjustments’ extends no further than
the Secretary’s statutory authority to make them.”).
Accordingly, to determine whether Plaintiffs raise
an ultra vires claim falling outside the scope of subsection (t)(12)’s preclusion provisions, the Court must
consider that claim’s merits. See id. at 113 (“[T]he
determination of whether the court has jurisdiction is
intertwined with the question of whether the agency
has authority for the challenged action, and the court
must address the merits to the extent necessary to
determine whether the challenged agency action falls
within the scope of the preclusion on judicial review.”); Organogenesis Inc. v. Sebelius, 41 F.Supp.3d
14, 20–21 (D.D.C. 2014) (“[I]f Apligraf qualifies as a
SCOD, this Court may hear the case under the ultra
vires doctrine of review,” but “if Apligraf does not
qualify as a SCOD, 42 U.S.C. § 1395l(t)(12)(A) precludes this Court’s review.”); cf. COMSAT Corp. v.
FCC, 114 F.3d 223, 226–27 (D.C. Cir. 1997) (in determining whether a statutory provision precluded
judicial review of an agency action, noting that such a
determination “merges consideration of the legality of
the [agency]’s action with consideration of th[e]

70a
court’s jurisdiction in cases in which the challenge to
the [agency]’s action raises the question of the [agency]’s authority to enact a particular amendment.
Where, as here, we find that the [agency] has acted
outside the scope of its statutory mandate, we also
find that we have jurisdiction to review the [agency]’s
action.”). Because the Court concludes, as explained
below, that the Secretary exceeded his authority under the Medicare provisions of the Social Security
Act, the Court also necessarily concludes that subsection (t)(12) does not preclude judicial review of Plaintiffs’ claims.
C. HHS’s 340B Reimbursement Rate
Reduction Was Ultra Vires
Having waded through the potential impediments
to its jurisdiction, the Court may consider Plaintiffs’
core allegation; that the Secretary acted ultra vires in
“adjusting” the 340B drug reimbursement rates from
ASP plus 6% to ASP minus 22.5%. “To challenge
agency action on the ground that it is ultra vires, [a
plaintiff] must show a ‘patent violation of agency authority.’” Fla. Health Scis. Ctr., Inc. v. Sec’y of HHS,
830 F.3d 515, 522 (D.C. Cir. 2016) (quoting Indep.
Cosmetic Mfrs. & Distribs., Inc. v. U.S. Dep’t of
Health, Educ. & Welfare, 574 F.2d 553, 555 (D.C. Cir.
1978) ). “A violation is ‘patent’ if it is ‘[o]bvious’ or
‘apparent.’” Id. (quoting Black’s Law Dictionary (10th
ed. 2014) ). “Such ultra vires review is ‘quite narrow.’”
H. Lee Moffitt Cancer Center & Research Inst. Hosp.,
Inc. v. Azar, 324 F.Supp.3d 1, 11 (D.D.C. 2018)
(quoting Mittleman v. Postal Regulatory Comm’n, 757
F.3d 300, 307 (D.C. Cir. 2014) ).
Plaintiffs’ ultra vires argument here turns on the
scope of the Secretary’s discretion under 42 U.S.C. §
1395l(t)(14)(A)(iii)(II) to alter the statutory benchmark drug reimbursement rates. As noted, under

71a
that provision, a given drug’s reimbursement rate
“shall be equal ... [to] the average price for the drug
in the year established under ... section 1395w-3a of
this title ... as calculated and adjusted by the Secretary as necessary for purposes of this paragraph.” Id.
(emphasis added). And the parties agree that §
1395w-3a sets a default payment rate of ASP plus
6%, which HHS implemented for several years preceding the 2018 OPPS Rule. Defs.’ Mot. at 6; Pls.’
Mem. at 3–4; 77 Fed. Reg. at 68,387.
Thus, the principle dispute among the parties is
whether the Secretary acted within his authority to
“calculate[ ] and adjust[ ]” the statutory benchmark
rate of ASP plus 6% when he reduced that rate to
ASP minus 22.5% based on his estimation of 340B
hospitals’ drug acquisition costs, rather than the
drugs’ average sales prices. 82 Fed. Reg. at 52,496.
The Secretary argues that the authority to “adjust”
reimbursement rates is essentially a plenary power to
change rates according to any methodology, so long as
the rates are expressed as a function of average drug
prices. See Defs.’ Mot. at 34. This argument relies on
the premise that the statute’s text does not impose
any limits on the Secretary’s authority to adjust
rates. See id. at 31. This is plainly wrong.
In fact, the statute’s plain text does limit the Secretary’s “adjust[ment]” authority. The D.C. Circuit
held as much under nearly identical circumstances in
Amgen. In that case, the Circuit considered the Secretary’s authority to adjust reimbursement rates under a different, but related, Medicare provision: 42
U.S.C. § 1395l(t)(2)(E). Amgen, 357 F.3d at 107. Like
subsection (t)(14)(A)(iii)(II), subsection (t)(2)(E) authorizes the Secretary to make “adjustments” to certain hospital reimbursement rates “to ensure equitable payments” under the OPPS scheme.

72a
1395l(t)(2)(E). 14 In addressing the Amgen plaintiff’s
claim that the Secretary exceeded his adjustment
authority under subsection (t)(2)(E), the Circuit observed that “[l]imitations on the Secretary’s equitable
adjustment authority inhere in the text of § (t)(2)(E).”
Amgen, 357 F.3d at 117 (emphasis added). Indeed,
because the statute “only authorizes ‘adjustments,’” it
could not be read to permit “total elimination or severe restructuring of the statutory scheme.” Id.
Though the relatively insignificant rate reduction at
issue in Amgen was not ultra vires, the Circuit concluded that because “the term ‘adjustments’” did not
“encompass the power to make ‘basic and fundamental changes in the [statutory] scheme’ ... a more substantial departure from the default amounts would,
at some point ... cease to be an ‘adjustment[ ].’” Id.
(quoting MCI Telecomms. Corp. v. Am. Tel. & Tel.
Co., 512 U.S. 218, 225, 114 S.Ct. 2223, 129 L.Ed.2d
182 (1994) ).
Amgen’s logic applies equally here. First, “identical
words and phrases within the same statute should
normally be given the same meaning.” Powerex Corp.
v. Reliant Energy Servs., Inc., 551 U.S. 224, 232, 127
S.Ct. 2411, 168 L.Ed.2d 112 (2007). Thus, because
Congress did not intend for the term “adjust” to confer unbridled authority in the context of subsection
(t)(2)(E), there is good reason to believe that Congress
did not intend to confer such authority in the context
of subsection (t)(14)(A)(iii)(II). But more fundamen14

This subsection states:
the Secretary shall establish, in a budget neutral manner,
outlier adjustments under paragraph [ (t) ](5) and transitional pass-through payments under paragraph [ (t) ](6) and
other adjustments as determined to be necessary to ensure
equitable payments, such as adjustments for certain classes
of hospitals[.]

73a
tally, the structure of subsection (t)(14)(A)(iii)(II) necessitates this conclusion. That provision commands
that SCOD reimbursement rates “shall” be set
“equal” to a rate specified in certain other statutory
provisions; here, each drug’s average sales price plus
6%. 42 U.S.C. § 1395l(t)(14)(A)(iii)(II). This clear directive is qualified only by the Secretary’s authority
to “adjust” those rates. Id. Notably, the Medicare
subsection at issue in Amgen followed this very same
structure by articulating a clear requirement and
then qualifying that requirement with the modest
authority to adjust rates. Thus, like in Amgen, the
language and structure of subsection (t)(14)(A)(iii)(II)
make clear that the Secretary may not make “basic
and fundamental changes” under the purported auspices of making mere “adjustments” to the rates statutorily imposed by that subsection. 15 See Amgen, 357
F.3d at 117; cf. Railway Labor Execs.’ Ass’n v. Nat.
Mediation Bd., 29 F.3d 655, 669 (D.C. Cir. 1994) (en
banc) (“[I]t goes without saying that the bald assertion of power by [an] agency cannot legitimize it.”).
Amgen also answers another critical question:
whether an abuse of the Secretary’s adjustment authority might form the basis of an ultra vires action.
In addition to arguing that § 1395l(t)(14)(A)(iii)(II)’s plain
text imposes no limitation on the Secretary’s adjustment authority, the Secretary argues that had Congress wished to limit
that authority, it would have done so explicitly, as it did in the
same subsection with respect to 2004 and 2005 payment rates.
Defs.’ Mot. at 31 (citing 42 U.S.C. § 1395l(t)(14)(A)(i)–(ii) ). This
argument is essentially an all or nothing proposition; Congress
either imposes rigid instructions or it grants unbridled authority. As discussed, the Court believes that Congress acted with
more nuance here. In granting the Secretary authority to “adjust” the statutory benchmark rate, Congress provided leeway
for the Secretary to alter and even reduce that benchmark, but
not leeway to toss it aside entirely.
15

74a
That is to say, whether a court could find, under some
set of circumstances, that the Secretary has “patent[ly]” violated his authority to “adjust” payment
rates. Fla. Health Scis. Ctr., 830 F.3d at 522. Amgen
suggests that such a finding is possible. The D.C.
Circuit explained that, although the Secretary’s equitable adjustment authority permitted “the adjustment of OPPS payments otherwise set by the Medicare Act,” it did not “give the Secretary the absurdly
broad power to make drastic adjustments, such as the
elimination of the entire pass-through program, and
term it an ‘equitable adjustment,’ thereby undermining the mandatory nature of the pass-through payment system while evading judicial review.” Amgen,
Inc., 357 F.3d at 117 (emphasis added). Rather, if the
Secretary makes “basic and fundamental changes in
the scheme ... the Secretary would, in that event, exceed his statutory authority [to make adjustments]
under § (t)(2)(E) [and] the preclusion on judicial review in § (t)(12)(A) would not apply.” Id. (emphasis
added). In other words, judicial review would be permitted because the Secretary’s purported “adjustment” would be, in fact, an ultra vires act (i.e. a patent violation of his authority).
The question for the Court, then, is whether the
change at issue here—reducing the default 340B drug
reimbursement rate of ASP plus 6% to ASP minus
22.5%—is so substantial as to be a patent violation of
the Secretary’s § (t)(14)(A)(iii)(II) adjustment authority. Although similar arguments have been raised in
this jurisdiction, no court has held that the Secretary
acted outside of his authority to make “adjustments”
to any Medicare reimbursement rates. For example,
in Amgen, the D.C. Circuit had “no occasion to engage
in line drawing to determine when ‘adjustments’
cease being ‘adjustments’” because the rate adjust-

75a
ment at issue there involved “only the payment
amount for a single drug, [which] does not work ‘basic
and fundamental changes in the scheme’ Congress
created in the Medicare Act ....” Amgen, Inc., 357 F.3d
at 117 (quoting MCI, 512 U.S. at 225, 114 S.Ct. 2223).
Likewise, in other cases, courts have found that payment reductions of 0.2% and 2.9% were not significant enough to warrant a finding that the Secretary
exceeded his adjustment authority. See Shands
Jacksonville Med. Ctr. v. Burwell, 139 F.Supp.3d 240,
260 (D.D.C. 2015) (citing Adirondack Med. Ctr. v.
Sebelius, 740 F.3d 692, 700 (D.C. Cir. 2014) ).
But the circumstances here are quite different
than those previously presented in this jurisdiction.
The Secretary’s rate adjustment at issue here does
not affect a single drug or even a handful of drugs,
but rather potentially thousands of pharmaceutical
products found in the 340B Program. See 82 Fed.
Reg. at 52,494 (discussing the number of 340B “covered products” available to 340B covered entities).
Moreover, the changes that the Secretary imposed
are not modest. Indeed, by changing the formula from
the statutory default of ASP plus 6% to ASP minus
22.5%, the Secretary is imposing a nearly 30% reduction from the formula that Congress expressly set as
the standard. When viewed together, the rate reduction’s magnitude and its wide applicability inexorably
lead to the conclusion that the Secretary fundamentally altered the statutory scheme established by
Congress for determining SCOD reimbursement
rates, thereby exceeding the Secretary’s authority to
“adjust[ ]” SCOD rates under § (t)(14)(A)(iii)(II).
In attempting to justify this drastic departure from
the statutorily mandated rates, the Secretary argues
that because § (t)(14)(A)(iii) “itself identifies ‘acquisition cost[s]’ as a valid reference point for drug pay-

76a
ments,” the Secretary must necessarily have been
within his authority to adjust 340B reimbursement
rates to achieve that goal. Id. at 29, 33. It is true that
§ (t)(14)(A)(iii) authorizes the Secretary to set reimbursement rates at levels consistent with hospitals’
acquisition costs for those drugs. 42 U.S.C. 1395l §
(t)(14)(A)(iii)(I). But that authorization is found in
subsection (I), which requires the Secretary to consider certain hospital acquisition cost survey data.
Id.
Here, the Secretary eschewed the use of subsection
(I) because the required acquisition cost data was not
available. 82 Fed. Reg. at 52,496. And the statutory
scheme is clear that if the Secretary does not have
that data, he must calculate reimbursement rates by
reference to the drugs’ average sales prices. 42 U.S.C.
§ (t)(14)(A)(iii)(II). While the Secretary is permitted to
make “adjust[ments]” to those rates for whatever
reasons he deems “necessary,” adjustments are all he
can make. 16 Id. He cannot fundamentally rework the
statutory scheme—by applying a different methodology than the provision requires—to achieve under
subsection (II) what he could not do under subsection
(I) for lack of adequate data. 17 Indeed, the Secretary’s
The Secretary argues that subsection (II) cannot mandate a
reimbursement rate “based strictly on ASP” because that interpretation would render the Secretary’s adjustment authority
meaningless. Defs.’ Mot. at 29. The Court’s holding is not so rigid; it agrees that the Secretary has some authority to deviate
from the statutory benchmark of ASP plus 6%. The Court merely holds that if an adjustment is sufficiently large and entirely
de-coupled from the methodology imposed by subsection (II), it
may exceed the Secretary’s statutory authority and cease to be
an “adjustment.”
16

Because the Court concludes that the Secretary’s rate reduction is unsupported by the statute’s unambiguous text, the
Court need not address whether the Secretary’s statutory inter17

77a
admission that he sought to mimic the result of subsection (I)—by setting rates designed to approximate
acquisition costs—under the authority of subsection
(II)—which dictates that rates approximate average
sales prices—only further supports the notion that
the Secretary’s purported adjustments were, in fact,
fundamental changes in the statutory scheme. 18 See
82 Fed. Reg. at 52,500 (stating that the Secretary is
“using [his] authority [under § (t)(14)(A)(iii)(II) ] to
apply a downward adjustment that is necessary to
better reflect acquisition costs of those drugs”). Congress could very well have chosen to treat Medicare
reimbursements for 340B drugs differently than reimbursements for other separately payable drugs, but
it did not do so. To the extent the Secretary disagrees
on policy grounds with Congress’s decision, see, e.g.,
82 Fed. Reg. at 52,495 (“While we recognize the intent of the 340B program, we believe it is inappropriate for Medicare to subsidize other activities through
Medicare payments for separately payable drugs.”),
the Secretary may either collect the data necessary to
set payment rates based on acquisition costs, or he
may raise his disagreement with Congress, but he
may not end-run Congress’s clear mandate.

pretation is entitled to deference under Chevron, U.S.A., Inc. v.
NRDC, 467 U.S. 837, 842–43, 104 S.Ct. 2778, 81 L.Ed.2d 694
(1984). See Defs.’ Mot. at 28.
The Secretary urges the Court to take into account the rate
reduction’s “context,” and consider that it will allow Medicare
beneficiaries to “share in the program savings realized by hospitals and other covered entities that participate in the 340B
Program.” Defs.’ Mot. at 32 (quoting 82 Fed. Reg. at 52,495). The
Court does not dispute the Secretary’s policy reasons for seeking
to reduce 340B reimbursement rates. But a noble goal does not
excuse the Secretary’s ultra vires action taken in pursuit of that
goal.
18

78a
For these reasons, the Court concludes that the
Secretary acted ultra vires. 19 This conclusion carries
two implications. First, the Court’s conclusion means
that 42 U.S.C. § 1395l(t)(12), which ordinarily proscribes judicial review of the Secretary’s OPPS reimbursement rate determinations, presents no barrier
in this case. 20 Therefore, the Secretary’s Federal Rule
Accordingly, the Court declines to address Plaintiffs’ alternative arguments that (1) the Secretary’s adjustment authority is
limited to the consideration of hospitals’ overhead costs, Pls.’
Mem. at 26–27; (2) the Secretary’s action was ultra vires because it improperly treats certain providers differently than
others, id. at 27–28; and (3) the Secretary’s action was ultra vires because it undermines the purpose of the 340B program, id.
at 28–30.
19

The Secretary also argues that, even if § 1395l(t)(12) does not
preclude judicial review, any payment adjustment under §
1395(t)(14)(A)(iii)(II) is committed to agency discretion by law,
and is therefore unreviewable by this Court. Defs.’ Mot. at
25–26; see also 5 U.S.C. § 701(a)(2) (stating that an agency action may not be challenged under the APA if it “is committed to
agency discretion by law”). Again, the provision at issue requires
the Secretary to set SCOD payment rates at “the average price
for the drug ... as calculated and adjusted by the Secretary as
necessary for purposes of this paragraph.” 42 U.S.C. §
1395l(t)(14)(A)(iii)(II) (emphasis added). In raising his “agency
discretion by law” argument, the Secretary focuses on the part of
the statute that reads “as necessary for the purposes of this
paragraph.” Defs.’ Mot. at 25–26. According to him, this language leaves the court without any “meaningful standard
against which to judge the agency’s exercise of discretion.” Id. at
25 (quoting Heckler v. Chaney, 470 U.S. 821, 830, 105 S.Ct.
1649, 84 L.Ed.2d 714 (1985) ). But this argument can only carry
force to the extent that one understands the Secretary’s 340B
rate reduction to be an “adjustment.” That is, a court may not
inquire into the “necessity” of an “adjustment” made by the Secretary, but that does not prevent the Court from inquiring into
whether the Secretary’s actions were, in fact, an “adjustment” or
something more. Because, as described above, the Secretary’s
actions did not constitute an “adjustment” for purposes of the
20

79a
12(b)(1) motion to dismiss for lack of subject matter
jurisdiction must fail. Second, the Court’s conclusion
means that Plaintiffs have adequately alleged a claim
for relief under the APA, thereby defeating the Secretary’s Federal Rule 12(b)(6) motion to dismiss.
D. Disposition
Having resolved that this Court has jurisdiction
over this matter and that, on the merits, the Secretary’s action was ultra vires, the Court must now
consider the proper way forward. Plaintiffs urge the
Court to “[a]dvanc[e] a decision on the merits” under
Federal Rule of Civil Procedure 65(a)(2). Pls.’ Mem.
at 34. Rule 65(a)(2) states that “[b]efore or after beginning [a] hearing on a motion for a preliminary injunction, the court may advance the trial on the merits and consolidate it with the hearing.” Fed. R. Civ.
P. 65(a)(2); accord Teva Pharm. USA, Inc. v. FDA,
398 F.Supp.2d 176, 181 n.1 (D.D.C. 2005) (“This type
of consolidation is a procedural tool designed to conserve the resources of the Court and the parties by
avoiding duplicative efforts.” (citing NOW v. Operation Rescue, 747 F.Supp. 760, 768 (D.D.C. 1990) ) ),
vacated on other grounds by441 F.3d 1 (D.C. Cir.
2006). In determining whether a decision on the merits is appropriate, a court must consider whether, at
this stage, “the record is sufficient for a determination on the merits under the summary judgment
standard, or, where reliance on the record is unnecessary, under the motion to dismiss standard.” March
for Life v. Burwell, 128 F.Supp.3d 116, 124 (D.D.C.
2015). Both parties contend that the record is suffistatute, the Secretary’s argument presents no barrier to this
Court’s review. See Amgen, 357 F.3d at 117 (interpreting the
statutory scheme to impose limitations on the Secretary’s authority to “adjust” reimbursement rates).

80a
cient for a determination on the merits here, and the
Court agrees.
The Secretary has had every opportunity and incentive to argue the merits of Plaintiffs’ claim, and he
was aware that the Court may enter judgment on the
merits at this stage. Indeed, the Secretary urged this
Court to decide this case on the merits, asserting that
“[b]ecause Plaintiffs’ APA claims raise pure legal
questions regarding the scope of the Secretary’s statutory authority, the Court may reach the merits of
those claims on a Rule 12(b)(6) motion.” 21 Defs.’ Mot.
at 28 n.10. This, of course, is true. Plaintiffs’ Complaint “actually presents no [disputed] factual allegations, but rather only arguments about the legal conEven if the parties had not been on notice of the Court’s inclination to render a decision on the merits, summary judgment
would likely still be appropriate under Federal Rule of Civil
Procedure 56. See Fed. R. Civ. P. 56(f)(3) (stating that a court
may “consider summary judgment on its own after identifying
for the parties material facts that may not be genuinely in dispute.”). It is generally understood that “‘[a] district court may
grant summary judgment without notice if’ ... the losing party
has had a full and fair opportunity to present arguments and ...
the parties have no genuine dispute as to a material fact.” Koninklijke Philips Elecs. N.V. v. Cardiac Sci. Operating Co., 590
F.3d 1326, 1332 (Fed. Cir. 2010) (quoting United States v. Grayson, 879 F.2d 620, 625 (9th Cir. 1989) ); accord Colbert v. Potter,
471 F.3d 158, 168 (D.C. Cir. 2006) (stating that summary judgment, even if entered erroneously, constitutes harmless error
“[w]hen a nonmoving party could not have produced any ‘evidence sufficient to create a substantial question of fact material
to the governing issues of the case’” (quoting Holy Land Found.
for Relief & Dev. v. Ashcroft, 333 F.3d 156, 165 (D.C. Cir. 2003)
). In this case, the Secretary vigorously argued the merits of
Plaintiffs’ claim and conceded that there can be no genuine dispute of any material fact, as the case involves a pure question of
law.
21

81a
clusion to be drawn about the agency action.” Marshall Cty. Health Care Auth. v. Shalala, 988 F.2d
1221, 1226 (D.C. Cir. 1993); see also Defs.’ Mot. at 28
n.10 (“[I]t is unnecessary for the Court to consider the
administrative record in evaluating Plaintiffs’ claim,
since the claims present pure questions of statutory
interpretation.”); Defs.’ Reply at 3 n.2 (“Defendant’s
motion ... does not depend upon the contents of any
documents other than the final rule challenged by
plaintiffs and other judicially noticeable materials.”).
Thus, “the sufficiency of the complaint is the question
on the merits, and there is no real distinction in this
context between the question presented on a 12(b)(6)
motion and a motion for summary judgment.” Marshall Cty., 988 F.2d at 1226; see also March for Life,
128 F.Supp.3d at 124 (“Where a plaintiff’s complaint
properly states a claim, summary judgment is the
appropriate method by which to resolve the merits of
a dispute regarding federal agency action ‘because
the ... regulation’s validity is a question of law.’”
(quoting Lederman v. United States, 89 F.Supp.2d 29,
33 (D.D.C. 2000), on recons. in part, 131 F.Supp.2d 46
(D.D.C. 2001) ) ).
Consequently, in their briefing, both parties argued at length about the Secretary’s authority to implement the Medicare rate reduction at issue. Moreover, the Secretary did not oppose, or even address,
Plaintiffs’ request that the Court render a judgment
on the merits. And the Secretary gave no reason to
believe that he might present different or additional
legal arguments at some later stage in the litigation. 22 As discussed above, having considered the
This Court held oral argument in AHA I, which involved the
same parties, the same procedural posture, and substantially
similar claims raised by Plaintiffs against the Secretary. See
AHA I, 289 F.Supp.3d at 50; Min. Entry, Dec. 21, 2017, AHA I,
22

82a
parties’ arguments, the Court concludes that the
Secretary exceeded his authority under 42 U.S.C. §
1395l(t)(14)(A)(iii)(II) in setting the 340B drug reimbursement rates in the 2018 OPPS Rule. Because the
Secretary had every opportunity and every reason to
present his merits arguments, because he did present
those arguments, and because there is no reason to
believe that a more developed record in the future
could lead to any other outcome than the one reached
today, the Court will enter judgment in favor of
Plaintiffs. 23
E. Remedies
The typical remedy for an agency rule promulgated
contrary to law is to vacate the rule. See Humane
Soc’y of U.S. v. Zinke, 865 F.3d 585, 614 (D.C. Cir.
No. 17-2447 (noting that the Court heard oral argument on that
date); Pls.’ Mem. at 2 (conceding that AHA I concerned a “substantively identical challenge”); Defs.’ Mot. at 15 (same). During
that argument the Court asked the Secretary’s counsel whether
there was any reason why the Court should not enter judgment
at this stage in the proceedings, and counsel could identify none
apart from his general desire for a “second bite at the apple.”
The Court sees no reason to grant the Secretary a “second bite”
when there is no evidence that the second bite would be any different than the first. The Court also declines to hear oral argument on the parties’ motions at this stage because it believes
that oral argument would “be of no meaningful assistance in
rendering a final decision[,]” in light of the AHA I oral argument
and the clear, thorough briefing in AHA I and this case. Owen-Williams v. BB & T Inv. Servs., Inc., 797 F.Supp.2d 118, 126
(D.D.C. 2011); see also LCvR 7(f) (stating that the decision to
conduct an oral argument “shall be within the discretion of the
Court”).
Because the Court has consolidated Plaintiffs’ preliminary
injunction motion with a decision on the merits, the Court “need
not decide the preliminary injunction.” Pharm. Research & Mfrs.
of Am. v. HHS, 43 F.Supp.3d 28, 34 (D.D.C. 2014).
23

83a
2017) (citing Sugar Cane Growers Co-op. of Fla. v.
Veneman, 289 F.3d 89, 97 (D.C. Cir. 2002) ); St. Lawrence Seaway Pilots Ass’n, Inc. v. U.S. Coast Guard,
85 F.Supp.3d 197, 208 (D.D.C. 2015). As noted,
Plaintiffs seek that relief and its logical consequences, including that the Court require HHS to apply the
2017 OPPS drug reimbursement methodology—ASP
plus 6%—to 340B drug payments made for the remainder of 2018, 24 and pay the Hospital Plaintiffs,
and all 340B Program participants who are members
of the Association Plaintiffs, the difference between
the 340B drug payments that they have received under the 2018 OPPS Rule and the higher payments
that they would have received under the 2017 OPPS
Rule. 25 Pls.’ Mot. at 1–2. In other words, Plaintiffs
seek retroactive Medicare Part B payments and a reallocation of those payments going forward. Plaintiffs’
complaint also seeks declaratory relief. Compl. at 23.
In determining whether to provide these remedies,
the Court must consider “‘the seriousness of the ...
deficiencies’ of the [agency’s] action” and “the disruptive consequences of vacatur.” Heartland Reg’l Med.
Ctr. v. Sebelius, 566 F.3d 193, 197 (D.C. Cir. 2009)
(first alteration in original) (quoting Fox Television
Considering the timing of the Court’s Order, this first remedy
is likely to have little impact compared to the second remedy.
24

Plaintiffs also ask this Court to enjoin the Secretary and HHS
from incorporating the payment methodology challenged here
into the HHS rule setting 2019 340B drug reimbursement rates.
See Pls.’ Mem. at 35; Compl. at 24. However, Plaintiffs’ complaint does not explicitly challenge the 2019 rule, and Plaintiffs
have once again failed to show that they have presented the
Secretary with a concrete claim for reimbursement under the
2019 rule, as required by 42 U.S.C. § 405(g). See Eldridge, 424
U.S. at 328, 96 S.Ct. 893. This Court is thus foreclosed from reviewing the 2019 rule, and it declines to impose injunctive relief
concerning that rule. AHA II, 895 F.3d at 828.
25

84a
Stations, Inc. v. FCC, 280 F.3d 1027, 1048–49 (D.C.
Cir. 2002) ).
Here, vacatur and the other relief sought by Plaintiffs are likely to be highly disruptive. An important
component of the Medicare Part B scheme is its
budget neutrality requirement. See 42 U.S.C. §
1395l(t)(9)(B) (stating that OPPS payment “adjustments for a year may not cause the estimated amount
of expenditures ... for the year to increase or decrease
from the estimated amount of expenditures ... that
would have been made if the adjustments had not
been made”). And the Secretary claims that this requirement applies to the 340B drug reimbursements
at issue here. Defs.’ Mot. at 5, 14; see also 82 Fed.
Reg. at 52,623 (“[W]e are implementing this payment
reduction in a budget neutral manner within the
OPPS”).
Under the budget neutrality requirement, reducing
2018 340B reimbursement rates allowed the Secretary to increase reimbursements for other drugs and
services covered under Medicare Part B; increasing
340B reimbursement rates would likewise require the
Secretary to reduce reimbursements elsewhere in the
program. For instance, in finalizing the 2018 OPPS
Rule, the Secretary stated that “the reduced payments for separately payable drugs purchased
through the 340B Program w[ould] increase payment
rates for other non-drug items and services paid under the OPPS by an offsetting aggregate amount.” 82
Fed. Reg. at 52,623. The Secretary could thus “increase OPPS payment rates for non-drug items and
services by approximately 3.2[%].” Id. The retroactive
OPPS payments that Plaintiffs seek here would presumably require similar offsets elsewhere; a quagmire that may be impossible to navigate considering
the volume of Medicare Part B payments made in

85a
2018.
The D.C. Circuit and other circuits have recognized
the “havoc that piecemeal review of OPPS payments
could bring about” in light of the budget neutrality
requirement. Amgen, 357 F.3d at 112 (citing Am.
Soc’y of Cataract & Refractive Surgery v. Thompson,
279 F.3d 447, 454 (7th Cir. 2002) (noting the “disruptive” impact of requiring Medicare Part B payment
adjustments); Skagit Cty. Pub. Hosp. Dist. No. 2 v.
Shalala, 80 F.3d 379, 386–87 (9th Cir. 1996) ); see
also Paladin Cmty. Mental Health Ctr. v. Sebelius,
684 F.3d 527, 531 n.3 (5th Cir. 2012) (“Judicial determinations forcing the Secretary to retroactively
alter payment rates for various covered services—e.g., payment rates that are adjusted annually
and are required to remain budget neutral—would
likely wreak havoc on the already complex administration of Medicare Part B’s outpatient prospective
payment system.” (citation omitted) ). In the interest
of avoiding that havoc, and because neither party
thoroughly addressed the question of remedies in
their briefs, 26 the Court will order supplemental
briefing on this issue.
V. CONCLUSION
For the foregoing reasons, Plaintiffs’ Motion for a
The Secretary argues that the potential disruption caused by
judicial intervention motivated Congress to preclude judicial
review of OPPS payment adjustments. Defs.’ Mot. at 40–41. The
Secretary does not, however, address how that disruption may
be mitigated in the event of a decision for Plaintiffs. And Plaintiffs make the conclusory argument that the disruption would be
offset by gains resulting from the lawful implementation of
Medicare Part B. Pls.’ Opp’n at 10–11. While a noble sentiment,
this does not bring the Court any closer to understanding how to
provide Plaintiffs with relief without wreaking havoc on the
system.
26

86a
Preliminary Injunction (ECF No. 2) is DENIED AS
MOOT, the Secretary’s Motion to Dismiss (ECF No.
14) is DENIED, and Plaintiffs’ Motion for a Permanent Injunction (ECF No. 2) is GRANTED, insofar as
Plaintiffs are entitled to equitable relief. Fashioning
that relief, however, requires supplemental briefing
from the parties addressing the relief’s proper scope
and implementation. Consequently, it is HEREBY
ORDERED that:
1. The parties shall provide supplemental briefing
on the appropriate remedy, limited to no more
than 25 pages per brief, within 30 days of this
Memorandum Opinion’s issuance; and
2. The parties shall respond to those briefs, limited
to no more than 15 pages per response, within
14 days after the supplemental briefs are filed.
An order consistent with this Memorandum Opinion
is separately and contemporaneously issued.

87a
APPENDIX C
No. 18-CV-2084
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
THE AMERICAN HOSPITAL ASSOCIATION, et
al., Plaintiffs,
v.
ALEX M. AZAR II, United States Secretary of
Health and Human Services, et al., Defendants.
[Filed] May 6, 2019
MEMORANDUM OPINION
GRANTING IN PART PLAINTIFFS’ MOTION FOR A
PERMANENT INJUNCTION; REMANDING THE 2018 AND
2019 OPPS RULES TO HHS
RUDOLPH CONTRERAS, United States District
Judge
I. INTRODUCTION
This Court previously held that the Department of
Health and Human Services (“HHS”) exceeded its
statutory authority when it reduced the 2018 Medicare reimbursement rate for certain pharmaceutical
drugs—those covered by the “340B Program”—by
nearly 30%. In that decision, the Court asked the
parties to provide supplemental briefing regarding
the appropriate remedy. That briefing is now ripe for
the Court’s consideration. Plaintiffs, a group of hospital associations and non-profit hospitals, 1 have also
The hospital association Plaintiffs are the American Hospital
Association (“AHA”), the Association of American Medical Colleges (“AAMC”), and America’s Essential Hospitals (“AEH”). See
Suppl. Compl. ¶¶ 5–10, ECF No. 39. The non-profit hospital
Plaintiffs are the Henry Ford Health System (“Henry Ford Hos-

1

88a
filed a supplemental complaint raising a new claim.
They contend that HHS once again exceeded its statutory authority when it implemented the same 340B
reimbursement rate for 2019 that the Court held was
unlawfully implemented in 2018. 2
For the reasons stated below, the Court concludes
that HHS’s 2019 340B reimbursement rate is unlawful, for the same reasons that the 2018 rate was unlawful. The Court also concludes that, despite the fatal flaw in the agency’s rate adjustments, vacating
HHS’s 2018 and 2019 rules is not the best course of
action, given the havoc vacatur may wreak on Medicare’s administration. Rather, the Court will remand
the two rules to the agency, giving it the first crack at
crafting appropriate remedial measures. The Court
expects HHS to resolve this issue promptly.
II. BACKGROUND
This Court’s most recent opinion contains a detailed discussion of this case’s background and procedural history, and the relevant statutes and regulations. See Am. Hosp. Assoc. v. Azar (“AHA”), 348 F.
Supp. 3d 62, 66–72 (D.D.C. 2018). The Court will
briefly summarize the relevant background here.
Medicare is a federal health insurance program for
the elderly and disabled, established by Title XVIII of
the Social Security Act. See 42 U.S.C. §§ 1395–
1395lll. 3 Medicare Part A provides coverage for inpapital”), Northern Light Health (“Northern Light”), and Park
Ridge Health (“Park Ridge”). See id. ¶¶ 11–19.
Plaintiffs assert their claims against both HHS and the Secretary of Health and Human Services. See Suppl. Compl. ¶¶ 20–
21. The Court will refer to HHS and the Secretary interchangeably.
2

3

These provisions are commonly known as the “Medicare Act.”

89a
tient hospital care, home health care, and hospice
services. Id. § 1395c. Medicare Part B provides supplemental coverage for other types of care, including
outpatient hospital care. Id. §§ 1395j, 1395k. HHS’s
Outpatient Prospective Payment System (“OPPS”),
which directly reimburses hospitals for outpatient
services and pharmaceutical drugs provided to Medicare beneficiaries, is a component of Medicare Part B.
See id. at 1395l(t). OPPS requires “payments for outpatient hospital care to be made based on predetermined rates.” Amgen, Inc. v. Smith, 357 F.3d 103, 106
(D.C. Cir. 2004). Under this system, the Secretary—
through the Centers for Medicare and Medicaid Services (“CMS”)—sets annual OPPS reimbursement
rates prospectively, before a given year, rather than
retroactively based on covered hospitals’ actual costs
during that year. 4
Medicare Part B reimburses, among other products
and services, “specified covered outpatient drugs”
(“SCODs”) provided by hospitals to Medicare beneficiaries. 42 U.S.C. § 1395l(t)(14)(A). SCODS are a subset of “separately payable drugs,” which are not bundled with other Medicare Part B outpatient services,
and are therefore reimbursed on a drug-by-drug basis. See id. § 1395l(t)(14)(B). Congress has authorized
two potential methodologies for setting SCOD rates.
First, if the Secretary has certain “hospital acquisition cost survey data,” he must set the reimbursement rate for each SCOD according to “the average
acquisition cost for the drug for that year ... as determined by the Secretary taking into account” the
The Court will refer to them as such.
CMS is a component of HHS and is overseen by the Secretary.
See HHS Organizational Chart, HHS (Nov. 14, 2018),
https://www.hhs.gov/about/agencies/orgchart/index.html.
4

90a
survey data. Id. § 1395l(t)(14)(A)(iii)(I) (emphasis
added). Second, if the survey data is not available,
each SCOD’s reimbursement rate must be set equal
to “the average [sales] price [ (“ASP”) ] for the drug in
the year established under ... section 1395w-3a ... as
calculated and adjusted by the Secretary as necessary
for
purposes
of
this
paragraph.”
Id.
§
1395l(t)(14)(A)(iii)(II) (emphasis added). Section
1395w-3a, in turn, provides that a given drug’s default reimbursement rate is the average sales price
(“ASP”) of the drug plus 6%. 5
The Secretary applies the same methodologies
used to set SCOD reimbursement rates to set rates
for separately payable drugs covered by the “340B
Program.” 6 See Veterans Health Care Act of 1992,
While subsection (t)(14)(A)(iii)(II) provides two additional bases for calculating reimbursement rates—section 1395u(o) and
section 1395w-3b—both parties agree that the default rate for
purposes of the drugs at issue here is the rate established by
section 1395w-3a. See Defs.’ Mot. to Dismiss at 6, ECF No. 14;
Pls.’ Mem. Supp. Mot. Prelim. & Permanent Inj. at 3–4, ECF
No. 2-1; Medicare Program: Hospital Outpatient Prospective
Payment System and Ambulatory Surgical Center Payment Systems and Quality Reporting Programs (“2018 OPPS Rule”), 82
Fed. Reg. 52,356, 52,501 (Nov. 13, 2017) (codified at 42 C.F.R.
pt. 419) (acknowledging ASP plus 6% as the “statutory benchmark”).
5

Not all 340B drugs qualify as SCODs, to which the payment
methodologies of § 1395l(t)(14)(A) expressly apply. The Secretary, however, “applies these statutory payment methodologies
to all separately payable drugs, even those that are not
SCODS.” Defs.’ Mot. to Dismiss at 6 n.1, ECF No. 6 (citing Medicare and Medicaid Programs: Hospital Outpatient Prospective
Payment and Ambulatory Surgical Center Payment Systems
and Quality Reporting Programs, 77 Fed. Reg. 68,210, 68,383
(Nov. 15, 2012) (codified at 42 C.F.R. pt. 419)); see also 82 Fed.
Reg. at 52,509 (stating that the rate reduction will apply to
“separately payable Part B drugs ... that are acquired through

6

91a
Pub L. No. 102-585, § 602, 106 Stat. 4943, 4967–71.
The 340B Program “imposes ceilings on prices drug
manufacturers may charge for medications sold to
specified health care facilities.” Astra USA, Inc. v.
Santa Clara Cty., 563 U.S. 110, 113, 131 S.Ct. 1342,
179 L.Ed.2d 457 (2011); see also 42 U.S.C. §
256b(a)(1)–(2). 7 The statutory provisions that establish those price ceilings are independent from the
statutory provisions that establish Medicare reimbursement rates. Put another way, the 340B Program
caps the prices that eligible providers pay for covered
drugs, but Medicare Part B sets the reimbursement
rates those providers receive for prescribing covered
drugs to Medicare beneficiaries. Until recently, there
was a significant spread between 340B prices and
Medicare reimbursement rates. 340B Program participants could purchase drugs at steeply discounted
rates under the Program, then seek reimbursement
for those purchases at the higher Medicare Part B
rates established by OPPS. The Secretary’s attempt
to narrow the spread triggered this litigation.
In mid-2017, the Secretary proposed reducing reimbursement rates for SCODs and other 340B drugs,
from ASP plus 6% to ASP minus 22.5%. Medicare
Program: Hospital Outpatient Prospective Payment
and Ambulatory Surgical Center Payment Systems
and Quality Reporting Programs, 82 Fed. Reg.
the 340B Program”). The methodology at issue here thus applies
to all 340B drugs. This “is a policy choice rather than a statutory
requirement.” Defs.’ Mot. to Dismiss at 6 n.1 (quoting 77 Fed.
Reg. at 68,383).
The Program is intended to enable providers “to stretch scarce
Federal resources as far as possible, reaching more eligible patients and providing more comprehensive services.” H.R. Rep.
No. 102-384(II), at 12 (1992); see also 82 Fed. Reg. at 52,493 &
52,493 n.18.
7

92a
33,558, 33,634 (Jul. 20, 2017) (codified at 42 C.F.R.
pt. 419). The Secretary asserted that this change was
necessary to “make Medicare payment for separately
payable drugs more aligned with the resources expended by hospitals to acquire such drugs[,] while
recognizing the intent of the 340B program to allow
covered entities, including eligible hospitals, to
stretch scarce resources while continuing to provide
access to care.” Id. at 33,633.
The Secretary’s statutory authority to reduce the
2018 340B rate was limited by the data available to
him. Because he did not “have hospital acquisition
cost data for 340B drugs,” 82 Fed. Reg. at 33,634, he
could not invoke his express authority under 42
U.S.C. § 1395l(t)(14)(A)(iii)(I) to set rates according to
the drugs’ average acquisition costs. Instead, he invoked subsection (t)(14)(A)(iii)(II), which allows him
to set rates according to the drugs’ average sales prices, “as calculated and adjusted by the Secretary as
necessary.” 82 Fed. Reg. at 33,634. The Secretary
proposed to “adjust the applicable payment rate as
necessary” for separately payable 340B drugs, “to
ASP minus 22.5[%].” Id. According to the Secretary,
the adjustment was necessary because ASP minus
22.5% was the average 340B discount estimated by
the Medicare Payment Advisory Commission (“MedPAC”), and thus “better represents the average acquisition cost for [340B] drugs and biologicals.” Id.
Plaintiffs objected to this adjustment, but the Secretary rejected their objections and adopted the proposal. See Medicare Program: Hospital Outpatient
Prospective Payment and Ambulatory Surgical Center Payment Systems and Quality Reporting Programs (“2018 OPPS Rule”), 82 Fed. Reg. 52,356,
52,362 (Nov. 13, 2017) (codified at 42 C.F.R. pt. 419).
HHS reimbursed 340B drugs at ASP minus 22.5%

93a
throughout 2018.
Having failed to defeat the 2018 340B rate adjustment during the notice and comment period, Plaintiffs challenged the 2018 OPPS Rule in this Court.
See AHA, 348 F. Supp. 3d at 71–72. They argued that
the Secretary exceeded his statutory authority in setting the 2018 340B rate, in violation of the Administrative Procedure Act (“APA”) and the Social Security
Act. See id. at 71. This Court agreed. It held that the
Secretary violated subsection (t)(14)(A)(iii)(II)’s plain
text when he invoked that provision to “adjust” 340B
rates downward by 30%, based not on the drugs’ average sales prices—as dictated by the statutory
text—but on the drugs’ estimated acquisition costs.
See id. at 79–83. The Court ordered the parties to
provide supplemental briefing on the proper remedy.
See id. at 86.
The Secretary has continued to apply the same
340B rate in 2019. See Medicare Program: Changes
to Hospital Outpatient Prospective Payment and
Ambulatory Surgical Center Payment Systems and
Quality Reporting Programs (“2019 OPPS Rule”), 83
Fed. Reg. 58,818, 58,979 (Nov. 21, 2018) (codified at
42 C.F.R. pt. 419). And in adopting that rate, the Secretary incorporated by reference his rationale for
adopting the 2018 340B rate, the rationale that this
Court later held was contrary to law. See id. at
58,981 (referring commenters to the Secretary’s “detailed response regarding [his] statutory authority to
require payment reductions for [340B drugs] in the
CY 2018 OPPS/ASC final rule”).
Plaintiffs have filed a supplemental complaint, see
Suppl. Compl., ECF No. 39, and moved to permanently enjoin the 2019 OPPS Rule, see Pls.’ Mot. Permanent Inj. Covering 2019 OPPS Rule (“Pls.’ Mot. Inj.”),
ECF No. 35. That motion, and the parties’ remedies

94a
briefing, is now ripe for the Court’s review. The Court
will first consider Plaintiffs’ motion to enjoin the 2019
OPPS Rule, then the parties’ remedies briefing. It
grants Plaintiffs’ motion in part, and remands both
the 2018 and 2019 OPPS Rules to HHS, giving the
Secretary the first crack at crafting an appropriate
remedy.
III. MOTION FOR PERMANENT INJUNCTION
Rather than fully briefing Plaintiffs’ motion to enjoin the 2019 OPPS Rule, the parties have elected to
incorporate by reference their arguments regarding
the 2018 OPPS Rule. 8 Plaintiffs proffer that “[f]or all
of the reasons that the Court has already articulated
with respect to the 2018 OPPS Rule, the 2019 OPPS
Rule is ultra vires and unlawful.” 9 Pls.’ Mot. Inj. at 2.
Defendants respond that their arguments for denying
Plaintiffs’ challenge to the 2018 OPPS Rule “provide
ample bases for rejecting” Plaintiffs’ challenge to the
In evaluating Plaintiffs’ challenge to the 2018 OPPS Rule, the
Court consolidated the parties’ pleading-stage briefing with a
decision on the merits. See AHA, 348 F. Supp. 3d at 83–85. The
Court does the same here. This case raises pure questions of law
that do not turn on the administrative record or any other facts
that may emerge at the summary judgment stage. See id. Proceeding to summary judgment, rather than reaching a decision
now, would thus be redundant and unnecessary. See Marshall
Cty. Health Care Auth. v. Shalala, 988 F.2d 1221, 1226 (D.C.
Cir. 1993). Neither party contests this approach.
8

Plaintiffs’ challenge is grounded in the APA. The APA provides
for judicial review of a “final agency action for which there is no
other adequate remedy in a court[,]” 5 U.S.C. § 704, except when
“statutes preclude judicial review” or the “agency action is committed to agency discretion by law[,]” id. § 701(a). The APA
permits a court to “hold unlawful and set aside agency action,
findings, and conclusions found to be ... arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance with law.” Id.
§ 706(2)(A).
9

95a
2019 OPPS Rule. Defs.’ Opp’n Pls.’ Mot. Inj. at 1,
ECF No. 42. Recognizing that the Court “rejected
those arguments in the context of the 2018 OPPS
Rule,” Defendants “respectfully request that the
Court reconsider its conclusion.” Id. at 2. The Court
declines Defendants’ invitation. It enjoins the 2019
OPPS Rule for the same reason that it enjoined the
2018 OPPS Rule. In the interest of thoroughness, the
Court will briefly summarize that reasoning.
First, Plaintiffs have sufficiently exhausted their
administrative remedies, such that they may challenge the 2019 OPPS Rule in federal court. To seek
judicial review, a plaintiff challenging a Medicarerelated agency action must satisfy two requirements
established by 42 U.S.C. § 405(g). See Shalala v. Ill.
Council on Long Term Care, Inc., 529 U.S. 1, 12–15,
120 S.Ct. 1084, 146 L.Ed.2d 1 (2000). First, a jurisdictional, non-waivable “requirement that a claim for
benefits shall have been presented to the Secretary.”
Mathews v. Eldridge, 424 U.S. 319, 328, 96 S.Ct. 893,
47 L.Ed.2d 18 (1976). Second, a non-jurisdictional
“requirement that the administrative remedies prescribed by the Secretary be exhausted.” Id. This second requirement may be waived by the agency or a
court. See id. at 330, 96 S.Ct. 893. Together, the two
requirements serve the practical purpose of “assur[ing] the agency greater opportunity to apply, interpret, or revise policies, regulations, or statutes.”
Ill. Council, 529 U.S. at 13, 120 S.Ct. 1084.
Plaintiffs satisfied § 405(g)’s first, non-waivable
requirement when Henry Ford Hospital presented
HHS with two claims for reimbursement for 340B
drugs prescribed under the 2019 OPPS Rule. See
ECF Nos. 34–1 & 34-2. In response, HHS dutifully
applied the 2019 340B reimbursement rate chal-

96a
lenged by Plaintiffs: ASP minus 22.5%. 10 Id. Defendants do not contest that Henry Ford Hospital’s 2019
claims satisfy § 405(g)’s presentment requirement.
Plaintiffs need not satisfy § 405(g)’s second requirement, that they fully exhaust the administrative
process, because exhaustion would be futile. As this
Court previously noted, plaintiffs need not exhaust
their administrative remedies when “(1) the issue
raised is entirely collateral to a claim for payment; (2)
plaintiffs show they would be irreparably injured
were the exhaustion requirement enforced against
them; [or] (3) exhaustion would be futile.” AHA, 348
F. Supp. 3d at 75 (alteration in original) (quoting Triad at Jeffersonville I, LLC v. Leavitt, 563 F. Supp. 2d
1, 16 (D.D.C. 2008)); see also Tataranowicz v. Sullivan, 959 F.2d 268, 274 (D.C. Cir. 1992). In such circumstances, a “district court may, in its discretion,
excuse exhaustion if ‘the litigant’s interests in immediate judicial review outweigh the government’s interests in the efficiency or administrative autonomy
that the exhaustion doctrine is designed to further.’”
Avocados Plus Inc. v. Veneman, 370 F.3d 1243, 1247
(D.C. Cir. 2004) (quoting McCarthy v. Madigan, 503
U.S. 140, 146, 112 S.Ct. 1081, 117 L.Ed.2d 291
(1992)). More specifically, the court must consider
whether judicial resolution of the issue will interfere
Henry Ford Hospital technically presented its claims to a
Medicare administrative contractor (also known as a “fiscal intermediary”), which processes reimbursements on behalf of
HHS. See 42 C.F.R. § 424.32. “If dissatisfied with the contractor’s initial determination, the hospital then may pursue within
HHS various other avenues for redetermination, reconsideration, hearings, and appeals.” American Hospital Association v.
Azar, 895 F.3d 822, 824 (D.C. Cir. 2018) (citing 42 U.S.C. §
1395ff; 42 C.F.R. § 405.904); see also Pls.’ Mem. Supp. Mot. Prelim. & Permanent Inj. at 11, ECF No. 2-1 (describing the Secretary’s four-level administrative appeal process).
10

97a
with the agency’s efficient functioning, deny the
agency the ability to self-correct, or deprive the Court
of the benefits of the agency’s expertise and an adequate factual record. See Tataranowicz, 959 F.2d at
275 (citing Weinberger v. Salfi, 422 U.S. 749, 765, 95
S.Ct. 2457, 45 L.Ed.2d 522 (1975)).
As with Plaintiffs’ challenge to the 2018 OPPS
Rule, see AHA, 348 F. Supp. 3d at 75–76, it would be
futile for Plaintiffs to exhaust their administrative
remedies here, because their challenge raises pure
questions of law that cannot be decided through the
administrative process. Plaintiffs argue that the Secretary lacked statutory authority to set the 2019
340B reimbursement rate at ASP minus 22.5%. See
Pls.’ Mot. Inj. at 2. The Court does not need a factual
record to decide that question. And no administrative
body has authority to rule in Plaintiffs’ favor, even if
Plaintiffs are correct on the law. See 42 C.F.R. §
405.1063(a) (stating that “[a]ll laws and regulations
pertaining to the Medicare and Medicaid programs ...
are binding on ALJs and attorney adjudicators, and
the [Medicare Appeals] Council”); HHS Expedited Access to Judicial Review Ruling at 6, ECF No. 19-1
(stating that “neither the ALJ nor the [Medicare Appeals] Council has the authority to find the 2018
OPPS Rule invalid”). Plus, it is unlikely that further
administrative appeals would cause the Secretary to
rethink his position that he has authority to “adjust”
340B rates from ASP plus 6% to ASP minus 22.5%,
based on the drugs’ estimated acquisition costs. See
Tataranowicz, 959 F.2d at 275. Even after this Court
held the 2018 OPPS Rule unlawful, the Secretary left
the identical 2019 OPPS Rule in place. Thus, because
Plaintiffs have presented claims for reimbursement
to the Secretary under the 2019 OPPS Rule, and because Plaintiffs’ exhaustion of their administrative

98a
remedies would be futile, the Court waives Plaintiffs’
exhaustion requirement and exercises its subject
matter jurisdiction under 42 U.S.C. § 405(g).
Second, on the merits, the Secretary acted ultra
vires in setting the 2019 340B reimbursement rate.
Ultra vires review “is ‘quite narrow.’” H. Lee Moffitt
Cancer Ctr. & Research Inst. Hosp., Inc. v. Azar, 324
F. Supp. 3d 1, 11 (D.D.C. 2018) (quoting Mittleman v.
Postal Regulatory Comm’n, 757 F.3d 300, 307 (D.C.
Cir. 2014)). To successfully mount an ultra vires challenge, a plaintiff “must show a ‘patent violation of
agency authority.’” AHA, 348 F. Supp. 3d at 79 (quoting Fla. Health Scis. Ctr., Inc. v. Sec’y of HHS, 830
F.3d 515, 522 (D.C. Cir. 2016)). “A violation is ‘patent’
if it is ‘[o]bvious’ or ‘apparent.’” Fla. Health Scis. Ctr.,
830 F.3d at 522 (quoting Black’s Law Dictionary
(10th ed. 2014)). The Secretary’s violation here is apparent.
The Secretary set the 2019 340B rate using his authority under 42 U.S.C. § 1395l(t)(14)(A)(iii)(II) (“subsection II”). See 83 Fed. Reg. at 58,981 (incorporating
the 2018 OPPS Rule’s discussion of the Secretary’s
authority to reimburse 340B drugs at ASP minus
22.5%). Under that provision, a given drug’s reimbursement rate “shall be equal ... [to] the average
[sales] price for the drug in the year established under ... section 1395w-3a of this title ... as calculated
and adjusted by the Secretary as necessary for purposes of this paragraph.” Id. (emphasis added). This
Court previously held, based on the D.C. Circuit’s decision in Amgen, that subsection II’s plain text limits
the Secretary’s authority to adjust rates. 11 See AHA,
In Amgen, the Circuit considered the Secretary’s authority to
adjust reimbursement rates under a different, but related, Medicare provision: 42 U.S.C. § 1395l(t)(2)(E). See Amgen, 357 F.3d
at 107. Like subsection (t)(14)(A)(iii)(II), subsection (t)(2)(E) au-

11

99a
348 F. Supp. 3d at 79–81. Adopting the Circuit’s reasoning, the Court concluded that “because the term
adjustments” does not “encompass the power to make
basic and fundamental changes in the [statutory]
scheme ... a more substantial departure from the default amounts would, at some point ... cease to be an
adjustment[ ].” Id. at 80 (internal quotation marks
omitted) (quoting Amgen, 357 F.3d at 117). Put simply, because subsection II “only authorizes adjustments,” it cannot not be read to permit the “total
elimination or severe restructuring of the statutory
scheme.” Id. (quoting Amgen, 357 F.3d at 117). To do
so would be ultra vires.
In “adjusting” the 2019 340B rate under subsection
II, the Secretary made basic and fundamental changes to the statutory scheme. The rate covers reimbursement for potentially thousands of pharmaceutical products. See 82 Fed. Reg. at 52,494 (discussing
the number of 340B “covered products” available to
340B Program participants). The Secretary expressly
based that rate on the products’ estimated acquisition
costs. See 82 Fed. Reg. at 52,496, 52,500. That methodology—setting a drug’s rate based on its acquisition
thorizes the Secretary to make “adjustments” to certain hospital
reimbursement rates “as determined to be necessary to ensure
equitable payments” under the OPPS scheme. 42 U.S.C. §
1395l(t)(2)(E). In addressing the Amgen plaintiff’s claim that the
Secretary exceeded his adjustment authority under subsection
(t)(2)(E), the Circuit observed that “[l]imitations on the Secretary’s equitable adjustment authority inhere in the text of §
(t)(2)(E).” Amgen, 357 F.3d at 117. Thus, though the slight adjustment at issue in Amgen was not ultra vires, the Circuit left
open the possibility that an adjustment of much greater magnitude could, in fact, “cease to be an ‘adjustment[ ]’” at all. Id. (alteration in original) (quoting MCI Telecomms. Corp. v. Am. Tel.
& Tel. Co., 512 U.S. 218, 225, 114 S.Ct. 2223, 129 L.Ed.2d 182
(1994)).

100a
cost—is contained in a Medicare subsection on which
the Secretary could not rely, because he did not gather the necessary data—he did not have the “hospital
acquisition cost survey data under subparagraph
(D).” 42 U.S.C. § 1395l(t)(14)(A)(iii)(I) (“subsection I”).
The subsection on which the Secretary did rely sets a
drug’s rate based on its average sales price, rather
than its acquisition cost. See id. § (t)(14)(A)(iii)(II)
(“subsection II”). 12 The Secretary thus “adjusted” the
2019 340B rate using a methodology entirely decoupled from that established by the Medicare subsection on which he relied. Not to mention, the rate adjustment is not modest; it is a nearly 30% reduction
from the default statutory formula. “When viewed together, the rate reduction’s magnitude and its wide
applicability inexorably lead to the conclusion that
the Secretary fundamentally altered the statutory
scheme established by Congress for determining
SCOD reimbursement rates, thereby exceeding the
Secretary’s authority to ‘adjust[ ]’ SCOD rates under
§ (t)(14)(A)(iii)(II).” 13 AHA, 348 F. Supp. 3d at 81 (alAgain, subsection II allows the secretary to set each 340B
drug’s reimbursement rate equal to “the average price for the
drug in the year established under ... section 1395w-3a ... as calculated and adjusted by the Secretary as necessary for purposes
of this paragraph.” 42 U.S.C. § (t)(14)(A)(iii)(II).
12

The Secretary argues that his “adjustment” of the 2019 340B
reimbursement rate is shielded by 42 U.S.C. § 1395l(t)(12). That
provision precludes judicial review of certain types of Medicare
rate adjustments. See, e.g., 42 U.S.C. § 1395l(t)(12)(C) (barring
judicial review of “periodic adjustments made under paragraph [
(t)(9) ]”). However, “the preclusion on review of” those adjustments “extends no further than the Secretary’s statutory authority to make them.” Amgen, 357 F.3d at 112. In other words,
if the Secretary makes an “adjustment” within that term’s
meaning, subsection (t)(12) bars a court from reviewing the reasons underlying that adjustment. But if the Secretary’s action is
so extreme that it ceases to be an “adjustment,” a court may re13

101a
teration in original).
IV. REMEDIES
Having concluded that both the 2018 and 2019
340B reimbursement rates were unlawful, the Court
must determine how to “unscramble the egg,” so to
speak. Determining the proper remedy is no easy
task, given Medicare’s complexity. The parties, unsurprisingly, take wildly divergent positions on this
view and strike down that action. See id. at 112–14; AHA, 348 F.
Supp. 3d at 78–79; Organogenesis Inc. v. Sebelius, 41 F. Supp.
3d 14, 20–21 (D.D.C. 2014). Here, because the Secretary exceeded his statutory authority to make an “adjustment” under subsection (t)(14)(A)(iii)(II), subsection (t)(12) does not preclude the
Court from reviewing that action. Cf. H. Lee Moffitt Cancer Ctr.
& Research Inst. Hosp., Inc. v. Azar, 324 F. Supp. 3d 1, 11–12
(D.D.C. 2018) (holding that the court would have jurisdiction,
“under ultra vires review,” to hear the plaintiff’s claim that the
agency was statutorily required to make an adjustment under
subsection (t)(2)(E)). The Court thus need not determine whether subsection (t)(12) would preclude review of a lawful adjustment made under subsection (t)(14).
The Secretary also argues that his adjustment is “committed to
agency discretion by law,” and is thus unreviewable under the
APA. 5 U.S.C. § 701(a)(2). That argument fails for the same reason that the Secretary’s statutory preclusion argument fails. A
matter is committed to agency discretion when “the statute is
drawn so that a court would have no meaningful standard
against which to judge the agency’s exercise of discretion.” Heckler v. Chaney, 470 U.S. 821, 830, 105 S.Ct. 1649, 84 L.Ed.2d 714
(1985). The D.C. Circuit indicated in Amgen, however, that the
statute at issue here does impose a meaningful standard: The
Secretary may not use his adjustment authority to make fundamental changes to the statutory scheme. See Amgen, 357 F.3d
at 117. “[A] court may not inquire into the ‘necessity’ of an ‘adjustment’ made by the Secretary, but that does not prevent the
Court from inquiring into whether the Secretary’s actions were,
in fact, an ‘adjustment’ or something more.” AHA, 348 F. Supp.
3d at 83 n.20.

102a
issue. Plaintiffs seek injunctive relief. See Pls.’ Suppl.
Remedies Br. (“Pls.’ Remedy Br.”) at 10–11, ECF No.
32. They ask this Court to (1) order the Secretary to
pay Plaintiffs “the difference between the amount
they received [under the 2018 and 2019 OPPS Rules]
and the amount to which they are entitled (based on
the ASP plus 6% methodology)”; and (2) order that
Plaintiffs that have not yet received reimbursement
for 340B drugs prescribed in 2018 and 2019 be paid
“the amount they would have received under the
2017 OPPS rule.” 14 Id. Defendants, on the other
hand, ask this Court to remand the 2018 and 2019
OPPS Rules to HHS, without vacating the rules or
imposing specific duties on the agency. See Defs.’
Remedy Br. at 1–2, ECF No. 31.
The parties’ briefing raises two questions regarding the appropriate remedy. First, should the Court
issue an injunction or remand the issue to the agency? Second, if remand is appropriate, should the
Court vacate the 2018 and 2019 OPPS Rules? Having
reviewed the parties’ briefing and the relevant case
law, the Court concludes that remand without vacatur is most appropriate.
A. Remand is Appropriate
Remand, rather than an injunction, is the better
course of action here. As Defendants note, “[w]hen a
district court reverses agency action and determines
that the agency acted unlawfully, ordinarily the appropriate course is simply to identify a legal error and
Plaintiffs’ remedies briefing does not specifically discuss the
2019 OPPS Rule. However, in their motion for a permanent injunction, Plaintiffs ask this Court to (1) require the Secretary to
amend the 2019 rule and implement a 340B rate of ASP plus
6%, and (2) “implement the same retrospective remedy that
[P]laintiffs have proposed for 2018.” Pls.’ Mot. Inj. at 3–4.

14

103a
then remand to the agency, because the role of the
district court in such situations is to act as an appellate tribunal.” N. Air Cargo v. USPS, 674 F.3d 852,
861 (D.C. Cir. 2012) (citing PPG Indus., Inc. v. United
States, 52 F.3d 363, 365 (D.C. Cir. 1995)). Thus, when
a plaintiff brings an APA claim “to set aside an unlawful agency action ... it is the prerogative of the
agency to decide in the first instance how best to provide relief.” Bennett v. Donovan, 703 F.3d 582, 589
(D.C. Cir. 2013) (citing N. Air Cargo, 674 F.3d at
861). Indeed, in certain circumstances, “to order the
agency to take specific actions is reversible error.”
Flaherty v. Pritzker, 17 F. Supp. 3d 52, 57 (D.D.C.
2014) (citing Cty. of Los Angeles v. Shalala, 192 F.3d
1005 (D.C. Cir. 1999)). If the plaintiffs are “dissatisfied with [the agency’s] remedy [on remand], they
would always have the option to seek review” of that
remedy under the APA. Bennett, 703 F.3d at 589 (citing 5 U.S.C. § 706(2)(A)).
At least one other court in this jurisdiction has followed this course under similar circumstances. See
Moffitt Cancer Ctr., 324 F. Supp. 3d at 19. In Moffitt
Cancer Center, the plaintiff challenged the Secretary’s decision not to make an OPPS rate adjustment
under 42 U.S.C. § 1395l(t)(2)(E), arguing that the adjustment was required by statute. Id. at 10–11. The
plaintiff sought an order requiring HHS to (1) vacate
and amend a particular rule, and (2) “adjust [the
plaintiff’s] payments ... accordingly.” Id. at 18–19.
The court agreed with the plaintiff on the merits,
holding that the statute unambiguously required the
Secretary to raise the plaintiff’s OPPS rates under
subsection (t)(2)(E). See id. at 13–14. But the court
declined to grant the specific relief sought. See id. at
19. Instead, it “simply remand[ed] to HHS so that it
c[ould] consider and adopt an ‘appropriate adjust-

104a
ment.’” Id. The Court will take the same approach
here.
Plaintiffs’ arguments for injunctive relief are unpersuasive, and the case law weighs against them.
Plaintiffs note that there are multiple ways for HHS
to remediate its underpayments, some more complicated than others. See Pls.’ Remedy Br. at 2–4, 7–8.
This discussion illustrates why remand is best: Injunctive relief is typically appropriate when “there is
‘only one rational course’ for the [a]gency to follow
upon remand.” Berge v. United States, 949 F. Supp.
2d 36, 43 (D.D.C. 2013) (quoting Am. Fed’n of Gov’t
Emps., AFL-CIO v. Fed. Labor Relations Auth., 778
F.2d 850, 862 n.19 (D.C. Cir. 1985)). As the parties’
briefing makes clear, HHS has multiple courses on
remand, including Plaintiffs’ proposed mechanism. 15
Plaintiffs also note “recent examples of cases in which
HHS has paid hospitals to compensate for past underpayments.” Pls.’ Remedy Br. at 4–7. But in each of
those cases, the agency reached its own decision on
remand; the courts did not grant injunctive relief. See
Cape Cod Hosp. v. Sebelius, 630 F.3d 203, 216 (D.C.
Cir. 2011); Moffitt Cancer Ctr., 324 F. Supp. 3d at 18–
19; Shands Jacksonville Med. Ctr. v. Burwell, 139 F.
Supp. 3d 240, 267–71 (D.D.C. 2015). Finally, Plaintiffs express concern that the Secretary may use remand to “further delay resolution of this matter” or
For example, HHS indicates that it could potentially adjust
reimbursement rates in future years to make up for its underpayments in 2018 and 2019. See Defs.’ Remedy Br. at 11. Or, it
also indicates that it could amend the 2018 and 2019 OPPS
Rules, and issue retroactive payments accordingly. See id. And
as discussed below, there is some question as to whether the
agency’s actions must be budget neutral. The path forward is
not sufficiently clear cut that this Court should chart it in the
first instance.
15

105a
even deny relief altogether. Pls.’ Resp. Br. Remedies
(“Pls.’ Resp.”) at 1, ECF No. 37. But the Court will retain jurisdiction over this matter, and the Court may
reconsider the remedy if the agency fails to fulfill its
responsibilities in a prompt manner. In short, Plaintiffs have provided no sound reason or case law to
support deviating from the normal course in this jurisdiction under these circumstances: remand.
B. Vacatur is not Warranted
While it is a close question, the Court concludes
that it is best to remand the 2018 and 2019 OPPS
Rules without vacating them. In deciding whether
vacatur is warranted, the Court turns to the standard
articulated by the D.C. Circuit in Allied-Signal, Inc.
v. U.S. Nuclear Regulatory Commission, 988 F.2d
146, 150–51 (D.C. Cir. 1993). 16 Under this standard,
the Court must weigh “the seriousness of the [agency]
order’s deficiencies (and thus the extent of doubt
whether the agency chose correctly) and the disruptive consequences of an interim change that may itself be changed.” Id. (quoting Int’l Union, United
Mine Workers of Am. v. Fed. Mine Safety & Health
Admin., 920 F.2d 960, 967 (D.C. Cir. 1990)). “There is
no rule requiring either the proponent or opponent of
vacatur to prevail on both factors.” Shands, 139 F.
Supp. 3d at 270 (listing cases). “[R]esolution of the
question turns on the Court’s assessment of the overall equities and practicality of the alternatives.” Id.
Plaintiffs state that they “are not urging this Court
to vacate the portions of the 2018 OPPS Rule that the
Court held unlawful.” Pls.’ Resp. at 2. 17 Yet, Plaintiffs
Both parties agree that this standard is applicable. See Defs.’
Remedy Br. at 5; Pls.’ Resp. at 2.
16

This may be an eleventh-hour strategic decision. Perhaps
Plaintiffs have decided that vacatur will increase the likelihood
17

106a
also argue that the Allied-Signal factors weigh in favor of vacatur. See Pls.’ Remedy Br. at 7 n.6; Pls.
Resp. at 2. And their supplemental complaint expressly seeks vacatur. See Suppl. Compl. at 24 (asking this Court to “strike the changes in the payment
methodology for section 340B drugs from the 2018
and 2019 OPPS Rules”). Regardless, the Court concludes that the Allied-Signal factors weigh, ever so
slightly, against vacatur.
The Secretary’s deficiencies here were substantial.
He patently violated the Medicare Act’s text. Unlike
cases in which the agency’s decision may have been
lawful, but was inadequately explained, see Am.
Great Lakes Ports Ass’n v. Zukunft, 301 F. Supp. 3d
99, 103 (D.D.C. 2018), no amount of reasoning on remand will allow the Secretary to re-implement the
340B rates in the same manner, see Shands, 139 F.
Supp. 3d at 268 (holding that the first Allied-Signal
factor weighed in favor of vacatur where the “flaw in
the notice and comment process was substantial,”
and the court was not convinced that HHS would be
able to justify its decision on remand). Rather, the
Secretary would need to justify those rates under a
different statutory provision—a nearly impossible
task, given the Secretary’s lack of relevant data. The
Secretary argues that “there remains some ‘doubt
about whether the agency chose correctly,’” given that
the D.C. Circuit could reverse this Court’s decision on
appeal. Defs.’ Remedy Br. at 5 (quoting Allied-Signal,
988 F.2d at 150). That may be true. But the Secretary
cites no case in which a court considered the losing
party’s potential success on appeal in determining the
that HHS corrects its underpayments in a budget neutral manner, clawing back payments made to Plaintiffs for other Medicare-related services. See Pls.’ Resp. at 10–11.

107a
proper trial-level remedy. Possible success on appeal
would weigh against vacatur in every case, given that
reversal is always a possibility. The Court will not
consider it here. The first Allied-Signal factor thus
weighs in favor of vacatur.
On the other hand, vacatur would likely be highly
disruptive. If the Court were to vacate the 2018 and
2019 OPPS Rules, it could order the Secretary to reinstate the rule previously in effect—the 2017 OPPS
Rule—or leave it to the Secretary to issue new rules.
See Am. Great Lakes Ports, 301 F. Supp. 3d at 103–
04; Oceana, Inc. v. Evans, 389 F. Supp. 2d 4, 6
(D.D.C. 2005). Under either scenario, 340B reimbursement rates would presumably be higher than
ASP minus 22.5%. While those higher rates would
address Plaintiffs’ harm, they would raise the following potentially serious administrative problems.
In general, OPPS payments must remain budget
neutral, which could throttle the Secretary’s ability to
retroactively adjust reimbursement rates in the event
of vacatur. See, e.g., 42 U.S.C. § 1395l(t)(9)(B) (stating
that OPPS rate “adjustments for a year may not
cause the estimated amount of expenditures ... for the
year to increase or decrease from the estimated
amount of expenditures ... that would have been
made if the adjustments had not been made”); id. §
1395l(t)(14)(H) (stating that “[a]dditional expenditures resulting from” subsection (t)(14), after 2005,
“shall be taken into account” in “establishing the conversion, weighting, and other adjustment factors”
under subsection (t)(9)). Budget neutrality dictates
that any increase in spending on certain aspects of
Medicare Part B must be offset by decreases elsewhere in the program. See Cape Cod, 630 F.3d at 206
(noting that budget neutrality required the Secretary
to implement a rate adjustment “in a manner that

108a
would have no effect on the annual total of Medicare
payments made to all hospitals throughout the country for inpatient services”).
The Secretary issued the 2018 and 2019 340B
rates according to this principle: Because he decreased reimbursement rates for 340B drugs, he increased rates for other Medicare Part B products and
services. See 82 Fed. Reg. at 52,623 (stating that
HHS implemented the 340B “payment reduction in a
budget neutral manner within OPPS,” allowing HHS
to “increase OPPS payment rates for non-drug items
and services by approximately 3.2[%]”). Thus, if the
Secretary were to retroactively raise the 2018 and
2019 340B rates, budget neutrality would require
him to retroactively lower the 2018 and 2019 rates for
other Medicare Part B products and services. And because HHS has already processed claims under the
previous rates, the Secretary would potentially be required to recoup certain payments made to providers;
an expensive and time-consuming prospect. See Decl.
of Elizabeth Richter ¶¶ 5–9, ECF No. 31-1 (estimating that recoupment would take a year, require between $25 and $30 million in administrative costs,
and adversely impact Medicare beneficiaries who
would owe different amounts under their cost-sharing
obligations).
The parties, and the Federation of American Hospitals, 18 strongly debate whether the Secretary’s reThe Federation of American Hospitals filed an amicus brief on
behalf of “more than 1,000” non-340B hospitals, addressing
remedies. See Unopposed Mot. Leave File Amicus Curiae Br. at
1–2, ECF No. 33. The Federation also seeks leave to respond to
the parties’ briefing on this issue. See Mot. Leave File Amicus
Curiae Br. at 1, ECF No. 40. Because the Court finds the Federation’s briefing helpful, it exercises its “inherent authority” to
allow the Federation’s participation as amicus curiae. Jin v.
18

109a
medial rate adjustments must be budget neutral. See
Pls.’ Remedy Br. at 8–10; Defs.’ Remedy Br. at 7–9;
Amicus Br. at 4–7, ECF No. 38. Some courts in this
jurisdiction have hypothesized, without concluding,
that HHS’s remedial adjustments need not be budget
neutral. See Moffitt Cancer Ctr., 324 F. Supp. 3d at
15–16. The D.C. Circuit, on the other hand, has suggested the opposite, see Amgen, 357 F.3d at 112 (noting that “judicially mandated changes in one [OPPS]
payment rate would affect the aggregate impact of
the Secretary’s decisions by requiring offsets elsewhere, and thereby interfere with the Secretary’s
ability to ensure budget neutrality in each fiscal
year”), although it does not appear to have definitively weighed in. At this stage, it suffices to say that the
uncertainty surrounding this issue all but guarantees
its resolution would be highly disruptive, should the
Court vacate the 2018 and 2019 OPPS Rules. 19
Relatedly, the presumption against retroactive
rulemaking would also complicate vacatur, given that
vacatur would force the Secretary to retroactively issue rules for 2018 and 2019. See Pls.’ Response at 10.
Under this presumption, “a statutory grant of legislative rulemaking authority will not, as a general matter, be understood to encompass the power to promulgate retroactive rules unless that power is conveyed
Ministry of State Sec., 557 F. Supp. 2d 131, 136 (D.D.C. 2008)
(quoting Smith v. Chrysler Fin. Co., LLC, No. Civ. A. 00-6003,
2003 WL 328719, at *8 (D.N.J. Jan. 15, 2003)). The Court will
consider the Federation’s response brief.
Budget neutrality is likely to cause disruption regardless of
whether the Court vacates the 2018 and 2019 OPPS Rules. But
remand without vacatur will allow the agency more flexibility to
determine the least disruptive means of correcting its underpayments to Plaintiffs, including possibly making remedial
payments in a non-budget neutral manner.

19

110a
by Congress in express terms.” Bowen v. Georgetown
Univ. Hosp., 488 U.S. 204, 208, 109 S.Ct. 468, 102
L.Ed.2d 493 (1988). “Even where some substantial
justification for retroactive rulemaking is presented,
courts should be reluctant to find such authority absent an express statutory grant.” Id. at 208–09, 109
S.Ct. 468.
Other courts grappling with this issue in the Medicare context have found that it weighs against vacatur. For instance, in Shands, another court in this jurisdiction considered whether to vacate an HHS rule
reducing a particular reimbursement rate by 0.2%
without adequate explanation. See Shands, 139 F.
Supp. 3d at 263, 269. There, as here, it was “unclear
whether the presumption against retroactive rulemaking would apply” if HHS were required to issue a
new rule upon vacatur. Id. at 269. The Court held
that the presumption’s applicability weighed against
vacatur, because it would impact the agency’s ability
to navigate the proper remedial action. See id.; cf.
Heartland Reg’l Med. Ctr. v. Sebelius, 566 F.3d 193,
198 (D.C. Cir. 2009) (“[W]e think it sufficient for the
purpose of the second Allied–Signal factor that vacatur of the rural location requirement would have
raised substantial doubt about HHS’s ability to recoup payments it made for years prior to reinstatement of that requirement.”); Am. Great Lakes Ports,
301 F. Supp. 3d at 104 (holding that vacatur was inappropriate where “it would appear that the Coast
Guard would be unable to reinstate the 2016 rates
through a properly justified new rule due to the presumption against retroactive rulemaking”). The same
concern applies here: The Secretary may not be able
to retroactively adjust 340B payments, at least not in
a budget neutral manner, should the 2018 and 2019
OPPS Rules be vacated. Any attempt to do so would

111a
almost certainly trigger litigation. See Amicus Br. at
10 (asking this Court to determine that the Secretary
“lacks authority to recoup any or all of the 3.2[%]
budget neutrality adjustment” made in the 2018
OPPS Rule). Remand may allow the agency to avoid
the issue altogether. 20
It is true that, as Plaintiffs note, courts most commonly remand without vacatur agency decisions that
suffer from procedural, rather than substantive, deficiencies. See, e.g. Am. Great Lakes Ports, 301 F. Supp.
3d at 104. But Plaintiffs cite no case law indicating
that remand without vacatur is never appropriate for
agency decisions suffering from severe deficiencies.
Nor could they. See North Carolina v. EPA, 550 F.3d
1176, 1177–78 (D.C. Cir. 2008) (per curiam) (remanding an agency rule without vacatur, despite “more
than several fatal flaws in the rule” (quoting North
Carolina v. EPA, 531 F.3d 896, 901 (D.C. Cir. 2008)
(per curiam))); Shands, 139 F. Supp. 3d at 270 (remanding the Secretary’s rate reduction without vacatur, despite the action’s serious deficiencies); cf. Fertilizer Inst. v. EPA, 935 F.2d 1303, 1312 (D.C. Cir.
1991) (“[W]hen equity demands, an unlawfully promulgated regulation can be left in place while the agency provides the proper procedural remedy.”). Given
the “complex prospective payment system” at issue
For instance, the Secretary may be able to raise 340B rates in
future years to compensate for the 2018 and 2019 underpayments. See Shands Jacksonville Med. Ctr., Inc. v. Azar, 366
F.Supp.3d 32, 57-58 (D.D.C. 2018) (affirming the Secretary’s
decision to implement a one-time, prospective rate increase to
address underpayments in previous years). The Federation of
American Hospitals contends that the Medicare Act does not
authorize this type of prospective remedial adjustment in a
budget neutral manner. See Amicus Br. at 9–10. But the Court
need not decide that at this stage.
20

112a
here, Amgen, 357 F.3d at 112, the Court concludes
that vacating the 2018 and 2019 OPPS Rules would
do more harm than good, despite the fatal flaws in
the Secretary’s 340B rate adjustments.
V. CONCLUSION
For the foregoing reasons, the Court concludes that
the 340B drug reimbursement rate contained in the
2019 OPPS Rule is unlawful, because it was implemented in contravention of the Medicare Act’s plain
text. That said, the Court declines to grant the injunctive relief requested by Plaintiffs. Instead, the
Court remands the 2018 and 2019 OPPS Rules to the
Secretary without vacatur. Thus, Plaintiffs’ Motion
for a Permanent Injunction (ECF No. 35) is
GRANTED IN PART, and Defendants’ Motion to
Dismiss (ECF No. 42) is DENIED. On or before August 5, 2019, the parties shall submit a status report
regarding the agency’s progress on remand to remedy
the issues raised in this litigation concerning the
2018 and 2019 OPPS Rules. The Court expects that
the agency will act expeditiously to resolve these issues. An order consistent with this Memorandum
Opinion is separately and contemporaneously issued.

113a
APPENDIX D
No. 18-CV-2084
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
THE AMERICAN HOSPITAL ASSOCIATION, et
al., Plaintiffs,
v.
ALEX M. AZAR II, United States Secretary of
Health and Human Services, et al., Defendants.
[Filed] July 10, 2019
MEMORANDUM OPINION
GRANTING DEFENDANTS’ MOTION FOR ENTRY OF
FINAL JUDGMENT; DENYING AS MOOT PLAINTIFFS’
MOTION FOR A FIRM DATE
RUDOLPH CONTRERAS, United States District
Judge
I. BACKGROUND 1
On May 6, 2019, this Court held that the Department of Health and Human Services (“HHS”) exceeded its statutory authority when it reduced the
2019 Medicare reimbursement rate for pharmaceutical drugs covered by the “340B Program” by nearly
30%. See Am. Hosp. Ass’n v. Azar (“AHA II”), No. CV
18-2084 (RC), 2019 WL 1992868 (D.D.C. May 6,
2019). This holding followed the Court’s December
Because the December 2018 Opinion and May 2019 Opinion
contain extensive discussion of the relevant background, procedural history, and the relevant statutes and regulation, see AHA
II, 2019 WL 1992868 at *1–4; AHA I, 348 F. Supp. 3d at 66–72,
and because the instant order addresses the remedy and not the
merits in this dispute, the Court will not recapitulate the facts
previously reported in detail.
1

114a
2018 conclusion that HHS exceeded its statutory authority in reducing the 2018 Medicare reimbursement
rate. See Am. Hosp. Ass’n v. Azar (“AHA I”), 348 F.
Supp. 3d 62, 79–83 (D.D.C. 2018). In AHA II, this
Court also specified the remedy for the agency’s unlawful rate adjustments: remand of both the 2018
and 2019 rules to the agency, without vacatur. AHA
II, 2019 WL 1992868 at *7–10. In specifying the
remedy, the Court stated that it would “retain jurisdiction over this matter” so that it could “reconsider
the remedy if the agency fails to fulfill its responsibilities in a prompt manner.” Id. at *7.
Both parties soon filed further motions. Plaintiffs
moved for a firm date by which Defendants must
propose a remedy to the Court. Pls.’ Mot. for Firm
Date, ECF No. 51 (“Pls.’ Mot.”). Defendants moved for
reconsideration of the May 6, 2019 Order and requested entry of final judgment pursuant to Federal
Rule of Civil Procedure Rule 58(a), contending that
the Court’s retention of jurisdiction was “clear error.”
Defs.’ Mot. for Recons., Entry of Final J., and Expedited Briefing, ECF No. 54 (“Defs.’ Mot.”). In this motion, Defendants also argue that entry of final judgment is necessary for expeditious review on the merits in the D.C. Circuit. Id. at 1. These motions are
ripe for the Court’s consideration. For the reasons
stated below, the Court will grant Defendant’s motion
for entry of final judgment and dismiss as moot
Plaintiff’s motion for a firm date.
II. ANALYSIS
Defendants ask this Court to revisit the remedy
specified in the May 6, 2019 Order, ECF No. 49, specifically requesting that the Court, first, reconsider
its retention of jurisdiction following remand to HHS
and, second, enter final judgment. Defs.’ Mot. 1. Defendants argue that the Court has both the authority

115a
and the imperative to reconsider the May 6 Order.
The Court agrees.
A court has authority to reconsider an interlocutory order like the May 6 Order “at any time before the
entry of judgment adjudicating all the claims and the
rights and liabilities of all the parties.” Lewis v. District of Columbia, 736 F. Supp. 2d 98, 101 (D.D.C.
2010) (quoting Fed. R. Civ. P. 54(b)); see also
Bayshore Cmty. Hosp. v. Azar, 325 F. Supp. 3d 18, 22
(D.D.C. 2018) (quoting Ofisi v. BNP Paribas, S.A.,
285 F. Supp. 3d 240, 243 (D.D.C. 2018)). “Relief under
Rule 54(b) is available ‘as justice requires,’ a standard that reflects the flexibility afforded courts under
the rule.” Bayshore Cmty. Hosp., 325 F. Supp. 3d at
22 (quoting Cobell v. Jewell, 802 F.3d 12, 25 (D.C.
Cir. 2015) (internal quotation mark omitted)). For a
court to grant a motion for reconsideration of an interlocutory order, the movant must generally demonstrate: “(1) an intervening change in the law; (2) the
discovery of new evidence not previously available; or
(3) a clear error in the first order.” Zeigler v. Potter,
555 F. Supp. 2d 126, 129 (D.D.C. 2008), aff’d, No.
09-5349, 2010 WL 1632965 (D.C. Cir. Apr. 1, 2010)
(quoting Keystone Tobacco Co. v. U.S. Tobacco Co.,
217 F.R.D. 235, 237 (D.D.C. 2003)).
Here, Defendants argue that the Court’s retention
of jurisdiction upon remand to HHS constitutes clear
error. They contend that the proper remedy is remand to the agency—and remand alone. See Defs.’
Mot. at 2. Defendants aver that this is an open and
shut issue: because this Court reviewed the agency’s
action and found that the agency made an error of
law, “the court’s inquiry is at an end: the case must
be remanded to the agency for further action consistent with the correct legal standards.” Id. (quoting
Palisades Gen. Hosp. Inc. v. Leavitt, 426 F.3d 400,

116a
403 (D.C. Cir. 2005)). Plaintiffs counter with a different view of what remand requires, asserting that
this Court nonetheless has discretion in certain circumstances to retain jurisdiction. Pls.’ Opp’n Defs.’
Mot. 3, ECF No. 56. Thus, even Plaintiffs
acknowledge that, although the Court may retain jurisdiction over this case, it is not required to do so.
The Court thus reconsiders the issue and determines
that it should not exercise its discretion in that fashion.
As a general matter, Plaintiffs are correct that the
Court has discretion to retain jurisdiction, and it
aligns with other courts in this Circuit in “recogniz[ing] that it has the discretion to retain jurisdiction over a case pending completion of a remand and
to order the filing of progress reports.” Baystate Med.
Ctr. v. Leavitt, 587 F. Supp. 2d 37, 41 (D.D.C. 2008)
(citing Cobell, 240 F.3d at 1109). But “this discretion
is typically reserved for cases alleging unreasonable
delay of agency action or failure to comply with a
statutory deadline, or for cases involving a history of
agency noncompliance.” Id. (citing Cobell, 240 F.3d at
1109). In the instant case, there is no evidence of unreasonable agency delay or noncompliance on par
with the decades-long recalcitrance evidenced in cases such as Cobell. And in such instances, “[t]he norm
is to vacate agency action that is held to be arbitrary
and capricious and remand for further proceedings
consistent with the judicial decision, without retaining oversight over the remand proceedings.” Baystate
Med. Ctr., 587 F. Supp. 2d at 41. Here, of course, the
Court concluded that vacatur was inappropriate, see
AHA II, 2019 WL 1992868 at *7, so its retention of
jurisdiction cuts against this norm.
Moreover, pragmatic considerations call for reconsideration of the Court’s original stance. Both parties

117a
wish to resolve the dispute expeditiously. And this
Court is sympathetic to Defendants’ argument that
retention of oversight over remand to the agency
“calls into question the finality of the remand order”
and thereby risks delaying the ability to appeal to the
D.C. Circuit. Defs.’ Mot. 3. Although Plaintiffs would
prefer that this Court retain jurisdiction and resolve
the merits and the remedy at once, Defendants correctly note in a separate filing that the Administrative Procedure Act does not permit this Court to review a proposed rule before it is final. Defs.’ Opp’n
Pls.’ Mot. 4–5, ECF No. 53 (discussing 5 U.S.C. § 704
and associated case law). Accordingly, retention of
jurisdiction risks delaying prompt resolution of this
suit, pending a final agency rule. To afford the parties
the opportunity for expedited review by the D.C. Circuit, this Court will grant Defendants’ motion for entry of final judgment. This resolution moots Plaintiffs’
motion for a firm date.
III. CONCLUSION
For the foregoing reasons, Defendants’ motion for
reconsideration and motion for entry of final judgment is GRANTED and Plaintiffs’ motion for entry
of a firm date is DENIED as moot. An order consistent with this Memorandum Opinion is separately
and contemporaneously issued.

118a
APPENDIX E
Nos. 19-5048, 19-5198
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
AMERICAN HOSPITAL ASSOCIATION, et al.,
Appellees
v.
ALEX MICHAEL AZAR, II, in his official capacity
as the Secretary of Health and Human Services and
United States Department of Health and Human
Services, Appellants
[Filed] October 16, 2020
Before: SRINIVASAN, Chief Judge, and HENDERSON, ROGERS, TATEL, GARLAND, MILLETT,
PILLARD, WILKINS, KATSAS, RAO *, and WALKER, Circuit Judges.
ORDER
Upon consideration of appellees’ petition for rehearing en banc, and the absence of a request by any
member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

*

/s/
Michael C. McGrail
Deputy Clerk

Circuit Judge Rao did not participate in this matter.

119a
APPENDIX F
42 USCA § 1395l provides in pertinent part:
Payment of benefits
***
(t) Prospective payment system for hospital
outpatient department services
***
(14) Drug APC payment rates
(A) In general
The amount of payment under this subsection for
a specified covered outpatient drug (defined in
subparagraph (B)) that is furnished as part of a
covered OPD service (or group of services)-(i) in 2004, in the case of-(I) a sole source drug shall in no case be less
than 88 percent, or exceed 95 percent, of the
reference average wholesale price for the drug;
(II) an innovator multiple source drug shall in
no case exceed 68 percent of the reference
average wholesale price for the drug; or
(III) a noninnovator multiple source drug
shall in no case exceed 46 percent of the
reference average wholesale price for the drug;
(ii) in 2005, in the case of-(I) a sole source drug shall in no case be less
than 83 percent, or exceed 95 percent, of the
reference average wholesale price for the drug;
(II) an innovator multiple source drug shall in
no case exceed 68 percent of the reference
average wholesale price for the drug; or

120a
(III) a noninnovator multiple source drug
shall in no case exceed 46 percent of the
reference average wholesale price for the drug;
or
(iii) in a subsequent year, shall be equal,
subject to subparagraph (E)-(I) to the average acquisition cost for the drug
for that year (which, at the option of the
Secretary, may vary by hospital group (as
defined by the Secretary based on volume of
covered OPD services or other relevant
characteristics)), as determined by the
Secretary taking into account the hospital
acquisition
cost
survey
data
under
subparagraph (D); or
(II) if hospital acquisition cost data are not
available, the average price for the drug in the
year established under section 1395u(o) of this
title, section 1395w-3a of this title, or section
1395w-3b of this title, as the case may be, as
calculated and adjusted by the Secretary as
necessary for purposes of this paragraph.
(B) Specified
defined

covered

outpatient

drug

(i) In general
In this paragraph, the term “specified covered
outpatient drug” means, subject to clause (ii), a
covered outpatient drug (as defined in section
1396r-8(k)(2) of this title) for which a separate
ambulatory payment classification group (APC)
has been established and that is-(I) a radiopharmaceutical; or
(II) a drug or biological for which payment

121a
was made under paragraph (6) (relating to
pass-through payments) on or before
December 31, 2002.
(ii) Exception
Such term does not include-(I) a drug or biological for which payment is
first made on or after January 1, 2003, under
paragraph (6);
(II) a drug or biological for which a temporary
HCPCS code has not been assigned; or
(III) during 2004 and 2005, an orphan drug
(as designated by the Secretary).
(C) Payment for designated orphan drugs
during 2004 and 2005
The amount of payment under this subsection for
an orphan drug designated by the Secretary
under subparagraph (B)(ii)(III) that is furnished
as part of a covered OPD service (or group of
services) during 2004 and 2005 shall equal such
amount as the Secretary may specify.
(D) Acquisition cost survey for hospital
outpatient drugs
(i) Annual GAO surveys in 2004 and 2005
(I) In general
The Comptroller General of the United States
shall conduct a survey in each of 2004 and
2005 to determine the hospital acquisition cost
for each specified covered outpatient drug. Not
later than April 1, 2005, the Comptroller
General shall furnish data from such surveys
to the Secretary for use in setting the payment
rates under subparagraph (A) for 2006.

122a
(II) Recommendations
Upon the completion of such surveys, the
Comptroller General shall recommend to the
Secretary the frequency and methodology of
subsequent surveys to be conducted by the
Secretary under clause (ii).
(ii) Subsequent secretarial surveys
The Secretary, taking into account such
recommendations,
shall
conduct
periodic
subsequent surveys to determine the hospital
acquisition cost for each specified covered
outpatient drug for use in setting the payment
rates under subparagraph (A).
(iii) Survey requirements
The surveys conducted under clauses (i) and (ii)
shall have a large sample of hospitals that is
sufficient to generate a statistically significant
estimate of the average hospital acquisition cost
for each specified covered outpatient drug. With
respect to the surveys conducted under clause
(i), the Comptroller General shall report to
Congress on the justification for the size of the
sample used in order to assure the validity of
such estimates.
(iv) Differentiation in cost
In conducting surveys under clause (i), the
Comptroller General shall determine and report
to Congress if there is (and the extent of any)
variation in hospital acquisition costs for drugs
among hospitals based on the volume of covered
OPD services performed by such hospitals or
other relevant characteristics of such hospitals
(as defined by the Comptroller General).

123a
(v) Comment on proposed rates
Not later than 30 days after the date the
Secretary promulgated proposed rules setting
forth the payment rates under subparagraph
(A) for 2006, the Comptroller General shall
evaluate such proposed rates and submit to
Congress
a
report
regarding
the
appropriateness of such rates based on the
surveys the Comptroller General has conducted
under clause (i).
(E) Adjustment
overhead costs

in

payment

rates

for

(i) MedPAC report on drug APC design
The Medicare Payment Advisory Commission
shall submit to the Secretary, not later than
July 1, 2005, a report on adjustment of payment
for ambulatory payment classifications for
specified covered outpatient drugs to take into
account overhead and related expenses, such as
pharmacy services and handling costs. Such
report shall include-(I) a description and analysis of the data
available with regard to such expenses;
(II) a recommendation as to whether such a
payment adjustment should be made; and
(III) if such adjustment should be made, a
recommendation regarding the methodology
for making such an adjustment.
(ii) Adjustment authorized
The Secretary may adjust the weights for
ambulatory payment classifications for specified
covered outpatient drugs to take into account
the recommendations contained in the report

124a
submitted under clause (i).
(F) Classes of drugs
For purposes of this paragraph:
(i) Sole source drugs
The term “sole source drug” means-(I) a biological product (as defined under
section 1395x(t)(1) of this title); or
(II) a single source drug (as defined in section
1396r-8(k)(7)(A)(iv) of this title).
(ii) Innovator multiple source drugs
The term “innovator multiple source drug” has
the meaning given such term in section
1396r-8(k)(7)(A)(ii) of this title.
(iii) Noninnovator multiple source drugs
The term “noninnovator multiple source drug”
has the meaning given such term in section
1396r-8(k)(7)(A)(iii) of this title.
(G) Reference average wholesale price
The term “reference average wholesale price”
means, with respect to a specified covered
outpatient drug, the average wholesale price for
the drug as determined under section 1395u(o) of
this title as of May 1, 2003.
(H) Inapplicability of expenditures in
determining conversion, weighting, and
other adjustment factors
Additional expenditures resulting from this
paragraph shall not be taken into account in
establishing the conversion, weighting, and other
adjustment factors for 2004 and 2005 under
paragraph (9), but shall be taken into account for

125a
subsequent years.
***

